<html>
<title> - COMMITTEE FUNDING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                           COMMITTEE FUNDING

=======================================================================

                                HEARING

                               before the

                   COMMITTEE ON HOUSE ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                    HEARING HELD IN WASHINGTON, DC,

                         MARCH 10 AND 16, 2005

                               __________

      Printed for the use of the Committee on House Administration









                 U.S. GOVERNMENT PRINTING OFFICE

20-927                 WASHINGTON : 2005
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government 
Printing  Office Internet: bookstore.gpo.gov  Phone: toll free 
(866) 512-1800; DC area (202) 512-1800 Fax: (202) 512-2250 Mail:
Stop SSOP, Washington, DC 20402-0001















                   COMMITTEE ON HOUSE ADMINISTRATION

                        BOB NEY, Ohio, Chairman
VERNON J. EHLERS, Michigan           JUANITA MILLENDER-McDONALD, 
JOHN L. MICA, Florida                    California, Ranking Minority 
JOHN T. DOOLITTLE, California            Member
THOMAS M. REYNOLDS, New York         ROBERT A. BRADY, Pennsylvania
CANDICE S. MILLER, Michigan          ZOE LOFGREN, California

                           Professional Staff

                     Paul Vinovich, Staff Director
                George Shevlin, Minority Staff Director










                      HEARING ON COMMITTEE FUNDING

                              ----------                              


                        THURSDAY, MARCH 10, 2005

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 9:05 a.m., in room 
1310, Longworth, The Capitol, Hon. Robert W. Ney (chairman of 
the committee) presiding.
    Present: Representatives Ney, Millender-McDonald, Brady, 
and Lofgren.
    Staff Present: Paul Vinovich, Staff Director; Jeff Janas, 
Professional Staff Member; George Shevlin, Minority Staff 
Director; Charles Howell, Minority Chief Counsel; Catherine 
Tran, Minority Professional Staff; and Matt Pinkus, Minority 
Professional Staff.
    The Chairman. I want to welcome the distinguished chair and 
the ranking member, and we will go ahead and start. I have 
talked to our ranking member and she is on her way here now.
    The purpose today of course, and I will be requesting, is 
to consider funding requests for the 109th Congress. We will 
have several panels testify before the committee today and next 
week as our process unfolds. I would like to outline the 
procedure we will follow during these hearings.
    The chairman and ranking minority member of each committee 
will come before the committee and present their budget 
requests for the 109th Congress. The chairman and the ranking 
member will each have 5 minutes to testify. The House 
Administration members of course will have 5 minutes each to 
question the chair and ranking member if they so wish.
    With that, again, I want to welcome--well, two of our 
members are here, and of course, Congresswoman Millender-
McDonald is on her way. I have talked to the gentlelady from 
California.
    We will start with the chairman, Mr. Hyde.

 STATEMENT OF HON. HENRY J. HYDE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF ILLINOIS

    Mr. Hyde. Thank you, Mr. Chairman, ladies and gentlemen of 
the committee, we appreciate, Mr. Lantos and I, being given the 
opportunity to present our budget request for the Committee on 
International Relations for the 109th Congress.
    The workload of this committee will continue to be one of 
the most ambitious for any committee in the House. With threats 
from all corners of the world, deep and troubling problems 
facing people all over the globe, we will be involved in most 
of the major national security decisions facing our country 
today.
    In addition to our normal legislative and oversight 
responsibilities, the committee will continue its rigorous 
oversight of the United Nations, the Oil-for-Food Program, and 
the handling of contracts and contracting in relation to the 
reconstruction projects in Iraq. We must also carry out our 
responsibilities in receiving foreign heads of state and other 
dignitaries, and provide staff support for the various 
parliamentary groups.
    Mr. Chairman, I would like to briefly outline the two major 
increases in our budget request.
    One, the rules of the House of Representatives adopted 
January 4th, 2005, authorized the Committee on International 
Relations to create a new subcommittee, dedicated to oversight 
and investigations. For the additional subcommittee, we are 
requesting funding for four new majority staff positions and 
one minority position. Salaries for this subcommittee will 
total $440,000 in 2005 and $490,000 in 2006. The request also 
includes an increase for equipment, travel, communications and 
other administrative expenses to establish this new 
subcommittee.
    The second major increase in the budget proposal is for 
funding for a proposed House Democracy Assistance Commission 
that is being established at the direction of the Speaker's 
office. In fact, we will consider the resolution on the House 
floor next week establishing this commission. One of the two 
slots on the commission would be filled with an existing 
committee employee. Therefore, we are asking for only one new 
slot for the majority. Overall, we are asking for five new 
majority slots for the new subcommittee and the new commission 
and three new slots for the minority.
    Funding for the new House committee and the House Democracy 
Assistance Commission represents nearly 40 percent of our 
requested increase for the 109th Congress. I realize this is a 
large increase, but I also believe it is a much needed increase 
to effectively perform our oversight responsibilities as 
requested by the leadership of the House.
    It has been a pleasure working with my colleague, Tom 
Lantos, our very able and respected ranking democratic member. 
We have an excellent working relationship, perhaps the best 
partnership in the House, and I want to continue in that 
direction. Our request includes funding for three additional 
minority positions, which ensures my personal commitment to Tom 
for allocating one-third of any additional staff to the 
minority.
    Office space is a continuing problem. At the beginning of 
the 108th Congress, a subcommittee was relocated from the 
Rayburn Building to the Ford Building, and the space was given 
to the Democratic staff. We have been assured by the Speaker's 
office that additional office space will be assigned to the 
committee to accommodate the staff of the new subcommittee and 
the Democracy Commission.
    In conclusion, Mr. Chairman and members of the committee, 
let me stress this is a fair and responsible budget request. 
The Committee on International Relations has become a major 
player in foreign policy and the budget request will enable us 
to carry out the duties of a serious and successful committee.
    Mr. Lantos has a statement, and following that, I will be 
pleased to respond to any questions you may have regarding our 
request.
    The Chairman. Thank you. Distinguished ranking member, Mr. 
Lantos.

STATEMENT OF HON. TOM LANTOS, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Lantos. Mr. Chairman and distinguished members of the 
committee. I will just take a minute, because I fully support 
the budget proposal of our distinguished chairman and my good 
friend, Henry Hyde.
    I just would like to emphasize, Mr. Chairman, that our 
committee conducts its work in an incredibly cooperative, 
coordinated and collegial fashion. I only wish that the spirit 
of the entire body would reflect what is the prevailing spirit 
of the International Relations Committee.
    The chairman has outlined our requests. I fully support 
those, and I only would like to convey to you and to the 
members of the committee the staggering increase in the 
activities of this committee in recent years.
    If you will allow a vignette, which historically was a 
Democratic anecdote, but it now can be spoken of publicly. At 
the height of the Monica Lewinsky scandal, we had a Democratic 
Caucus and President Clinton spoke to it with his usual 
eloquence and brilliance. Then he asked for questions. There 
were three microphones set up in the Caucus Room, and I got to 
a mike and I looked around and there were 17 people ahead of 
me. I listened to the 17 questions. Then it was my turn.
    The President says, ``Well, Tom, what is on your mind?''
    And I said, ``Well, Mr. President, I want to change the 
subject.''
    There was dead silence in the room. Everybody got snow 
white, because they thought I would change the subject to 
something personal. I said, ``No, all 17 questions preceding me 
were questions relating to domestic issues. I want to raise an 
issue of an international nature.''
    You have never seen Bill Clinton more happy than when I 
finished my question.
    Times have changed. Every major issue on the agenda, with 
the exception of Social Security maybe and a couple of others, 
is within the purview of our committee. Just the range of 
overseas visitors to us has become mind boggling. I spent 
yesterday afternoon with the Libyan Chief of Mission, the 
American Chamber of Commerce from Cairo, with the Chinese 
Ambassador who is in charge of dealing with North Korea, and 
every day we have a whole range of basically relevant but 
extracurricular activities that we cannot escape. The staff is 
overworked, inadequate in terms of numbers and outstanding in 
quality.
    I strongly urge you, Mr. Chairman, and members of the 
committee, to respond to our bipartisan request fully, because 
we are carrying out national security and foreign policy 
responsibilities, and we need an adequate staff to do so. Thank 
you, sir.
    The Chairman. I want to thank both of you for your 
testimony and also the job you do. I do have one question of 
the ranking member. Do you believe the two third/one-third has 
been reached as we have----
    Mr. Lantos. Well, I certainly do. I must say, and I have 
said this previously, that I believe resource allocations 
should be based on an accurate percentage basis, which would 
give the Democratic side 47 percent of the staff, the space, 
the working budget, but this is above my pay grade.
    But in terms of Chairman Hyde's allocation, I could not be 
more pleased. As in everything else, he is incredibly fair and 
generous.
    The Chairman. Thank you. I really just want to comment 
briefly--I don't have any questions--but the master plan, 
because we listened a couple of years ago, and the master plan 
will be complete by March of 2005 for building space. I have 
talked to the Architect about the space deficiencies.
    I looked at the scale. It is unbelievable if you look at 
the 1960s, when Rayburn was built, I think in 1959--and if you 
look at how many people are supposed to be in these buildings 
versus how many people are in these buildings, we are like 
7,000 people over where we should be.
    Mr. Lantos. Yes.
    The Chairman. Working conditions are atrocious. And so I 
think, it looks at supporting staff offices, removing the 
underground parking, which is a significant security issue, and 
I am hoping that this is implemented soon, because it will take 
about 5 or 6 years, if it is implemented tomorrow, to get done. 
I think we owe it, whether we are going to be here in 7 or 8 
years, to future staff of the House, to improve the working 
conditions. A lot of good people do things, and I think that 
they have to have good working conditions.
    But, again, I appreciate both of you, your working 
relationship, the allocation of the two-thirds/one-third.
    Also let me say something, yesterday we also had the Afghan 
women right here in this room. They came here from Afghanistan. 
The amount of increased international activity, as you 
indicated in the Chair, is unbelievable, because as you know, 
we are about what is going on in the world.
    I have traveled with both of you, I have seen some 
significant things you have been able to do, through meetings. 
I remember one time an editorial 6 years ago quoted me because 
I said international relations is not the exclusive right of 
any President, there is a Congress out there. They praised me 
in the newspaper and then, of course, attacked all of us for 
traveling in that same paper later.
    But I think it is important. I have seen things change. I 
have traveled again on some important trips with both of you, 
and so I think that the role that you do is important and you 
need to be able to have the resources.
    I really have no questions, but I want to thank both of you 
and our gentlelady. Our ranking member is here.
    Ms. Millender-McDonald. Good morning, good morning to you, 
Mr. Chairman, and to the ranking member. It is great to see 
both of you. I shan't say that you don't get along, because you 
get along quite well.
    But the one thing that I am interested in and want to be 
assured of is that the formula that our leader here, the 
chairman has laid out, is the two-thirds/one-third in terms of 
your allocation of budget, and just want to make sure that you 
are satisfied, Mr. Ranking Member, with that concept and with 
that formula, and that you are given the autonomy to get 
equipment if so needed and those other things that are 
pertinent to your well-being.
    Mr. Lantos. Madam Ranking Member, let me just say, as I 
indicated a bit earlier, I really have two answers. Chairman 
Hyde's allocation of staff and resources on a two-thirds/one-
third basis could not be more fair and equitable and gracious. 
The overall issue of whether resources should be so allocated I 
have serious doubts about. We have 47 percent of the membership 
of this body and a strong case can be made, which I am ready to 
make at the drop of a hat, that we should get 47 percent of the 
resources. But that is above my pay grade.
    Ms. Millender-McDonald. Well, okay, then, so in essence, 
given the venue that you have just outlined, other than that 
you are pretty much satisfied with that?
    Mr. Lantos. I could not be more happy with the working 
relationship that both the chairman and I have and our 
respective staffs have.
    Ms. Millender-McDonald. Very good. I really do agree with 
you, because when I have come before each of you I do like the 
respectability that you share between each other and how you 
have worked very collegially in terms of trying to find the 
common ground.
    So, Mr. Chairman, I would also like to commend you in your 
leadership in ensuring that we have that two-thirds/one-third 
allocation between the two chairmen and ranking members of 
these two committees so we can be about the business of 
providing the leadership and the services to the committees 
that they represent.
    So thank you, Mr. Chairman.
    The Chairman. Thank you. Questions? The gentlelady.
    Ms. Lofgren. Since I am brand new I am going to ask a 
question. I certainly would not disrupt what has been 
recommended here, because obviously the chairman and ranking 
member agree, so maybe this is really about the whole process 
that we are in. It is my understanding, and I guess it is a 
question, not a statement, that the general rule is that the 
minority has a third of the slots, a third of the budget, 
control over their third?
    Ms. Millender-McDonald. Yes.
    Ms. Lofgren. And then the chairman and ranking member can 
arrange to do something different if it works better for them; 
is that generally the rule?
    The Chairman. That is the policy.
    Ms. Lofgren. Okay. All right.
    The Chairman. There is no actual rule in the House that it 
has to be done.
    Ms. Lofgren. But that is our operating system.
    The Chairman. If I could take a second, if the gentlelady 
would yield. When Bill Thomas became chairman of the House 
Administration and Steny Hoyer was the ranking member, they 
tried to achieve two-thirds/one-third. Bill Thomas did it. He 
gave Mr. Hoyer, as we do to this day, one-third and said here 
is your allocation. Some committees that shared staff, Ethics 
and others, had more trouble because they shared staff.
    Ms. Lofgren. Right.
    The Chairman. They achieved most of the two-thirds/one-
third, but there was not a complete achievement of the process. 
When I became chairman, we talked to the Speaker, Bill Thomas. 
They wanted to really get this done with Steny Hoyer. So when 
Steny was chair, we made a huge effort and Steny and I, 
actually sat with a couple of members, ranking members, we got 
down to about two committees where we finally made some 
decisions and we got to what we felt was the two-thirds/one-
third and then it continued under Mr. Larson.
    Ms. Lofgren. The rationale is that the majority--it is 
obviously not two-thirds/one-third in the House but the 
majority has to do kind of additional clerical work and 
administrative burden and that that justifies?
    The Chairman. It was something that Mr. Thomas--I will tell 
you in all fairness I wasn't here in the minority, but I will 
tell you that we have the stats. When the Democrats controlled 
the Congress, some of the minority received 9 percent of the 
budget, 10 percent of the budget in worst circumstances. So I 
do need to raise that issue.
    Ms. Lofgren. Well, I wasn't here then.
    The Chairman. No, this is not directed--I just want to tell 
the history of before my time here.
    Ms. Lofgren. I am just trying to figure out what the rules 
are.
    The Chairman. That is what we tried to do.
    Ms. Lofgren. I am sorry to take the committee's time, 
because they have come up with their own agreement. Obviously, 
we will accept what they have agreed to. I wanted to know what 
the parameters were for all the committees, and I thank the 
Chairman.
    The Chairman. Other questions? With that, I want to thank 
both the Chair and the ranking member for your work in the 
House and your time today.
    Mr. Lantos. Thank you very much.
    Mr. Hyde. Thank you.
    The Chairman. Next we have the Chair of the Judiciary 
Committee, Mr. Sensenbrenner, and Mr. Conyers, the ranking 
member, and we will start with the Chair of the Judiciary 
Committee.

STATEMENT OF HON. F. JAMES SENSENBRENNER, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF WISCONSIN

    Mr. Sensenbrenner. Thank you very much, Mr. Chairman and 
Madam Ranking Member. As the previous committee was leaving 
they said go get them. This is your chance to go get us, and I 
hope that is not going to be the case.
    But I am pleased to appear before you today to present my 
third budget request as chairman of the Judiciary Committee. I 
have a lengthy prepared statement that I would like to submit 
in full for the record, but I would like to briefly mention 
some of the elements that I believe are important for this 
committee to consider.
    As you know, the Judiciary Committee is quite active and is 
frequently called upon by the leadership to consider 
complicated and controversial legislation. The workload and 
proven production of the Judiciary Committee are unrivaled 
among other House committees. However, during the past 
Congress, we ranked seventh in committee budget allocations. I 
anticipate that the frenetic legislative pace will continue, as 
evidenced by the early floor activity this year of the REAL ID 
and Class Action legislation. We plan to mark up the bankruptcy 
bill next week, should the Senate pass it.
    In order to keep up with the pace and continue to address 
complex areas of law while maintaining oversight of the 
Executive Branch agency and important laws such as the PATRIOT 
Act, we simply need more resources.
    Considering our workload, the number of members and the 
fact that almost all of our professional staff are attorneys 
and thus command higher than average salaries, I believe that a 
significant increase in our budget is justified. Consequently, 
the proposal before you today represents $18.26 million to meet 
the needs of the committee over the next 2 years, which is a 30 
percent increase over the last Congress.
    Let me explain. The budget contains an increase of nine new 
permanent staff slots, six for the majority and three for the 
minority. Two of these new staff slots would be allocated for a 
majority and minority law clerk. The backbone of the Judiciary 
Committee's effective approach in the 108th Congress was its 
highly qualified staff, which can only be retained if offered 
salaries which are competitive with the private sector. I 
really want to emphasize this, because if you expect the 
committee to do the job that it has to do and to file lengthy 
and complicated committee reports on a complicated legislation 
like the bankruptcy bill, we need to prevent our experienced 
staff from jumping over to the private sector because we can't 
pay them enough.
    The equipment line item in this budget request includes the 
purchase of additional BlackBerries, computers, software and 
printers to accommodate the needs of current staff, as well as 
any additional staff and to support our continuity of 
operations plan. We also intend to replace outdated equipment 
in each calendar year to keep our systems and equipment current 
and in compliance with the House minimum standards of 
operation.
    The committee launched a new website last fall, which is 
providing Members and the public alike improved access to 
information, and we have budgeted additional funds in this 
category for further enhancements to the website.
    In addition to live webcast access, we have budgeted funds 
and we will continue to provide access to webcast archives of 
hearings to continue our goal of giving taxpayers an 
opportunity to view hearings on demand and to become more 
participative in the legislative process.
    In order to move aggressively to perform our oversight 
mandate, we have also developed, in coordination with an 
outside vendor, an oversight tracking system, which will help 
us manage our extensive oversight agenda. We have budgeted in 
this request for additional development, user licenses and 
monthly maintenance.
    Finally, the committee has carefully considered the 
potential for unforeseen disasters and have purchased some 
equipment for disaster recovery purposes.
    This budget submission allows for additional purchases and 
maintenance of this equipment.
    This resolution will maintain a one-third minority, two-
thirds majority division, with respect to salaries and staff 
slots, adjusting for the seven nonpartisan administrative 
positions.
    For the benefit of the minority members of this committee, 
let me say that we have a total staff allocation--there are 
seven positions that are purely administrative in nature, such 
as certifying the payroll, doing the accounting, getting our 
records printed at the GPO. We take those seven positions off 
the top, and the remainder are divided two-thirds/one-third.
    In closing, I appreciate the spirit of cooperation which 
Ranking Member Conyers has demonstrated. In the last Congress, 
I believe, we met almost all of the minority's requests 
concerning necessary equipment, travel and the addition of new 
office space. I hope he agrees that the minority has been 
treated with fairness in matters of committee administration 
and funding.
    I appreciate your attention to this request and would be 
happy to answer questions.
    The Chairman. I want to thank the gentleman, I thank the 
Chairman. The ranking member, Mr. Conyers.

   STATEMENT OF HON. JOHN CONYERS, JR., A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Conyers. Good morning, Mr. Chairman. I am delighted to 
be before you and my friend, Ms. Millender-McDonald and Zoe 
Lofgren now, who I didn't know was on this subcommittee before 
now.
    This is an important event for us because this joint budget 
request, which has been carefully worked out between the 
chairman and myself, I think demonstrates that your Committee 
on the Judiciary has been--it seems to be working more and 
more, our legislative load is getting larger.
    We just lost a professional staffer, a lawyer last week, 
because we didn't have a budget, and we couldn't assure him of 
anything. Unfortunately, with five children, he regretfully 
took his leave, just to back up what Mr. Sensenbrenner had been 
referring to.
    As you know, you see us on the floor every week. If a week 
goes by and the Judiciary Committee hasn't been up once or 
twice or more, it is usually a surprise. The complexity and the 
number of issues is quite challenging, and I want to say on 
behalf of Chairman Sensenbrenner that our request is quite 
measured in terms of how we might increase our resources and 
our staffing.
    The Class Action bill, now the Bankruptcy bill, the PATRIOT 
Act is going to be back up, the Voting Rights Act has two 
sections that are expiring. We have sentencing guidelines, 
since the Supreme Court has acted to reconsider new matters 
concerning science and criminal law. Plus, our old standbys of 
antitrust, administrative law, the Federal court system itself 
and immigration claims and constitutional amendments.
    So what I merely want to do--and I have a longer statement 
that I ask be included in the record----
    The Chairman. Without objection.
    Mr. Conyers [continuing]. Is that I wanted to underscore 
the cooperative spirit that has formed our relationship across 
the years and the need for the reasonable adjustments that have 
been put forward by Chairman Sensenbrenner.
    It is good to see all of you again, and I close with this 
observation. It was under Chairman Ney that this Judiciary 
Committee was able to make real progress and move forward to 
the kind of spirit that I think forms the committee on both 
sides at this present moment, and I thank you very much for 
this opportunity.
    [The statement of Mr. Conyers follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. I want to thank both gentlemen. I want to ask 
the ranking member, because 2 years ago you came here and the 
chairman was here, and the two-thirds/one-third is working?
    Mr. Sensenbrenner. Yes.
    Mr. Conyers. It is working. We don't have enough of it to 
work with, but it is working.
    The Chairman. Money, in other words. You may not always 
agree on every piece of legislation, but you agree on this. 
That is understandable. I appreciate that.
    The gentlelady.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman. I 
couldn't agree with you more that when professional staff does 
not seem to--salaries do not seem to come to the benchmark of 
those in the private sector, you will certainly lose those 
types of people. So I couldn't agree with you more.
    I wanted the chairman to recognize, though, that while he 
spoke about the Democrats when they were in the majority, how 
they really didn't get but about 9 percent of the budget. I 
would also like to have him recognize that once the Newt 
Gingrich group came into the majority, they slashed everything. 
So this is why these poor chairman are now trying to reel back 
to try to get some of that money that was slashed when the new 
majority wanted to prove that they would slash budgets.
    Mr. Sensenbrenner, given that you are talking about 
outdated equipment, and you certainly need that, and it is no 
doubt that the Judiciary Committee will be confronted with a 
lot of those things that have been outlined by both you and the 
ranking member, does the minority--who orders your equipment? 
Do you do that solely or does the minority have the opportunity 
to buy their equipment?
    Mr. Sensenbrenner. Yes. We do this in house in ordering the 
equipment, but we do it in consultation with the minority. The 
minority gets approximately a third of the equipment budget to 
help their staff do their job. I do not recall Mr. Conyers and 
I ever having a problem in determining the allocation of 
equipment.
    What we try to do is we try to have a rotation plan so that 
the oldest equipment gets replaced so that we can take 
advantage of advances in technology and thus increase the 
productivity of the committee and its staff. But, again, I 
haven't heard any complaints from Mr. Conyers, nor do I 
anticipate any.
    Ms. Millender-McDonald. So given that he does receive one-
third of the budget for--one-third of his budget for equipment, 
he does not have the total autonomy to purchase anything 
without consultation with you; is that correct?
    Mr. Sensenbrenner. Well, the House rules require that the 
vendor orders be signed by the chairman.
    Ms. Millender-McDonald. Yes.
    Mr. Sensenbrenner. Thus, Mr. Conyers has to make a request, 
and those requests are within the two-thirds/one-third 
allocation. You know, we do share a lot of equipment as well, 
so that we don't have an unnecessary duplication of equipment. 
But the proprietary work that is being done is on equipment 
that is secured on each side of the aisle.
    Mr. Conyers. Madam Ranking Member, can I point out that we 
really come up with a unified budget on equipment? I have 
never--maybe my chief of staff can remember something 
different. But I have never had any problem about equipment.
    Ms. Millender-McDonald. Okay.
    Mr. Conyers. Our resources frequently are mutually shared, 
as well as our space for that matter, and I want to just second 
everything that the chairman has made in reference to your 
question.
    Ms. Millender-McDonald. So, in other words, there is 
collegiality when it comes to the requests for equipment and 
supplies and that type of thing?
    Mr. Conyers. Absolutely. It is personnel that haunts us, to 
me in the Judiciary Committee, if I might just tell you 
candidly. We have so many assignments out and so many things 
coming up that we are rather stretched. It is the resources, 
but it is mostly staff that is the thrust of our requests this 
morning, ma'am.
    Ms. Millender-McDonald. Mr. Chairman, then if by some 
means--I see here that your request is for 30 percent increase 
of your budget, which is an average of 9.9 percent. But in the 
event, because it doesn't mean that you are going to get it, it 
is just that this is your request and of course we have got to 
look at all of the committees. But in the event your committee 
budget is cut, will you still be prone to ensure that the 
minority gets his one-third of that budget irrespective of it?
    Mr. Sensenbrenner. Absolutely. I would point out that even 
before this committee issued the edict in 2001 on the two-
thirds/one-third split I offered Mr. Conyers more staff than my 
predecessor, Mr. Hyde, offered him during the 6 years that Mr. 
Hyde was the chairman of the committee.
    You know, if Mr. Conyers does not have the staff and the 
equipment that is necessary, then there simply is a delay in 
processing paperwork in order to present the legislation to the 
floor. While we have got a lot of contentious issues in the 
committee, we have also got a lot of things that we agree on, 
particularly in the area of intellectual property rights 
protection. But we want to make sure that the paperwork is 
there so that there is appropriate legislative history, so that 
when these laws get interpreted in the courts the courts can 
refer to exactly what was going on.
    I will give you a case in point. The Bankruptcy bill will 
be marked up next week. The Senate did not file a committee 
report on the Bankruptcy bill. We have dissenting views with 
those who disagreed with it. Last year the committee reported 
that the House Judiciary report filed on the Bankruptcy bill 
was 450 pages long. Now, without staff you are not going to be 
able to write what amounts to a medium-sized book, which will 
be used by the bankruptcy bar and the bankruptcy judges to 
determine exactly what we mean if the bill becomes law. That is 
the type of professionalism that I think we need.
    Ms. Millender-McDonald. Absolutely.
    Mr. Sensenbrenner. Particularly with this committee, 
which----
    Ms. Millender-McDonald. Absolutely.
    Mr. Sensenbrenner [continuing]. Which deals with highly 
technical issues.
    Ms. Millender-McDonald. I couldn't agree with you more. I 
certainly do know that this committee needs professional staff, 
both at the legal level and all others, technical level, so 
that you can ensure that you have proper staffing. I just want 
to be ensured that when we talk about professional staff that 
both you and the ranking member will be adequately served by 
that.
    Mr. Sensenbrenner. Thank you.
    Ms. Millender-McDonald. I thank you so much. Mr. Chairman, 
thank you.
    The Chairman. Question?
    Ms. Lofgren. Just a quick comment and then maybe a question 
of Mr. Conyers. As a member of the Judiciary Committee now for 
10 years, I can attest to the fact that the workload is very 
large, and it is my very firm belief that there is not an 
excess of staff on the committee. I mean, it is a huge amount 
of the work of the Congress that goes through the Judiciary 
Committee. So I do believe that an increase in the budget for 
this committee is certainly soundly based in the workload.
    But having said that, my understanding of the policy of the 
Congress at this point is that each committee, the minority 
gets one-third of the slots, one-third of the budget and 
control over their one-third of the budget. Then chairman and 
ranking members are free to vary that by agreement, but that is 
basically what the minority is entitled to.
    You have varied that by sharing staff and therefore getting 
less than your full allotment. You are not fully controlling 
your budget, as you are entitled to, but you are also free to 
come up with a different agreement. So you are satisfied with 
the deal that you and the chairman have established?
    Mr. Conyers. I am quite satisfied with it, Ms. Lofgren. I 
just want to emphasize that it is a marked improvement over--
and Chairman Hyde and I were and are still very good friends, 
but the resources and the allocation of staff and office space, 
I might add, have all improved under the relationship----
    Ms. Lofgren. The space was something that I wanted to 
raise, because the space for the minority is terrible. I am 
wondering if there is any discussion under way between yourself 
and the chairman about the space that is available for the 
minority, not only the staff but also members who have to slip 
out. It is really a constraint.
    Mr. Conyers. We just got some space in Rayburn, I have just 
been advised, and we have a library next to our office space.
    Ms. Lofgren. That is not always available.
    Mr. Conyers. I will tell you the story of Jack Brooks, who 
was assigned by Mr. Rayburn, who was then the Speaker, when 
they were building these buildings how large to make the 
majority and how large to make the minority offices. It was 
done under the assumption that Democrats would never be in the 
minority.
    Ms. Lofgren. Well, I think Mr. Brooks got his reward for 
that decision, and certainly that is not behavior that I would 
like to emulate. But I appreciate that additional staff has 
been made available.
    I yield back, unless the chairman would like to say 
something.
    Mr. Sensenbrenner. Ms. Lofgren, let me say that we have 
been attempting to get more office space. The problem is not 
the allocation between the majority and minority staff, the 
problem is getting the office space from the Speaker or 
whomever assigns the office space, so that we can have enough 
space to have our people adequately do their job. We need more 
office space as well. If this committee can help us get more 
office space as a full committee, the minority will get more 
space to put their people as well.
    Ms. Lofgren. Thank you, Mr. Chair.
    The Chairman. Mr. Brady, a question?
    Just one quick comment, and we did this with the last 
chairman. We have got this office plan, we have been pushing 
this. In a lot of cases there is no space. You know, we have 
more staff on the majority side than the minority, but even 
here, because we do have more people, I gave up my office and 
we put up three people in it. I give up another office, and we 
put two or three people in it.
    I have been pushing this and I would hope that the Speaker 
and Leader Pelosi would be able to have a meeting of the 
minds--and I know their staff is working towards it, to have 
some type of decent conditions.
    If you look at the charts from the Architect of the 
Capitol, this building was not designed--these buildings are 
holding 7,000 more people than they were ever designed for. It 
is not good working conditions, it is not healthy, and that is 
the only way we are going to alleviate this. In a lot of places 
Chairs will call ranking members and there is no place to put 
people, period, unless you take them over to Ford and that is 
all cramped.
    I want to say something internally, we dealt with the 
committee, both the minority staff and the majority staff of 
your committees call, they share ideas, what they want to do, 
you know, or equipment, and I know it is also really good on 
detailees for both of you. You followed all the ways to process 
things, and working in turn with both of your staffs has been 
very good for us.
    Mr. Sensenbrenner. Thank you.
    Mr. Conyers. Thank you very much.
    The Chairman. Next we move on to the Budget.
    Thank you. We start with the Chair and ranking member, Mr. 
Nussle.

STATEMENT OF HON. JIM NUSSLE, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF IOWA

    Mr. Nussle. Thank you, Mr. Chairman and Ranking Colleagues, 
for the opportunity to come before the House Administration 
Committee and submit our budget request. I have submitted 
testimony that I would like part of the record.
    For the 109th Congress the Budget Committee is requesting 
the same allocation for 2005 and 2006 as we had for 2004. We 
are asking for a budget freeze. Since the committee's budget 
increased by inflation between the first and second session of 
the last Congress, our request is technically from one Congress 
to another--about a 1.3 percent increase is what we are asking 
for.
    While I can argue like I am sure many people have and will 
for additional funds as any chairman can, I really can't 
justify a larger increase at the time when our Budget Committee 
last night reported out a pretty tight budget. We are asking 
all Federal Government and agencies to tighten their belts. I 
think we ought to lead by example.
    On an account level our personnel costs in the last 
Congress were less than anticipated because of delays in 
filling several majority staff vacancies. These vacancies were 
recently filled with experienced staff from the Executive 
Branch and other areas. Our personnel costs will accordingly 
increase.
    Nevertheless, the request should provide adequate funding 
for staff and staff salary for the 109th Congress. Our funding 
levels in the categories of detailees and consultants remained 
unchanged in the last two Congresses.
    As with our funding request for the 107th and 108th 
Congresses, this request does not assume any funding for 
detailees from the Executive Branch or outside consultants.
    Additionally, our travel expenses were less than 
anticipated, and consequently our request in that category 
reflects a reduction for funding levels from the 108th 
Congress.
    Mr. Spratt and I were just visiting about that, and he may 
want to mention this as well. But if we do need to do field 
hearings of some sort in the future, we may need to come back 
and talk to you about that. But at this point in time, it is a 
pretty rare occurrence that the Budget Committee goes out into 
the field. Most of the time that happens here.
    Our equipment needs will not be as great in the 109th 
because we have put a disaster recovery system in place and 
have already, as I previously mentioned, completed upgrades to 
our hearing room. We thank you for your assistance in making 
sure that was possible.
    Therefore our focus will be on software upgrades, an annual 
one-third upgrade of computers, printers and other equipment.
    Obviously, in preparing these funding requests, Mr. Spratt 
and the minority have been consulted to determine their 
budgetary needs. My practice, as has been requested by this 
committee and is the practice of our committee, is to provide 
the minority with a third of the total budget for personnel. 
This translates into providing the minority a third of the 
available staff positions as well as the line item for 
personnel compensation, and additionally it is my policy to 
upgrade one-third of the minority's equipment each year as 
well.
    To the best of my knowledge, I have attempted to 
accommodate all requests from the minority within our available 
resources. We also share our space, as much as it is again 
possible.
    I would be happy to answer any questions. But before I do, 
let me just say thank you. This committee has provided us with 
everything we have needed that I am aware of. You have done a 
great job in helping us upgrade our committee. Obviously 
everyone has many requests to make, but we want to thank you 
for the things you have done to help us be on the cutting edge 
of delivering a quality product, and so thank you for that.
    The Chairman. Thank you. I thank the gentleman for his 
comments.
    Mr. Spratt.

  STATEMENT OF HON. JOHN M. SPRATT, JR., A REPRESENTATIVE IN 
           CONGRESS FROM THE STATE OF SOUTH CAROLINA

    Mr. Spratt. Thank you, Mr. Chairman. Let me echo everything 
that Chairman Nussle just said, and Ranking Member Millender-
McDonald. We have a tight budget but we can live within it, and 
I think frankly the example we should set as the Budget 
Committee is one of squeezing your resources to the maximum. 
The lion's share of what we get goes to personnel, and as the 
chairman has indicated, a third of the personnel account comes 
to us, and that arrangement has worked very well for us. We 
could use a few extra people, but the fact of the matter is we 
don't have the space for them.
    We were in the luxurious quarters known as the O'Neill 
Building, I think it used to be a Howard Johnson's Motel. We 
could at least say to every staff member, you get your own 
bathroom, you even get your own bathtub. Most of the tubs got 
converted to file space but nevertheless that building was torn 
down and we were orphans looking for space.
    I want to commend the House Administration because you 
found us space in the basement of Cannon. We shoehorned into 
it, but given the available square footage, I think your folks 
did a superb job in trying to accommodate our needs for about 
13 different staff members, but we are maxed out in that space 
down there. We would like to get an additional person. We would 
like to have a few of the people who are sitting in each 
other's laps an opportunity to find some additional space. So 
if anything comes open down there, that would be my one 
request, which doesn't cost direct dollars, that if we could 
have a little bit of additional breathing room it would be a 
boon to us.
    I mentioned to the chairman before we started that as I 
looked down at the budget and saw that there was only $10,500 
for travel, that if the Budget Committee ever did what we did 
in the 1980s and before, and that is go on the road and hold 
regional hearings as to the input from the public and budget 
request and what should be done, we wouldn't have nearly enough 
money to do that. We are not asking for it now but we would ask 
you to leave a placeholder. If we ever decide to do that, we 
might like to come back and ask you.
    Otherwise I am satisfied with the budget, pleased with the 
relationship we have with the majority, and it is working well 
on our committee.
    The Chairman. I want to thank you. Again, internally, 
working with our staff holders, working with both your staffs 
has been no problem, things went smooth.
    I also want to thank Mr. Nussle too. Thank you for your 
comments, but also during the anthrax--House Administration 
operated out of--you squeezed us into your quarters being so 
gracious. That is how we operated when the anthrax occurred 
here and we all had to vacate this building. So we appreciate 
the ability to work with you.
    Only question that I have, you are okay with the two-
thirds/one-third allocation then?
    Mr. Spratt. Yes.
    The Chairman. Thanks, I want to thank both of you.
    Ms. Millender-McDonald. Thank you very much. Good morning 
to both of you. And it is good to hear anyone who is dealing 
with money say that they want reductions in terms of your 
travel. I think that is very admirable. And I do understand 
that you still want to hold that spot, though, just in case you 
might go off to more field hearings.
    Space is at a premium around here. My goodness, everyone 
has come to talk about the need for more space, so you are 
certainly with good company in requesting that. The chairman 
has been very open to finding the space as we find it 
ourselves; even House Administration needs more space.
    I just wanted to emphasize, though, to the minority, the 
chairman did say that you have--or do you have control over 
nonpersonnel items like equipment?
    Mr. Spratt. No, we don't. But the chairman said that he 
tries to see to it that we have a third of the equipment 
allowance. I think he has a better printmaker; he makes better 
posters than we do. I think he has got the most sophisticated 
system in the world, but ours works fine.
    Ms. Millender-McDonald. Okay, fine. So you are satisfied 
with the ratio that you get with reference to his ability to 
reach out to you for any equipment or any other incidentals 
that you would need?
    Mr. Spratt. We have been, yes, ma'am.
    Ms. Millender-McDonald. Very good.
    Thank you, Mr. Chairman.
    The Chairman. Any other questions? The gentlelady.
    Ms. Lofgren. If I am understanding the testimony correctly, 
the minority--and this may be true of the majority, too, I 
don't know--has not actually been able to utilize its full 
salary allotment because of lack of space to put the people; is 
that correct?
    Mr. Nussle. I mean, part of it is just the slots, if I 
could--part of it is just obviously--and we have this in our 
personal offices, too, that when somebody leaves and you 
replace them, maybe the salary is lower, maybe there is a gap 
at the time.
    I think that is probably more to the case than not having--
well, I am just speaking for myself. That may not be the case 
with Mr. Spratt, but in our instance, it is just the transition 
that goes on when staff turns over.
    Ms. Lofgren. Is that true on the minority side as well?
    Mr. Spratt. What we used to do was have associate members, 
that is, staff who were employees of Budget Committee members, 
like the Appropriations Committee.
    That creates two problems. The main problem, as the 
chairman just said, is the slot problem, the number of 
available slots. So to free up a few extra slots, we abandoned 
that practice for a prospectus for associate staff, and it has 
worked pretty well and has freed up moneys so we can upgrade 
our staff and upgrade their salaries and also add a couple of 
people.
    So we sort of did it in our allowance and constructively--
--
    Ms. Lofgren. So you don't share staff at all?
    Mr. Spratt. We don't have the space; I don't know where we 
would put the person. We have got--as you walk in the door to 
our cubbyhole in the basement of Cannon, we have got two 
people, and divided between the two of them they are 
practically in each other's lap.
    Ms. Lofgren. I should go visit that, look at it.
    But you are satisfied, given the constraint that we have--
and we are moving to get additional space, I understand. I 
thank you, Mr. Chairman; this is an education.
    Mr. Nussle. And I will just say, for the purposes of my 
chairmanship more than anything else, I have tried to adopt the 
attitude of do unto others, because you never know when that is 
going to be your space. And I have really--I have tried to 
follow that practice.
    And my only point in saying it is that I have been down to 
their space, I was just down there the other night; and I know 
what Mr. Spratt is talking about, and it is difficult. I know 
the challenges that they had, and I can't believe this is an 
improvement, but that is what he is saying. I was never over to 
the O'Neill Building to see their space at that point; but it 
is an issue we do have to grapple with, no question.
    The Chairman. Again, the space issue is, you know, for 4 
years we have been harping about it, and I mean, something 
needs to be done because the space issue is terrible, and we 
are just running out of places. I have seen literally some of 
the closets here being converted to small rooms for people 
here. I just think it is a major problem.
    We try--for example, members of the House Administration 
Committee, if they want to use these rooms or our conference 
room, they are welcome to do it. We try to do those kinds of 
things, and I think a lot of people do that, but overall it is 
out of space. And, you know, trying to get a room sometimes 
just for a meeting in this building, and we get--people call us 
every day for it.
    So it is a real problem, and it has got to be addressed. So 
the sooner we start, the better off we are going to be for 
people down the road.
    Or the alternative is, you cut back. And with the Internet 
today, you know, more people than ever before are calling into 
offices and seeking information. It creates more work, and when 
it creates more work, you need more staff; you have to put them 
somewhere.
    I would say, honestly, in the corporate world if spaces 
were like this, there would be outright rebellions in offices.
    Mr. Spratt. Mr. Chairman, could I say thank you, and thank 
Mr. Nussle for one major change you have made in our 
facilities, and that is in the audiovisual equipment we have, 
the screens and the other things we have in the room. It has 
made a huge difference in the manner in which we hold hearings 
and portray the budget situation to the public and to the 
press. I think it has been a plus, a big plus, and something 
you should do in every committee room, even those who don't 
come ask for it, like the Armed Services Committee. I think it 
would be a great thing for us to have in the Armed Services 
Committee.
    The Chairman. Thank you. And I will thank both the 
gentlemen. Thank you.
    The committee will recess and we will take the vote and 
come back to Financial Services. Thank you.
    Ms. Lofgren. Mr. Chairman, we have our new Member from 
California being sworn in right after the vote, so we have to 
walk down with him.
    The Chairman. We will go to the recess and then swear in 
the new Member, and then we will come back. Thanks for pointing 
that out.
    [Recess.]
    Mr. Chairman. We will go ahead and restart with Chairman 
Oxley. And when Mr. Frank comes, we will catch up with him.
    It is a pleasure to have our distinguished Buckeye 
Chairman, Mr. Oxley, chairman of the Financial Services 
Committee. We will begin with the Chair.

    STATEMENT OF HON. MICHAEL G. OXLEY, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Oxley. Thank you, Mr. Chairman, Ranking Member 
Millender-McDonald, and members of the committee.
    I appreciate, as always, coming back before your committee. 
I do have an Ohio State lapel pin on from the Ohio State 
University alumni breakfast this morning. Our good friend and 
colleague, Ralph Regula, was a keynote speaker. We can't be too 
far behind, I think we go by seniority.
    Thanks for having this hearing today. I am before the 
committee as chairman of the Committee on Financial Services.
    Four years ago this committee chose to make an investment 
in the Financial Services Committee, and I believe that the 
Financial Services Committee has given the House and the 
American taxpayers an excellent return on that investment.
    When America needed new tools to fight the flow of 
terrorist money, the Financial Services Committee delivered 
with anti-money-laundering legislation as part of the PATRIOT 
Act. When we discovered Wall Street professionals who put greed 
first and investors last, it was our committee that held the 
first hearings and responded with the first legislation. And 
when the economy suffered because insurers were afraid to write 
terrorism insurance, we responded with legislation to ensure 
that building and development could continue.
    That record of accomplishment continued in the last 
Congress as the committee acted with legislation to protect 
investors of all stripes and to promote trade in financial 
services, protect consumers against fraud through a modern 
credit and payment system, and to deliver on the American dream 
of home ownership.
    We still have a great deal of work to do on restoring the 
confidence of the Nation's investors, modernizing our financial 
institutions, and promoting economic growth; and I am appearing 
before you today to ask that you continue your investment in 
the work of the Financial Services Committee.
    The committee on Financial Services is requesting $16.1 
million in budget authority for the 109th Congress, 
approximately $7.8 million in 2005 and $8.3 million in 2006, 86 
percent of which is for personnel compensation. This request is 
less than we asked for in the last Congress. It is the right 
number that will provide the committee with the resources 
needed to get the job done.
    As I pointed out in my written testimony, the Financial 
Services Committee is near the bottom rung when we compare the 
size and resources of committees. I know the chairman 
appreciates that, having been a distinguished member. For 
instance, the Transportation Committee got a budget of more 
than $2.7 million more than Financial Services; that works out 
to nearly $24,000 more per member, and our work is just as 
important. We need the resources to do the job.
    With this funding request we can continue our investments 
in technology and infrastructure to serve the House and the 
public. We face a particularly tough competition in obtaining 
the experts we need, because we compete with both the 
administration and for the jobs on Wall Street and the private 
sector.
    Also, I want to take this opportunity to thank the Ranking 
Member, Mr. Frank, with whom I have enjoyed a good working 
relationship, and I look forward to continuing that working 
relationship in the future. To that end, the minority will 
control its budget, which will be one-third of the committee 
funds and staff slots allocated to the committee.
    Mr. Chairman and members of the committee, I want to thank 
you. We have done well over the past 4 years with the resources 
before us, and we will continue to do even better.
    I thank you, Mr. Chairman; I stand ready to answer any 
questions you may have.
    [The statement of Mr. Oxley follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Well, I will thank the Chair. And Mr. Frank 
has arrived, and we will hear from the ranking member, and then 
if you have any questions.
    The gentleman from Massachusetts.

 STATEMENT OF HON. BARNEY FRANK, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF MASSACHUSETTS

    Mr. Frank. Thank you, Mr. Chairman.
    I want to express my support, my appreciation to the 
chairman, because the committee has been handled in an entirely 
evenhanded and fair way, and I appreciate that and want to give 
my support there. And this is something to be worked out 
together.
    Mr. Chairman, we have space problems. We have a great, 
hardworking staff that are, unfortunately, scattered, and I 
know people are aware of that and will do what they can. So in 
terms of the committee budget, I am wholly supportive and want 
to say this: I believe we are where we ought to be functioning.
    I would just add one other point, not about--well, it is 
about the committee budget, and it is something that I don't 
know if it can be addressed, but one of the things that 
troubles me is the disparity, frankly, between what we are able 
to do in terms of compensation for members of the committee 
staff and also members of our personal staff.
    And the committee staff on whole, the average, they are not 
overpaid. I think one of the great bargains the American people 
get are the extraordinarily talented people who work very long 
hours under not always wonderful conditions to help make public 
policy. The staff in general, it is a great bargain.
    But there is a disparity. The members of our personal staff 
are underpaid even by that scale, and I would hope we might be 
able to address some way to increase the personnel allowances, 
because I think there is--the disparity in salaries between 
committee staff and personal staff is troubling to me.
    But having said that, I will repeat again, this budget is, 
I think, a very reasonable one, and I am appreciative of the 
consideration we have been given.
    [The statement of Mr. Frank follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Chairman. I want to thank both the gentlemen for coming 
here. I serve on the committee, and you have done a lot of 
work.
    I just want to note to you, with your staff, both the 
Democrat and Republican staffs, we have had zero problems when 
they interact with our committee, they have done everything, 
you know, in the right way, the correct way. They call--both 
staffs, both of your staffs.
    I wanted to note something, because you hit on a topic. 
There is a master plan; they are going to complete it in 2005. 
We have been on it for about 4 years, and the architect is 
going to complete it. These buildings--they showed me the 
flowcharts--these buildings were created for 7,000 fewer people 
than we have today; in other words, there are 7,000 or 
something people that should not be in these spaces 
technically.
    I hope both sides of the aisle, the leaders, will work with 
the jurisdictions and the Members to get some space. We are 
just shot with space; I mean, people call every day, and 
working conditions are not good.
    The other thing, too, Members' accounts are probably, 
frankly, authorized at more than we should have because we 
didn't live within what the appropriators gave us.
    There is only so much we can do. If the House budget is 
flatlined, and we now have the world technology, millions more 
people are, luckily, able to see what is going on and see the 
Congress interact, but that also creates the need for staff to 
respond to that. And I just think that, we need to watch, 
because we are going to do a disservice to people if we don't--
aren't able to pay people, if we can't do the student loan 
program, all the things that I think we need to do to retain 
good people. So I am hoping it is not flatlined.
    Mr. Frank. I will do everything I can. No one has ever 
complained to me that letters were answered too quickly or the 
problem received too much attention or the committee staff 
worked too closely with them on the problem that brought their 
attention.
    The Chairman. Any questions?
    The gentlelady from California, do you have any questions?
    Ms. Lofgren. I am sorry I am late, Mr. Chairman. Our newest 
Member of the California delegation was just sworn in, and 
obviously the Californians were a little bit delayed on the 
floor.
    I don't know what has been asked. It seems to me, from what 
I have read--and I guess this is a question--that this 
committee has done precisely what the expectation is in terms 
of the one-third position, one-third budget, control over the 
one-third for the minority; is that correct?
    Mr. Frank. Yes. I just said the chairman has been 
absolutely fair, and we have had zero procedural issues. And we 
have our control over one-third of the staff plus, frankly, in 
many ways, the staff has worked very closely together. There 
are some issues on which we differ, and we have a structure 
that allows us to differ on those issues in an open process 
without in any way impinging on the relationship.
    So this has been, I think, a model for how committees 
should function, thanks to the chairman.
    Ms. Lofgren. Well, that sounds great. The only question I 
would have is, and it is not about disagreement with the two of 
you--and this has come up with several other committees--how is 
your space situation?
    Mr. Frank. Yeah, I mentioned that. It is awful, but it is 
nobody's fault. The problem is that our staff is spread out so 
much; I think I am in four different buildings. There are 
people in Rayburn, Cannon, one of those buildings I never go 
to--which one is that--Ford or something----
    Ms. Lofgren. I like the Cannon Building.
    Mr. Frank. Well, Cannon is okay, but it is those buildings 
back by the highway, I think we have got one in the sewer 
plant.
    Mr. Oxley. By the way, I don't think the staff minds 
necessarily that separation from the minority.
    Ms. Lofgren. That is all my questions, Mr. Chairman. Thank 
you very much.
    The Chairman. Thank you.
    Ranking Member, do you have any questions?
    Ms. Millender-McDonald. Yes, thank you very much.
    Good morning to both of you. And I suppose with this type 
of collegiality that you feel very good, Mr. Ranking Member, 
about your one-third allocation, one-third, and the ability to 
perhaps request your equipment with the chairman. If not, 
just--you do it autonomously?
    Mr. Frank. Yes. And including, by the way--staff travel is 
fairly done because there is a need for staff to travel. I 
mean, all aspects of it are done in an entirely fair manner.
    Ms. Millender-McDonald. Okay. Well, I suppose that is about 
all I have, Mr. Chairman.
    The Chairman. Well, thank you. I thank both of the Members, 
I appreciate it.
    Next, we will move on to Small Business.
    I appreciate the chairman being here. If you would like to 
begin. Thank you.

   STATEMENT OF HON. DONALD A. MANZULLO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Mr. Manzullo. Thank you, Mr. Chairman, Ranking Minority 
Member, members of the Committee on House Administration. I am 
pleased to testify in support of the funding request to cover 
the expenses of legislative initiatives, studies, technical 
upgrades, and oversight investigations of the Committee on 
Small Business for 2005 and 2006 in the amounts of $2,987,331 
and $3,046,727 respectively.
    Before I enter into the substance of my remarks I want to 
make three quick points. First, the Small Business Committee 
received the third-lowest funding increase of all committees in 
the 108th Congress, and we maximized the use of every dollar 
allocated to us in 2003 and 2004.
    Second, the overall funding level in H. Res. 109 is 5.3 
percent less than the committee's proposal from the 108th 
Congress, so we are being very frugal with this request.
    Third, because of the committee's small size, any increase 
we get will not substantially affect the overall committee 
funding resolution. For its relatively small staff and budget, 
the Small Business Committee continues to be very productive in 
accomplishing many positive results for small businesses across 
the country.
    Our committee will continue its role as an advocate for 
small businesses, ensuring that small business interests are 
defined and considered during all stages of the development of 
public policy. Legislatively, the committee will focus on 
reducing the regulatory and paperwork burdens imposed upon 
small business in 2005. Next year, we will work on 
reauthorizing the programs of the SBA.
    In addition, the committee plans to look at other critical 
issues, including but not limited to increasing small business 
participation in Federal procurement. We have had numerous 
hearings on that, and we have been able to, on a bipartisan 
basis, bust many large bundling contracts of the different 
agencies into smaller pieces so that small businesses are not 
smoked by one or two large industries across the country.
    We are working on tax relief for small business and 
improving small business access to capital, including 
revitalization of small business companies participating 
securities program. And finally, the committee will continue to 
focus on revitalizing our Nation's manufacturing base.
    This is the only committee in Congress that has hearings 
concentrating on restoring our manufacturing bases. As the 
chairman knows, coming from Ohio, this country has lost nearly 
3 million manufacturing jobs. And I hold this up proudly, I was 
named Mr. Fix-It in The Manufacturer magazine that put my 
picture on there because they recognize the effort that we have 
been making to try to restore the manufacturing base.
    And one of the things that we want to do is to hire a 
consultant, which would be much cheaper than a full-time 
employee. The person we want to hire just did this report on 
the metal casting industry, which has a defense project in the 
Speaker's district. His and mine have a lot of boundaries that 
have been adversely impacted. So what we have been doing is 
trying to bring to the attention of the Defense Department the 
absolute necessity to use its procurement powers to buy from 
American companies to help restore our base.
    The committee has a long history of bipartisan cooperation, 
a tradition that I fully intend to continue. Since Republicans 
gained the majority, minority has received one-third of the 
committee staff slots and control over one-third of the 
personnel budget, and I intend to maintain these ratios during 
the 109th Congress. By comparison, the 103rd Congress, 
Republicans--then in the minority--received 22 percent in 1993 
and 25 percent in 1994 of the personnel budgets.
    Of the majority staff positions, three are administrative 
and nonpartisan in nature. As in the past, the committee will 
see that the resource needs of the minority are met. In fact, 
with the exception of the server--which we just found out about 
today and we will replace that, obviously, for the minority--
all request needs have been incorporated into our budget 
funding resolution.
    As with my predecessor, I try to run this committee in a 
fiscally responsible manner, as in the 107th and 108th 
Congresses, and I intend to carry on the tradition to ensure 
that resources are available to support the committee's 
mission.
    While the proposed spending increase percentage in H. Res. 
109 may appear large at first, this committee is still the 
second smallest in terms of personnel and funding out of any 
standing committee in the House of Representatives, yet this 
committee oversees and has direct legislative responsibility 
for not just the $600 million spent on the SBA, which leverages 
$25 billion to small businesses, but we also have jurisdiction 
for the $65.5 billion spent by Federal agencies to purchase 
goods and services from small businesses across the country.
    Few know that the dollar value of our prime legislative 
jurisdiction is greater than some other committees that have a 
larger staff and a higher budget. This request would also bring 
the Small Business Committee finally over the level it was 
funded at in the 103rd Congress. The committee received 
significant cuts in 1995, which was more, in terms of the 
percentage decrease, than any other committee received except 
one.
    The committee has made a conscious effort to upgrade and 
budget for the needs of both the majority and minority. We want 
to ensure that the actions and resources of the committee are 
accessible to the small business community, we will do that by 
enhancing our e-mail technology and our photocopying and our 
computer technology. H. Res. 109 reflects the projected 
workload as described in the oversight plan, that has always 
been sensitive to and supportive of the minority.
    We would respectfully ask for your support in the funding 
resolution that is outlined in H. Res. 109.
    [The statement of Mr. Manzullo follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Chairman.
    And we will go to the ranking member from New York.

   STATEMENT OF HON. NYDIA M. VELAZQUEZ, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Ms. Velazquez. Thank you, Mr. Chairman.
    Chairman Ney, Ranking Democratic Member Millender-McDonald, 
and members of the committee, thank you for the opportunity to 
testify on the budget request for the Committee on Small 
Business.
    Oftentimes, while the Committee on Small Business may not 
be thought of as glamorous, we have one of the most important 
jobs in Congress, protecting and advocating for this Nation's 
small businesses. Whether it is drafting legislation that takes 
their concern into account or making sure small businesses have 
the tools they need to succeed, the Committee on Small Business 
needs to be properly equipped, adequately staffed and fully 
funded.
    Unfortunately, during my tenure as Ranking Democratic 
Member, this has not been the case. Our allocation is the 
smallest of any committee, and when we only receive minor 
funding increases, it has a drastic effect. Nevertheless, the 
committee has risen to meet the challenges, and I would like to 
congratulate the members and staff for working against the 
insurmountable odds.
    This most recent budget is 5.3 percent less than the 
submission for the 108th Congress, which, as you will recall 
during the last congressional hearing, I fully supported. The 
intent of that proposal was to close the gap on the historic 
funding shortfalls. Unfortunately, last Congress we received 
well below the average allocation provided to all the 
committees during the 108th Congress.
    I urge the Committee on House Administration to consider 
funding us more at the level we requested last Congress; and I 
would like to comment on specific areas I feel this committee 
should recognize, staff salaries and expenses.
    While Chairman Manzullo is asking for 16.7 percent more 
than the previous allocation, it is simply not enough, as we 
are still trying to recover from the 104th, 106th and 108th 
Congress shortfalls.
    The chairman's current budget includes a request for an 
additional slot, which I will strongly encourage the Committee 
on House Administration to consider. After all, the Small 
Business Committee has the smallest budget and lowest number of 
staff. Adding just one more slot would greatly increase 
productivity. The minority would use this slot for the full-
time professional staffer to handle SBA's entrepreneurial 
development programs. Due to current staff limitations, these 
duties are now being covered by three individuals.
    Equipment: With such a small staff, having the technology 
that allows us to get the work done is imperative. The 
chairman's budget states that 10 computers will be replaced in 
2005, with another 10 the following year. The minority's 
server, which dates back to the year 2000, also needs to be 
replaced. According to our vendor and HIR, our server currently 
runs on Windows NT4, which is an operating system that both 
Microsoft and HIR are soon to discontinue supporting if they 
haven't already.
    At the moment, we have used about two-thirds of the storage 
space on this server, and our vendor has indicated that the 
remaining space will not take us through another Congress. 
Replacing the computers and server as soon as possible 
obviously is our priority.
    While I recognize that these issues--and this is regarding 
the committee facilities--do not fall under House 
Administration, since there is no specific entity or venue 
where it can be heard, I feel they should be raised here. 
Currently, the Small Business Committee has two hearing room 
facilities, one located at 2360 Rayburn and the other at 311 
Cannon. Room 2360 Rayburn has historically been our main 
hearing room, and it is in dire need of renovations. The room 
does not have enough seats for our members, the sound system 
needs to be upgraded, and it is in worn condition.
    While 311 Cannon did undergo historic restoration last 
Congress, it fell short in several areas. It still doesn't have 
adequate seating for committee members, as is the case with the 
Rayburn hearing room; we are at least 10 seats short. At a 
recent hearing that was well attended, members on my side of 
the aisle simply saw the space constraints and left.
    The sound system needs to be upgraded, as with 2360 
Rayburn. When we have hearings Members cannot hear witnesses 
and vice versa. Room 311 Cannon has no office space or 
facilities, and no room for staff. We need at least one 
functioning hearing room that allows all members to attend and 
participate.
    Another critical need is proper and adequate office space. 
While I know we are under real space constraints, the minority 
has to work with less than an attractive work area, 407 square 
feet, which is inefficient and creates a difficult work 
environment.
    When it comes to staffing needs and we must choose between 
experienced staff and someone who is bright and has potential, 
we select the candidate that fits within our salary's 
constraint. This requires training from myself and senior 
staff. While the committee has a second office at 559 Ford, 
setting up in the Ford Building does not meet training demands, 
it limits staff growth, and creates problems.
    In the past, there have been conversations with the 
chairman's office about this issue, but no solution has been 
found. It would be my hope that this committee, along with 
other entities, will help.
    The bottom line is, we do not need two hearing rooms; 
realistically, we need one functioning hearing room and office 
space to make conditions workable.
    In closing, Chairman Ney and Ranking Member Millender-
McDonald, I thank you again for this opportunity. I know that 
when budget submissions are made, there is the expectation to 
always ask for more, but Chairman Manzullo's budget request is 
austere. If you choose to fund the committee without Chairman 
Manzullo's current request, I will then respectfully request an 
effort to maximize these limited resources, giving the minority 
a full third of the entire budget request. If House 
Administration fails to fund the Small Business Committee at an 
adequate level, we will continue to fall behind, and that will 
be a disservice to our members, staff and this Nation's small 
businesses.
    Thank you.
    [The statement of Ms. Velazquez follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I want to thank both of the Members for 
testifying today. And I think the committee has also done an 
important--and I know sometimes people might get mad at the 
chairman here or there because he will publicly say some 
things, which I think are appropriate to say, on manufacturing. 
Sometimes people don't like to hear that, but I think you have 
done the right thing by mentioning our manufacturing base.
    We have lost 269,000 jobs in Ohio on the manufacturing 
level. So I commend you for speaking out and continuing to 
speak on that issue because it has got to be constantly put out 
there publicly.
    So I appreciate the work that you have done, both of the 
Members.
    On the space--we have been talking about this all day long 
with everybody, and there is a building commission report in 
March of this year that will come out, and eventually Congress 
has just got to bite the bullet and make some decent working 
situations.
    We upgraded Cannon because you have two hearing rooms. I 
don't expect that a reconfiguration of space will happen in 
time to have one, but what we should pursue is to upgrade the 
other hearing room. Our CAO--I know the appropriators' budget 
last year was so tight he was talking about completely zeroing 
out any upgrades--it is not his fault, he had to do something--
so we are hoping this year to use a little flexibility, because 
we have had a goal for quite a few years to get all these rooms 
brought up to speed, and we need to complete that.
    It has been 10 years of trying to do that, and I think it 
needs to be completed so every room is upgraded 
technologically; that is how people know what you are doing, 
you communicate with them. So we hope we can at least get that 
other room done. I assume--Cannon has been upgraded.
    Ms. Velazquez. But it is not big enough to have seats for 
every member.
    The Chairman. Right.
    Questions.
    Ms. Millender-McDonald. Mr. Chairman, thank you so much.
    Mr. Chairman, in speaking about, as you have just spoken, 
about the building commission report, I am hearing that the 
ranking member part of your staff is at the Ford Building; am I 
correct on that?
    Ms. Velazquez. Right.
    Ms. Millender-McDonald. Is there any way, Mr. Chairman, we 
can revisit the ranking member staff in the Ford Building? I 
think you said earlier this morning that that is really not 
adequate for them to be so far away from the beaten path of 
this committee.
    The Small Business Committee, while you have been 
shortchanged, as you perceive and has been outlined so often in 
this budget, you are really the driving force on creating more 
jobs in this country than any other committee. Small businesses 
are the creation of jobs, and we can ill afford to continue to 
shortchange you.
    But in doing so, Mr. Chairman, my question is, in listening 
to the ranking member, how much input does she have on the 
budget process before you submit it to this committee?
    Mr. Manzullo. We incorporated all of the requests. The only 
thing that we left out, I believe, was the last-minute request 
for a $1,700 server by the minority. Of course, we will honor 
that. Whatever cost the server is, I guess it is more than 
$1,700.
    Ms. Millender-McDonald. And that will be taken care of?
    Mr. Manzullo. Yes.
    Ms. Velazquez. Well, Ranking Member, if I may, I just would 
like to make----
    Mr. Manzullo. Assuming we get our budget approved at the 
level that we need.
    Ms. Velazquez. Well, I am happy to hear that you are adding 
the server as part of my request, but I would just like to make 
sure that people understand that having input into a budget 
process requires having meaningful conversation between the 
chairman and the minority and both staffs.
    It just is really sad that I didn't have a copy of the 
budget submission before it was submitted, once again; and we 
have to go through House Administration to obtain a copy of the 
budget submission. So I do not consider that to have meaningful 
input into the budget submission process.
    And I am happy to hear that you offered to replace the 
server, and I think that the chairman has just given an 
excellent example of how helpful consultations could be.
    Ms. Millender-McDonald. You know, Mr. Chairman, yesterday I 
had a meeting with the minority leader before we convened this 
hearing today, and this Chair has been extremely sensitive to 
the fact that the two-third/one-third ratio is adequately done 
between the two of you, and that the ranking member gets the 
ability and the freedom to have input in the budget 
deliberations between you two before we get your submission. I 
am hearing, as Ms. Velazquez has said, she does not have that.
    I hear you loud and clear, Mr. Chairman, that you need the 
17.8 percent increase that you have asked us for. But in the 
event, given the budget constraints, you do not get that, will 
you hold the minority harmless and maintain, still, the two-
thirds/one-third ratio that we are suggesting should be done?
    Mr. Manzullo. Yes. We have done that since the beginning. 
It gets lowered across the board on it if we don't get what we 
are asking.
    I like the fact that Ms. Velazquez says that the budget I 
requested is austere, which it is; we think it is bare bones. 
And Ms. Velazquez is right, with this committee, we have taken 
on some monstrous lifts because we have become known as the 
committee of last resort. When little guys out there are 
getting beat up all over the place, they come to us because 
nobody else will talk to them because their issues are so 
minor.
    We just got into something, Mr. Chair, if I may just take a 
minute. I have not even had a chance to discuss this with Ms. 
Velazquez because it just happened yesterday. The head of the 
U.S. Women's Chamber of Commerce came in to see us, Terry 
Walker. I don't know if you know her, she is a former music 
conductor who runs a five-person shop here in Washington. It is 
a relatively new organization and I have linked them up with a 
lady from the Afghanistan embassy. And I said, Let's start a 
program? I haven't talked to Nydia, but that is how new it is--
that the U.S. House of Representatives Small Business Committee 
would be working with small businesswomen in Iraq and 
Afghanistan on a cooperative basis to teach them how to be 
entrepreneurs, to offer them whatever resources we have.
    We believe that the key to freedom in those countries is 
empowering women to go into small businesses, because that 
breaks the back of the dictatorships by giving women the right 
to vote; they are no longer second-class citizens in those 
countries.
    This is a really exciting project, and it is unique, but it 
is the type of thing that we do in the Small Business 
Committee. We are there to help people all over the place. And 
this would be our role, at least internationally. It is not 
going to require an additional staffperson. It will still take 
some of our attention, and that is one of the reasons I believe 
that Ms. Velazquez has even a broader vision of where she wants 
to take this committee, if we would have more money.
    Ms. Velazquez. Sure. And I just would like for the 
committee not to have any confusion regarding my participation 
in terms of the budget. We get one-third of the salary, but we 
do not get one-third of everything else.
    Ms. Millender-McDonald. I am sorry, you don't get one-third 
of what?
    Ms. Velazquez. Of anything else, regarding equipment or any 
of the other expenses.
    Ms. Millender-McDonald. I am very fortunate to serve on 
Small Business as a subcommittee ranking member, and I do know 
that oftentimes when I do ask for my own consultant to this 
subcommittee, that I don't have one; and that is a concern of 
mine, Mr. Chairman and Ranking Member, that the slots are not 
allocated, it seems, commensurate with subcommittee ranking 
members.
    So perhaps they were not supposed to be that way; and if 
you can share that with me, Mr. Chairman, or the ranking 
member, because oftentimes I do have to use the consultant to 
the full committee when I have had traveling.
    Mr. Manzullo. We have never hired a consultant before. The 
person that I want to hire obviously would be cheaper than a 
full-time employee, but her expertise is in the economics of 
manufacturing, and it goes right to the core.
    I know you have lost a tremendous number of manufacturing 
jobs in your district.
    Ms. Millender-McDonald. Tremendous.
    Mr. Manzullo. So has Ms. Velazquez. And it is a very 
esoteric area of manufacturing economics, and so that is our 
goal, to pull her in to be able to have the ammunition to give 
the Pentagon, to demonstrate to the Pentagon that they have to 
keep those jobs in the United States to maintain our defense.
    Ms. Millender-McDonald. Well, good for you.
    And my last question is, hiring that consultant, would that 
be a shared slot, or how would that go?
    Mr. Manzullo. Well, it wouldn't be a slot; it is not 
considered a slot.
    Ms. Millender-McDonald. So you will just be hiring her for 
her expertise?
    Mr. Manzullo. That is correct.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    The Chairman. Any additional questions?
    Ms. Millender-McDonald. No.
    The Chairman. Yes, Mr. Brady.
    Mr. Brady. Yes. If you get your requests, there will be two 
additional slots for the committee?
    Mr. Manzullo. That is correct.
    Mr. Brady. And will the minority get one slot?
    Mr. Manzullo. It will be one each.
    Mr. Brady. And I heard somewhere that the minority is 
having a problem making payroll with the slots that you have; 
is that true?
    Ms. Velazquez. No. Well, we are under a lot of constraints. 
We have to share responsibilities, with my personal office 
included.
    Mr. Brady. Well, my problem is being in the House of the 
United States Congress and hiring people and having a problem 
paying them. I think we need to fix that in any way we can. I 
hope you fix that.
    And the other thing is travel. Is travel equally one-third, 
the travel time that you----
    Ms. Velazquez. No, only salaries.
    Mr. Manzullo. Whatever equipment requests and travel 
requests, we honor; it has never been a problem.
    Mr. Brady. Okay. Thank you.
    Ms. Millender-McDonald. Mr. Chairman, just one question.
    Back to--Mr. Chairman, you are saying that you do honor the 
travel requests. How often? Because now with the whole notion 
of this economic downturn in terms of the country, a lot of the 
small businesses are requesting that we have field hearings so 
that they can have input as to their inability to get contracts 
from some of the agencies here in Washington.
    They do not have the money to come to us. How are we going 
to ensure that we have more travel and that both you and the 
ranking member will have that ability to travel to areas where 
small businesses want to have input?
    Mr. Manzullo. Well, as the gentlelady knows, Rep. Pat 
Toomey in the last Congress, went to your congressional 
district for a field hearing. And it is not the money, it is 
the time constraints that make it difficult to have even more 
field hearings.
    Ms. Millender-McDonald. Because there are so many ports now 
that are requesting to engage in small business contracts, and 
so it is important that we travel to these port areas so that 
we can then ensure that that input from those small businesses 
are given to us so that we can come back and deal with the 
agencies that should and could offer contracts to small 
businesses.
    Mr. Manzullo. Well, I agree with you. We sent two of our 
staffers to Guam, I just could not get out there. Congresswoman 
Bordallo is really getting beat up by the Navy, and I hope they 
are listening to this broadcast. Instead of going to American 
ship repair people in Guam, they are going to people in South 
Korea and Japan.
    That is the type of stuff that we get involved in, Mr. 
Chairman, and it is over and over and over and over again. The 
Department of Defense goes out of its way to deny jobs and 
procurement opportunities to Americans, and that is what is 
crushing our defense industrial base. We just got into a big 
fight with the Navy over--in fact, it still goes on--with the 
printed circuit board industry, sending jobs to China for 
sensitive technologies; and we had to raise all kinds of hell 
with them.
    And then, finally, the Navy said, Well, I think we ought to 
consider bringing that stuff back to America. And every single 
day in our office we have these little guys coming in that are 
actually getting creamed in our manufacturing base because 
somebody at the Department of Defense uses that old canard 
``best value'' and decides that they are going to ship 
something out to another port, another job overseas, without 
even checking to see its impact on the defense industrial base.
    And we have spent so much time on that, and we have had 
some good success on that, and that is why we need even more 
money, as Ms. Velazquez says, to continue the fight on it.
    Ms. Velazquez. The money is important, if I may, but I 
think that in order for the minority to fulfill our 
responsibility that we should be given control not only of one-
third of the salary, but every other expense, that we do not 
have to go to the majority to ask for authorization to go 
someplace to do a field hearing, and then 100,000 questions 
will be asked.
    Ms. Millender-McDonald. Mr. Chairman, in all due respect, 
it seems that that is the practice of all these committees, 
that the ranking member has to go to the chairman for that 
request; but I would like to think that the chairman would be 
obliging in honoring the request of the ranking member in 
asking for the traveling or whatever.
    It seems like that is the practice of all committees, that 
they do have to engage in this request through the chairman, 
but the chairman should then, I would like to think, honor 
those requests.
    The Chairman. The gentlelady from California.
    Ms. Lofgren. As I say, this is my first real day on the 
committee, and so I guess I just need to express some concern 
about what I am hearing here.
    It is my understanding, based on our discussions and 
hearings with the other committees this morning, that the 
minority is--under our policies, is basically entitled to a 
third of the budget, a third of the salary slots and control 
over their third. Except as to how they might vary, the 
chairman and ranking member could agree to do something 
differently if it works better for them.
    Listening to Congresswoman Velazquez, it sounds like, if 
the budget was submitted before she even saw it, obviously they 
haven't agreed to something. And we do this collegially, as we 
should.
    But if the ranking member would prefer to have the 
arrangement that Mr. Oxley and Mr. Frank have, I think that the 
ranking member has a right to do that. And I guess the question 
is, is that the case; and if so, I think we need to have some 
different understanding here, because otherwise we will not--
you know, we will be holding hands on the overall budget 
process.
    Ms. Velazquez, is it----
    Ms. Velazquez. I wish we could have the same type of 
relationship that the Financial Services Committee operates 
under.
    Ms. Lofgren. Well, I guess the question, then, for the 
chairman is, if you haven't agreed to vary from that policy, 
then I think you are obligated to provide a third of the budget 
and a third of the slots and control over that third to the 
minority.
    Mr. Manzullo. Ninety-three percent of the budget is 
salaries, 7 percent is equipment and travel and everything 
else. Ultimately, I am responsible if we tilt on equipment and 
travel, and that is why somebody has to have authority over 
that.
    We asked them in the budget process. We are given the list 
of equipment and whatever the minority wanted on that, and as I 
said, we got all of that, with the exception of the server that 
we found out about this morning, on it. So we believe that they 
had sufficient input on it.
    And what are you going to do when 93 percent is salaried--
--
    Ms. Lofgren. Well, if I can, I think there is a 
communication problem here, because the chairman thinks there 
was consultation and the ranking member thinks there wasn't; 
and obviously there's a communication issue here. I think 
that--you know, I don't know what the process is, but I would 
have a concern about supporting a final budget unless this can 
get straightened out between them.
    Ms. Velazquez. If I may, having e-mails back and forth from 
staff to staff, that doesn't represent having meaningful 
participation and consultation in the budget process.
    And he talks about 93 percent represents salary, well, we 
are almost there. The other 7 percent could represent an 
obstacle for me to fulfill my obligation and my responsibility 
as the ranking on this committee.
    Ms. Lofgren. Well, my suggestion, I mean, as a newcomer 
here--I mean, we are going to meet again next week; maybe we 
could ask these two individuals to find time to sort through 
this, and then we could be reassured next week.
    Mr. Manzullo. Mr. Chairman, I think we have done everything 
not only that the law requires us to do, but a matter of what 
we have to do on it. You are going to have the minority--you 
are going to have the majority; that is just the way it is.
    But we have been good stewards of the money that has been 
given to us. We have never denied the minority a travel request 
or an equipment request. Somebody has got to be in charge of 
that last 7 percent, so the budget doesn't tilt, and the 
chairman----
    Ms. Velazquez. Can I ask a question here, Mr. Chairman? Is 
it not true that other committees are run where one-third is 
given full control to the minority?
    The Chairman. It depends. There is no rule or obligation--
if we use the words that minority is entitled to, there is no 
rule, obligation of the one-third.
    A goal we have had--each committee, does things 
differently----
    Ms. Velazquez. Yeah. But do we have committees that run 
that way, where the majority trusts the minority to be able to 
control one-third of the budget?
    The Chairman. The one bottom line, which Chairman Manzullo 
has been making--and I will answer your question, but at the 
end of the day, the chair of the committee is responsible for 
the sign-offs, because--I will give you an example.
    If all of a sudden you just say, ``Here, here is the money 
and here is the travel money, and if people would have hearings 
all over the place'' and there was criticism of, ``Why did you 
have this hearing out here,'' the Chair is still obligated--
responsible, for that travel.
    So that is why even we here will sign off on the travel, 
and have to, because at the end of the day I am responsible for 
it.
    Now, committees are different, each committee, We give one-
third of the budget; and that is what we do here. Each 
committee is different. So sometimes when it says one-third, 
the ranking members will get the one-third, but it is done in 
different ways. Some of the Chairs feel that they need to sign 
off on things because ultimately they are legally liable for 
it.
    Mr. Brady.
    Mr. Brady. Not that you would ever need help answering a 
question, but maybe to give a little more insight, it doesn't 
always happen one-third. But when it doesn't happen one-third, 
it is at the request of the ranking member and the chairman; it 
is their agreement. When they come in front of us and say, We 
are okay with not getting the one-third, they are both saying 
it. We are not hearing that here.
    Ms. Lofgren. Well, that is not what we are hearing here. I 
think there is a problem here, Mr. Chairman.
    Mr. Manzullo. You know, somebody has to be in charge of 
this committee; you have got to have a chairman. One person 
ultimately has to make the final decision on this. I have done 
the best I could on this.
    Ms. Velazquez wants one-third of the 7 percent. I am not 
willing to give that to her because ultimately what happens in 
the case where they need more equipment than we do, that might 
exceed the one-third.
    In the last 2 years, the minority overran by $1,000 or so 
their budget on personnel. And we had banked some money to be 
able to pick that up.
    This is just the way the committees are run.
    The Chairman. Could I interject something here? In defense 
of both of you, from your different perspectives, 4 years ago I 
sat personally with both of you in the same room, and 
separately with both of you, and we talked about a lot of 
issues when we were coming to the one-third.
    I think a lot of the problem that you might have is 
underfunding in the sense of, if there was a little bit more 
money, it would make it much easier to upgrade some of the 
equipment. I think that is a problem.
    Ms. Velazquez. Thank you, Mr. Chairman.
    Ms. Millender-McDonald. Mr. Chairman, while I do agree with 
you on that, it has been a gentlemen's agreement or a gentleman 
and lady's agreement, given our minority leader, that it would 
be a one-third, one-third and control with reference to the 
nonprofessional and nonstaffing issues.
    We would like to think that this is going to happen, and 
the one thing that I would request of you, Mr. Chairman, is 
that there is meaningful input on this budget by the ranking 
member and that e-mails--it was a distinction yesterday, when 
speaking with the Leader of the House, that she wants Member-
to-Member conversations on the budget process and not through 
e-mails from staff to staff, because we just sometimes don't 
get it right when it goes from staff to staff.
    Mr. Manzullo. If that had not been acceptable to the 
ranking minority members, you could have called me or just 
stopped by my office. The door is always open.
    Ms. Millender-McDonald. We are going to stop this, but I 
would like to say again, Mr. Chairman, when we look at this, 
perhaps we can look at the increase, whatever we can, to this 
budget. Because they have been----
    Mr. Manzullo. Thank you.
    Ms. Millender-McDonald [continuing]. Shortchanged over the 
Congresses, and one cannot operate when you have such a minute 
budget to begin with.
    Mr. Manzullo. We have fabulous staff. These are just great 
people. Ms. Velazquez has some of the most talented people on 
her staff, and I do on mine.
    Ms. Millender-McDonald. But they won't stay with you if you 
cannot give them the salary that is commensurate with that.
    Mr. Manzullo. We lose them. We lose them. That is correct.
    Ms. Lofgren. Mr. Chairman, just a final comment. I just 
think that, speaking for myself, that what we want to do is go 
to the floor with our proposal and have bipartisan support 
and--because that is important. This committee is like being in 
the local government, which I did for so long, you know, where 
there is no really Republican or Democratic pothole. I mean, 
you go together to get it done.
    Key to having that bipartisanship is either having the 
minority rule of thumb, where you get one-third, one-third and 
control, or agreement to do something else. We have had, until 
this committee, either an out-front agreement by both the 
chairman and the ranking member that they had agreed to do 
something else or, in the case of Financial Services, they went 
to the default of one-third salary, one-third budget and 
control of the one-third.
    So I think, if we want to have a kind of a bipartisan 
support, we are going to need that in each and every committee. 
I am hopeful that by the time we finish these hearings we be 
assured that either the default position or the agreement has 
been reached, because otherwise I don't think we will have 
bipartisan support.
    I thank the chairman for recognizing that.
    Mr. Manzullo. We actually get along a lot better than what 
appears today.
    Ms. Velazquez. Yes, we do.
    The Chairman. I have talked with both of you on several 
occasions. We appreciate that. Thank you very much.
    Ms. Millender-McDonald. Image is everything.
    The Chairman. Thank you very much.
    Now we will go to the patiently waiting Chair and ranking 
member of Rules.
    I want to welcome our distinguished chairman of Rules, Mr. 
Dreier, and Congresswoman Slaughter, ranking member, who also 
gets a lot of credit on genetic testing, on the side issue for 
the Genetic Testing Ban bill. I will give you credit for 
working on that.
    Mr. Dreier.

 STATEMENT OF HON. DAVID DREIER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Dreier. Mr. Chairman, thank you very much.
    Since you are talking about a side issue, let me 
congratulate this committee with whom we worked closely, Ms. 
Millender-McDonald and Mr. Brady and Mrs. Miller, and getting 
322 votes on our continuity issue on the House floor this past 
week. It was a great bipartisan victory and again underscoring 
what we are doing here.
    Let me say again it is a great honor for me to be here with 
the very distinguished--I will just say thanks again for your 
work on the continuity thing, so I can have that for the record 
if it didn't get in.
    It is a great honor to be able to work so closely with my 
very good friend and colleague, the distinguished ranking 
member, Ms. Slaughter, on a wide range of issues; and it is 
clear that we on occasion have disagreements as we emerge from 
the Rules Committee. But we do seek to find areas of agreement; 
and, frankly, the measure that is being considered on the floor 
of the House right now is a rule which is just passing and has 
enjoyed strong bipartisan support, as we have taken the 
concerns of most the minority and the majority into 
consideration.
    Mr. Chairman, I would like to take a moment to explain what 
the Rules Committee does. It is probably a question that is 
asked of you. It is asked of me regularly. People ask what the 
Rules Committee is.
    It is the Speaker's committee, and it is the mechanism by 
which the leadership controls the floor and moves our agenda. 
The committee is at once the House's traffic cop, its triage 
unit and its ultimate first responder. We have organized the 
routine business of legislating and are there when needed to 
respond to crises, no matter from where they originate.
    In addition, the committee's responsibility is to provide 
for consideration of legislation. The committee is also 
responsible for a myriad of institutional matters, from 
ensuring the ability of the House to operate during a disaster, 
to monitoring the effectiveness of budget control mechanisms in 
the House Rules, to drafting the opening day rules package.
    Among the biggest changes to the committee rules in the 
109th Congress was the establishment--and I am sure if you 
haven't heard from them you will--of a new standing Committee 
on Homeland Security, which was an extraordinarily challenging 
and difficult task that we undertook, dealing with the 
jurisdiction of 10 different committees.
    Mr. Chairman, virtually every major piece of legislation 
comes to us in the Rules Committee and goes to the floor with 
the special rule. In the 106th Congress, the committee reported 
nearly 270 measures; and in the 107th and 108th Congresses 
about 200 measures were reported from the Rules Committee to 
the full House.
    The Committee on Rules has not sought major increases over 
the past 8 years, from the 105th through the 108th Congresses. 
In fact, the total average rate of increase for all committees 
was approximately 32 percent. During that same period of time, 
over that 8-year period, the Rules Committee has seen our 
budget grow by only 22 percent, nearly a third less than the 
average for the other committees.
    The committee now finds itself in a situation where we need 
to make a number of investments in both our staff and our 
resources to be able to continue to fulfill that very, very 
broad, extraordinary mission, which I just outlined. For the 
first time since the 104th Congress, the committee has 
requested that the Speaker lift our staff ceiling to 39 staff 
members from the current 36, providing the minority with an 
additional slot along with the majority's two additional staff 
members. The committee's proposed budget includes a 3.7 percent 
increase in the salary category in both 2005 and 2006 to fund 
these new positions and provide for cost-of-living merit 
increases to existing staff.
    The committee is also requesting a sizeable increase in 
funding for equipment in 2005 to facilitate our transition to a 
new computer equipment vendor. This will allow us to fund 
maintenance costs as part of the purchase price.
    Further, after this initial upgrade, we are planning to 
shift our equipment acquisition model to a 3-year cycle, making 
these kinds of purchases more routine and easier to budget.
    Additionally, the committee is seeking approximately 
$100,000 in both 2005 and 2006 to provide for the development 
of a software application to allow the committee to track 
amendments in a more orderly fashion than we do currently.
    This project will leverage the House's investment in 
Microsoft technologies, allowing us to provide customized 
information for different House offices. It is my hope that 
this project will eventually permit Members to file amendments 
electronically, speeding the access and availability of 
amendments for everyone.
    Mr. Chairman, as you know, I have always tried to be fair 
with my friends and Ms. Slaughter as the new ranking member. I 
worked in the past, since I have been chairman, with our good 
friend, the late Joe Moakley, and of course over the past 
several years with Mr. Frost, and I am working very closely now 
with Ms. Slaughter.
    Our budget continues the tradition of giving the minority a 
third of the total staff slots allocated along with control 
over a third of the salary funds. For other categories, we have 
always provided the minority whatever equipment they need to 
fulfill their role.
    We anticipate upgrading the minority's equipment, along 
with the majorities, and we are working on that. We have 
allocated some additional funding to provide any extra 
technical support that the minority may need, since they don't 
have the staff dedicated for the purpose of focusing on the 
equipment used, since we take on that responsibility and the 
majority, obviously, in consultation with the minority.
    Again, I have always been willing to work and will continue 
to work strongly with and closely with members of the minority. 
Mrs. Slaughter has been a great partner to work with on these 
issues just in the last couple of months in her new position 
and as a member of the committee over the past several years. I 
believe that she was a cosponsor of the resolution that we had.
    Our measure on this budget passed unanimously from the 
committee, and I would like to encourage your committee to 
adopt it.
    I want to express my appreciation in behalf of our great 
new staff director, Hugh Halpern, whom you have worked closely 
with, Mr. Chairman, on a wide range of issues and your staff, 
Mr. Vinovich and others. We appreciate the very close working 
relationship we have had with the House Administration 
Committee.
    The Chairman. Thank you. We have always enjoyed great--I 
have known you from Financial Services, and we call him our 
legal eagle over there. We have always enjoyed a good working 
relationship with the majority and minority staff on that 
committee. There just haven't been problems. Everything has 
always been done correctly and everything filed correctly over 
the years.
    I thank the chairman and ranking member.
    [The statement of Mr. Dreier follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
 STATEMENT OF HON. LOUISE McINTOSH SLAUGHTER, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF NEW YORK

    Ms. Slaughter. Thank you, Mr. Ney. Good morning to you and 
Ms. Millender-McDonald and Mr. Brady.
    It is a pleasure to be here this morning with my friend 
David Dreier to present to you our budget request for the 
Committee on rules. David has made a very thorough 
presentation, with which I agree. I only want to touch on a few 
items.
    Mr. Chairman, the practice of committing a third of the 
salary dollars to the minority when Democrats were in control 
has held us in good standing since 1994. David has continued 
the practice of a nonpartisan administration of the committee 
and has provided us with a third of the committee staff slots 
and a third of the dollars necessary to fund those slots.
    This amount stated in our request is another modest 
increase, primarily to increase salary issues. As you know, the 
great majority of our budget--as I am sure everybody's does--
goes to salaries. I think I have one of the most dedicated 
staffs in the House. They have specialized knowledge that they 
have built over the years, and we want to go do our best to 
keep them working here in the House. So this budget proposal 
makes a step in the right direction.
    Historically, the Rules Committee has not asked for the 
substantial increases in funding that other committees have and 
as a result may find itself playing catch-up in the area of 
salaries.
    While I understand the physical restraints in play this 
year, I hope the committee will be generous so that the Rules 
Committee can make up some of that lost ground in regard to 
staff salary levels. Under the budget request, I will be able 
to make a modest cost-of-living adjustment to reward my staff 
for the great job that they do.
    Mr. Chairman, with regard to the increase in staff slots, 
while I support the request for an increase and believe it is 
justified, I must point out that the funding request, which 
will amount to approximately $32,000 for the minority, will not 
provide the dollars to pay a salary for an additional minority 
slot. I hope that you and the committee will take that into 
consideration when you consider the funding level provided to 
the Rules Committee.
    I would also like to speak in support of the technology and 
equipment requests. Many times, the Rules Committee finds 
itself in the rather unique position of being the first 
committee to receive copies of bills and conference reports. 
The ability to quickly disseminate this material to the 
membership of the House has become an important duty of our 
Committee and needs the technical resources to make that 
happen. David has assured me that all the minority's technology 
requests, including computers, will be met, and I thank him for 
that.
    Let me conclude by reiterating that we on the Democrat side 
of the Rules Committee support the request the Chairman and I 
present to you this morning.
    On that note, Mr. Chairman, I am prepared to answer any 
questions you might have.
    The Chairman. I thank you very much.
    [The statement of Ms. Slaughter follows:]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I really don't have any questions. You have 
had a budget over the years that has been very conservative and 
austere. You know, times change; electronically, things need up 
upgraded. You have always been very responsible in the 
submissions of the budget, so I really don't have any 
questions.
    Ms. Millender-McDonald. Yes. I will simply say that it is 
great to hear that you two have a good working relationship. 
The chairman has indicated by his remarks that it is a one-
third, one-third, one-third, and that all is working well.
    It is important that you do upgrade the equipment, because 
people are looking at us across this Nation. One committee 
Chair had even asked that we provide them with the types of 
screens that we have here so that you will be able to--persons 
will be able to see you just outside of your hearing room.
    Mr. Dreier. Ms. Millender-McDonald, if I could respond to 
that quickly to say that Mrs. Slaughter has specifically 
requested that we not have these screens in the Rules 
Committee. So I just want you to know for the record that we 
have not----
    Ms. Slaughter. We don't have room in there for all of this 
equipment.
    Ms. Millender-McDonald. Well, I do not want to open 
Pandora's box on anything.
    Ms. Slaughter. You are going to make me say I really don't 
want to see myself. I really prefer to remember myself as I 
was.
    Ms. Millender-McDonald. Mrs. Slaughter, you mentioned, 
though, that, even given the increase in the budget that the 
chairman has outlined here, that only yields you $32,000 for a 
staff position. Is that what you are saying?
    Ms. Slaughter. That is right.
    Ms. Millender-McDonald. Is it for an increase in an already 
current staff or would this be additional?
    Ms. Slaughter. No, these would be additional.
    Ms. Millender-McDonald. So you would not really yield a 
very experienced professional of staff.
    Ms. Slaughter. I think I will not be able to hire anybody 
for that small amount.
    Ms. Millender-McDonald. Yet the budget that, Mr. Chairman, 
you are providing for us would not have any type of increase in 
that range of salary?
    Mr. Dreier. We do have to add an additional level to it. 
You are certainly welcome.
    Ms. Millender-McDonald. That is not what I am aspiring to 
do. I just wanted to know within the constraints of what you 
have given us.
    Thank you, Mr. Chairman.
    Ms. Slaughter. I just do want to say that the upgrade in 
the technology is critical. We are called upon, as you point 
out, to disseminate bills and the information quickly. We 
really need to upgrade pretty quickly. How long has it been?
    Mr. Dreier. A while.
    Ms. Slaughter. It has been several years, I think, since we 
had new computers.
    The Chairman. Other questions?
    I want to thank both of you for your testimony today.
    Mr. Dreier. Thank you very much. I hope we helped put you 
back on schedule.
    The Chairman. Thank you.
    We move on. Transportation is scheduled. Obviously, they 
are on the floor. We would rather have them there getting that 
bill through than here.
    Agriculture will be next. We have the chairman, Mr. 
Goodlatte, and the ranking member, Mr. Peterson.
    Welcome, and we will start with the chairman.
    Mr. Goodlatte.

 STATEMENT OF HON. BOB GOODLATTE, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF VIRGINIA

    Mr. Goodlatte. Thank you, Mr. Chairman.
    Mr. Chairman, Ms. Millender-McDonald and members of the 
committee, it is a pleasure to be here today in support of the 
Agriculture Committee's 109th budget request with my good 
friend and ranking member Collin Peterson. Collin brings a 
great deal of energy and enthusiasm to his new position, and I 
look forward to working with him in continuing the 
Agriculture's Committee long-standing tradition of 
bipartisanship.
    Our committee's primary focus in the 109th Congress will be 
laying the foundation for the 2007 Omnibus Farm Bill. This 
legislation, known simply as the Farm Bill, directs U.S. 
agricultural policies for a 7-year period.
    It is a monumental task. It requires an extensive field 
hearing schedule. These field hearings provide all members of 
the committee the opportunity to explore the efficacy of 
current agriculture policies in all regions of the country. We 
are looking for what works, what does not and where efforts are 
being duplicated. The last two Farm Bills have managed to move 
the government from in front of the tractor to its side, to 
more of a partnership.
    The Omnibus Farm Bill encompasses most of the areas under 
the committee's jurisdiction, a wide range of issues that 
includes farm programs, forestry, food stamps, pesticides and 
commodities trading regulation, rural development and the farm 
credit system.
    In order to properly prepare this legislation, we are 
asking for one additional staff person. It will be an 
administrative, nonpartisan, assistant clerk position. Since we 
have been operating at the staff level set by the Speaker in 
1995, this is a modest and necessary request.
    With the exception of our travel budget request, which will 
fund our expanded field hearing schedule, the balance of our 
budget categories reflects necessary and minimal increases 
which are the result of our increased workload or simple 
inflationary costs.
    It is my hope that you will recognize that the Agriculture 
Committee has a long history of fiscal responsibility. Our 
committee's tradition of harmonious relations and fair play 
between the majority and minority reaches back 2 decades under 
the control of both parties. We intend to continue that 
tradition and ask that you grant us the funds to do the job at 
hand.
    I thank you for your time and consideration.
    I want to thank the Chair.
    The Chairman. I want to thank the Chair. Thank you.
    [The statement of Mr. Goodlatte follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Peterson.

STATEMENT OF HON. COLLIN PETERSON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Peterson. Thank you, Mr. Chairman.
    I have a statement which isn't here, so I will do what I do 
a lot of times. I will wing it.
    So I appreciate the chance to be here; and I look forward 
to working with my good friend, Mr. Goodlatte, in a bipartisan 
matter on the Agriculture Committee, as we always have. We 
appreciate, Mr. Chairman, your leadership; and we congratulate 
Ms. Millender-McDonald for her elevation to the ranking member 
of the Committee and look forward to working with all of you on 
the Committee over the years.
    As the chairman said, we have a lot of things to work on in 
the Committee, primarily getting ready for the Farm Bill 
debate, which will take place in 2007. I was involved in 
putting together the 2002 Farm Bill. We went through the same 
kind of process during that time, and it takes a lot of work 
and a lot of effort to get around the country.
    The issues that we have in Agriculture really are not 
Democrat/Republican issues. Usually, they are between 
commodities, between regions, between different kinds of 
interests in agriculture.
    In 2002, we were able to get to a point where nobody liked 
the bill, but everybody could live with it, and that is kind of 
how we have to put together the farm bills. So I support the 
request for the resources so that we can do that process.
    The other thing that I would point out is--I believe I am 
right on this--that out of the 45 members of the House 
Agriculture Committee, I think there are only six members that 
have been there for more than one Farm Bill. So we do have, you 
know, responsibility to get our members out around the country 
so that they can be up to speed when we get ready to go that.
    Over the years, the procedure in the Agriculture Committee 
has been to share the staff on a one-third/two-thirds basis, 
which has been, I guess, the way they have done that, I guess, 
the last number of years.
    As I understand it, we have committees that are moving in 
the direction of not just having a one-third/two-thirds split 
on salaries but actually splitting the committee budget one-
third for the minority, one-third for the majority and that the 
minority would have control and say over their one-third of the 
resources. So the chairman and I have been discussing this and 
talking about it, but at this point we haven't been able to 
come to a resolution of that situation.
    I feel like we have a new situation, my coming into this 
position, and I think that we ought to move in the direction 
that some of the other committees have moved. So I am still of 
the opinion that we ought to split this entire budget one-
third/two-thirds and with the minority be able to control our 
part of the resources.
    So, in spite of the fact that I support the overall budget, 
I am not here today to support the budget for the committee, 
because we have not resolved this issue. I hope that we will be 
able to resolve it as we move through the process, but we 
haven't been able to do it yet at this point.
    So, again, I appreciate your leadership, Mr. Chairman and 
the ranking member, the other members, and look forward to 
working with you and with the chairman as we move through this 
process.
    [The statement of Mr. Peterson follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The gentlelady.
    Ms. Millender-McDonald. Thank you so much. Thank you both 
so much for being here.
    It has been a practice of mine in this short 2 months that 
I have been here--and congratulations to you, Mr. Peterson, for 
your position on the committee--to kind of check with the 
leadership to make sure that--what her requests are. I am 
providing the answers for that.
    Mr. Goodlatte, I know that there has been a principle of 
this committee to have the one-third, one-third and control. I 
am now concerned that that is not what I have heard over the 
last 24 hours as to Mr. Peterson's position.
    My question to you is that, while perhaps previous ranking 
members have not engaged in this on a very forceful nature, 
would you be willing to now come back to the principle that has 
been approved by this gentlemen/gentlelady's agreement of both 
your leader and my leader to have the one-third, one-third 
control?
    Mr. Goodlatte. Well, Ms. Millender-McDonald, thank you. The 
fact of the matter is that we have some concerns, and we have 
some ongoing discussions with Mr. Peterson, and I would not be 
prepared to say at this time that I would agree to that.
    Quite frankly, if you look at the expenditures by the 
committee, the minority has received well over one-third of the 
payments in each of the last 2 years while I have been serving 
as chairman of the committee.
    In 2003, they received $221,000 in administrative expenses, 
expenditures for their benefit of that amount. They would have 
received under the one-third split only $127,000, almost 
$95,000 less.
    In 2004, $323,561 was expended for their benefit. They 
would have received $116,000, or almost $200,000 less, or only 
about one-third of the amount that we actually expended.
    Now part of this comes from the fact that, while we do 
split the salary portion of the expenses, we have on the 
Republican side expended less than we have needed, and we have 
used some of that additional resource to bring them up to what 
we think is the appropriate level of technological capability 
with the equipment that we have purchased for them. We think 
that it is important for us to continue to do that, and we 
think that the majority staff has the expertise to do that.
    In the 108th Congress, our committee exceeded the two-
thirds/one-third goal by $300,000 more in administrative 
expenses than the minority would have received with a two-
thirds/one-third budget split.
    Ms. Millender-McDonald. Well, I thank you for that 
historical perspective.
    While that might be the case, it is extremely important for 
the minority to have some sense of its freedom to spend the 
budget as he sees fit. That has been the request of the 
minority leader, that all of the ranking members have that 
autonomy to do that.
    Given that, at this point, you are unable to guarantee that 
is a concern of this ranking member. Because I am absolutely 
here at the pleasure of my leader, and she has been very 
forceful in this principle that she and the Speaker have agreed 
to. So that this chairman here has followed that type of 
request.
    So it is incumbent upon us to engage in this dialogue with 
the chairman, because it is imperative that there is a good 
working relationship as we move into this 109th Congress and 
that the ranking member has that ability to exercise those 
principles that have been outlined by the leadership.
    Ms. Lofgren. Would the gentlelady yield?
    Ms. Millender-McDonald. Yes.
    Ms. Lofgren. Because I think certainly Mr. Goodlatte and I 
have worked on many issues together in the Judiciary Committee, 
in particular, and this isn't a question about whether you have 
been fair. Because that is really not the point. That is not 
the issue. The issue is whether the minority has a right to the 
default position of one-third salary, one-third budget and 
control over the one-third, unless you agree otherwise. And you 
haven't agreed otherwise.
    So I really think--as I said earlier, I know you hear the 
majority can do whatever it wants by majority vote. But if we 
are going to make this a bipartisan effort, we are going to 
insist when people have not otherwise--that if a ranking member 
wants a default position, they have that right; or else you can 
do it on your own without Democratic votes. But I don't think 
that is the way we want to proceed.
    Mr. Goodlatte. I understand the position of the minority. 
It is one that you have taken caucus-wide with your leadership. 
I note that of the 19 or 20 standing committees, only five are 
doing this this way.
    The chairman of the committee is elected as a result of the 
process that the Congress follows to determine the operation of 
the Congress and the committees, and the chairman has 
responsibility to make decisions for the benefit of the entire 
committee.
    The Agriculture Committee has always operated on a very 
strong, bipartisan basis, and it is certainly my intention to 
continue that tradition with Mr. Peterson. I understand Mr. 
Peterson's perspective. So far, we do not agree on following 
this procedure. I think that the committee, in a bipartisan 
way, has acted very responsibly in terms of taking care of the 
needs of the minority staff and the minority members of the 
committee; and we intend to continue to do that.
    Ms. Millender-McDonald. Mr. Goodlatte--I am sorry. The 
gentlewoman, please.
    Ms. Lofgren. I just wanted to make the point that I think 
there needs to be some discussion on the other side of the 
aisle on the implication on this and whether the implication is 
to just have a party line vote for all the committee budgets or 
not. That is really a decision that probably the Speaker needs 
to make, because it is not just about us. So I would urge that 
those discussions take place, because this is not going to work 
out well unless they do, and I thank the gentlemen.
    The Chairman. Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman.
    Mr. Chairman, you are right. Maybe five or six committees 
in this House have not adhered to a complete one-third/two-
thirds, but that was----
    Mr. Goodlatte. If the gentleman would yield, three-quarters 
have not; only one-quarter have.
    Mr. Brady. But that is at the agreement of the Ranking 
Member and the Chairman. They agreed to that because they 
probably have their own--what they need to do in their own 
committee, and they are both happy with that. So we don't try 
to intercede.
    What I have heard from you is, in the past, you have given 
more than one-third. Are you looking forward to agreeing to 
give more than one-third in the future?
    Mr. Goodlatte. I am not going to agree to anything 
regarding what is needed for the committee in the future until 
I know what the committee's and the minority's, in particular, 
needs are.
    But you do have my commitment to continue to be very fair, 
as all of my predecessors--as the chairmen of the committee 
have and who have all operated under this system, which 
protects both the interest of the majority and the 
responsibilities of the chairman and, I think the evidence is 
very, very strong, has also protected the interests of the 
minority.
    Mr. Brady. Yes, if you would agree to the one-third, it 
would seem to me you would fare a lot better in the future than 
you have in the past.
    And there is another little problem--not a problem, just a 
different thing that happened here. We have a new ranking 
member, and he has to feel his oats, too. We don't want to 
hinder him just because the previous member did or didn't get 
along a little better, whatever. Not that he is the new guy 
down the block or anything, but I would just wish you would 
rethink that. I am sure our chairman is working on that. If you 
don't get the one-third, then you are both in agreement that 
you are going to distribute whatever ratio you are going to 
need to distribute.
    Mr. Goodlatte. Thank you, Mr. Brady. You are absolutely 
correct. If we were to do the two-thirds/one-third split, we 
would come out better. The fact of the matter is, my 
responsibility as the chairman is to the whole committee, not 
just to the majority side. I have always taken that position. I 
think it is reflected in the bipartisanship that you see in the 
Agriculture Committee.
    Mr. Peterson and I have worked together on many things over 
many years. We have a disagreement on this issue, and I have 
agreed to continue to discuss it with him. But that is how I 
see my responsibility and my role.
    Ms. Lofgren. Mr. Chairman, I just hope that the chairman 
can rethink his position. Because what Mr. Peterson, the 
ranking member, is asking you to do is not to respect his 
interests but to respect his rights. I would hope that that 
would be the ultimate conclusion or else we will have a fight 
about the whole budget, which I think would be unfortunate.
    I thank the chairman for yielding.
    Ms. Millender-McDonald. Just one comment, Mr. Chairman.
    You noted that only a third of the committees are adhering 
to this two-thirds/one-third ratio. While that might be the 
case, nevertheless, when you come to us, they have all said 
that they would adhere to this principle that the leaders of 
this House have set forth for each chairperson and his or her 
ranking member.
    This particular ranking member is fighting for that 
formula. So it is out of that respect that you should then try 
to come to that agreement, because he is fighting for the 
principle that has been outlined by the leadership that we all 
should be adhering to.
    So I am requesting you to really go back and rethink this 
so that we can say this has been a bipartisan effort and each 
member and each chairperson and the ranking member coming to us 
in good faith. I sure hope that you go back and think that 
over.
    Mr. Goodlatte. I thank the gentleman.
    The Chairman. I don't want to prolong this. We have other 
ranking members that came.
    I just want to ask a question, so I can get it a little 
clear in my mind, of the ranking member. What control would you 
be seeking that has not been there, what type of control of the 
funds?
    Mr. Peterson. Well, I have no doubt from what I have heard 
in the past the chairman has been fair. I guess--I am not 
saying that. But, you know, I am new to this. I was not 
involved in that process before.
    As I understand it, there is--the effort is to try to move 
in this direction on all the committees. I have talked to some 
of the other ranking members that have this agreement, and they 
prefer it, and you know our leader prefers it. So just starting 
off new--I just think, you know, this is the way we ought to be 
proceeding not only on the Agriculture Committee but on all of 
the committees. You know, we have talented people on our side. 
We can manage our resources; and, you know, I just feel more 
comfortable moving ahead with that process.
    Mr. Goodlatte. Mr. Chairman, if I might add to that.
    My chief of staff has just reminded me of, I think, a very 
pertinent point with regard to this entire discussion about the 
division of resources. There are four committees other than 
your own committee that do that now. The majority share of a 
two-thirds/one-third split of each of those four committees is 
greater than the entire budget of the Agriculture Committee in 
the last Congress. If we were to go ahead and agree to do this, 
I think that we would need a very substantial increase in our 
committee's budget that we are not seeking.
    We have historically been one of the most fiscally 
conservative committees. In the last Congress, we were the only 
committee that had fewer staff than members of the committee. 
We have fashioned our budget request for this year on the same 
basis; and Financial Services, Government Reform, Homeland 
Security and Ways and Means all receive anywhere from 5 to $10 
million more in their appropriations than the Agriculture 
Committee does. So what you are asking us to do is to put us in 
a situation that is a lot tighter than it is for some of the 
other committees that have agreed to do this.
    Ms. Millender-McDonald. Mr. Chairman, may I respond to 
that?
    The Chairman. Yes.
    Ms. Millender-McDonald. Mr. Chairman, what we are 
suggesting here is what you have proposed to us is not in 
concrete anyway at this time. We will have to negotiate to see 
whether or not that can be possible.
    Mr. Goodlatte. I understand.
    Ms. Millender-McDonald. In the event that is not possible, 
we have asked the chairman, if this budget is cut, will you 
still hold the minority harmless and that you will still 
provide this two-thirds/one-third ratio. It is irrespective of 
whether or not what you have requested will be given to you. It 
is a formula. It is a principle that we are holding to, 
irrespective of the final bottom line of your budget.
    Mr. Goodlatte. Well, Ms. Millender-McDonald, the fact of 
the matter is that each one of these committees is in very 
different circumstances; and the Agriculture Committee, with as 
tight a budget as we have, faces some different considerations 
than other committees might face.
    Without knowing what expenditures we are going to encounter 
in the future, what I can tell you, in terms of your request 
for holding the minority harmless, quote, unquote, is that we 
will, as we always have been, be fair to the minority, because 
I consider it the responsibility of my entire staff and myself 
to operate our committee as a whole entity that has, indeed, 
historically been fair, including the 2 years that I have been 
chairman, and we will continue that.
    Ms. Millender-McDonald. And fairness means two-thirds/one-
third.
    Mr. Goodlatte. Fairness means taking into account the needs 
of the majority staff, the minority staff, what equipment and 
other things that are necessary to operate the committee 
effectively and making sure that both the majority and the 
minority get what they need to operate effectively.
    Mr. Brady. Mr. Chairman.
    The Chairman. Mr. Brady.
    Mr. Brady. Mr. Chairman, I must apologize, because I am not 
the type of guy that wants to, you know, to stretch things out, 
but I am a little confused.
    If you are sitting there telling me you are putting a 
budget together that you want to get from us and you don't know 
if you can make a commitment to distribute it one-third or two-
thirds because you don't get enough money, I say to you, go 
back and do your budget, do it again, do it with the help of 
the ranking member and come back to us tell us, we want one-
third/two-thirds, and you have probably got a better shot of 
getting that budget increased more than this budget. At least 
with this side of the aisle you do.
    Mr. Goodlatte. I appreciate that, Mr. Brady. If that is 
what the Congress decides to do with all of the committees, we 
might have to do just that. But I am a fiscal conservative, and 
I think we report a fiscally responsible budget.
    Mr. Brady. We don't have to do that with all the 
committees. We just have to do that with this committee to make 
it work.
    The Chairman. Let me go back to one point I want to ask the 
ranking member. So, today, you don't have a specific idea about 
what you can't control. You don't have that yet?
    Mr. Peterson. Well, the way that it has operated in the 
past is that we received one-third of the salary budget, and 
that was it, and everything else is done by the majority. As I 
understand what is being done in other committees is that the 
other aspects of the budget are decided based on the priorities 
of the ranking member within the rules of the House and your 
committee and our committee.
    We are not going to be doing anything outside the rules, 
but we don't have control. We are basically told this is how it 
is going to be done. And, you know, it may be that we will 
agree on that. But, again, it is a principle that, you know, we 
ought to have a third of the resources, we ought to be able to 
decide how those are allocated on our side of the aisle, based 
on the rules of the House and your rules and----
    Ms. Lofgren. Mr. Chairman, could I ask a question?
    The Chairman. I just wanted to clarify. The rules of the 
House, nothing says that there has to be one-third.
    Mr. Peterson. No. No, I am just saying--we are not going to 
be doing anything that is not, you know, approved by--you know, 
we are not going to be spending money that is outside of the 
rules of what you can spend it on for official purpose of the 
committee.
    The Chairman. The one rule of the House is that the Chair, 
whether it is myself or Mr. Goodlatte, the Chairs are 
responsible----
    Mr. Peterson. Right.
    The Chairman. The majority Chairs are responsible to sign 
off for things, and they have, we have the responsibility----
    Mr. Peterson. Right.
    The Chairman [continuing]. Under the rules of the House to 
have the--have to sign, obviously, for travel and other items.
    Mr. Peterson. But what has happened----
    The Chairman. The Chair is held accountable, is what I am 
saying, under the rules of the House.
    Mr. Peterson. Right. We understand that, and we know--but 
what happens in the other committees, as I understand it, is 
that they have an agreement between the chairman and the 
ranking member that, you know, the requests or the allocations 
of the resources are, as long as they are within the legal 
rules, you know, are worked through----
    Ms. Millender-McDonald. Mr. Chairman.
    Mr. Peterson [continuing]. The ranking member and the 
chairman. And that seems to me, you know, that is what the 
leadership has said they want to do. That is where, as I 
understand it, we are trying to move in the Congress so that--
--
    Ms. Millender-McDonald. Mr. Chairman, that is indeed what 
we are saying here. It may not be a hard and fast rule, but it 
is a principle. It is the agreement that has been made by the 
leadership of this House that we share in the formula of a two-
thirds/one-third. Anything that deviates from that norm, then 
we need to go back and talk to the leadership of this House. 
Because this is then diverting from what they have set forth as 
a standard.
    So while it may not be a law, it is a standard, it is a 
principle, and it is the guiding principle that has guided all 
the chairpersons and the ranking member. So it is unfair to 
even sit here and say that we will accept a chairperson who 
refuses to abide by the principles without going back to our 
leadership, asking what their position will be, given what our 
position will be.
    The Chairman. The gentlelady.
    Ms. Lofgren. I would question--it seems to me there is 
real--really, the default position is what the Financial 
Services Committee is doing. And they came in, and they are 
happy. I mean, Mr. Oxley and Mr. Frank said they divided two-
thirds/one-third. Mr. Frank has a third of the salary. He has 
got a third of the budget. He controls his third. It works 
fine. I don't know the details of how they do that, but that is 
what the leadership has agreed to.
    The only time that changes is when the committee and 
ranking member agree to some other mode of behavior, which is 
what we saw with Mr. Hyde and Mr. Lantos, and that is fine, 
too.
    But I think if we are going--if the ranking member doesn't 
agree to what the leadership--to change that the leadership has 
agreed to, we can't do that.
    So I mean although, as I mentioned earlier, I know this 
really--this isn't worked out, this is an issue that is way 
bigger than this committee. It is really about the Speaker and 
Leader Pelosi and whether we have a bipartisan approach to 
this, which we won't have, I can guarantee you, if the 
agreements are not held to. I think that is a shame, because we 
should be working on a bipartisanship basis.
    Mr. Peterson. Mr. Chairman----
    The Chairman. If I could inject here, I think we are 
putting the cart way, way ahead of the horse today.
    There were several references to a bipartisan vote. The 
first vote, as I understand the history of the House, was Steny 
Hoyer and I when we had the first bipartisan vote in the 
history of the House. Now I can get us 217 votes on the floor 
tomorrow morning--everybody is going to be horrifically 
uncomfortable. I can do that with a 1 percent increase, and, 
you know, we can just go about the business. So there are 100 
ways to light that board up and win or lose. I don't want to do 
that today, to decide that.
    Ms. Millender-McDonald. Right.
    The Chairman. I will tell you one other thing, though, 
perspective I want to give you, because I have been here 10 
years Steny Hoyer and I went forth with the understanding we 
wanted to get to that goal, and Bill Thomas did an awful lot 
when he chaired this committee, and Mr. Hoyer was here to try 
to get to that goal.
    I have got to tell you, I wasn't here in 1994. I got 
elected and came here in 1995. There were so many historical 
hard feelings here, it was unbelievable. Some of it was 
because--Energy and Commerce, the minority got 18 percent of 
the money. I mean, you can go down and look at that. So I heard 
that when I came here.
    Ms. Lofgren. I did, too.
    The Chairman. But Bill Thomas went--like I said, went a 
long, long way to get there.
    The other problem--and Steny Hoyer and I sat down and 
negotiated with some of the committees, and it was a tough road 
on a couple of the committees. I won't mention--it wasn't 
Agriculture.
    But what happened is Agriculture, in defense of Mr. 
Goodlatte, signed off. The one-third was in the eye of the 
beholder in the sense that some committees split halfway down. 
[I think we split money on some of the new Member orientation.] 
I forget how we do that. But each was different. So the last 
ranking member signed off and said, yes, this is the one-third 
and was happy with it.
    Now you have a new ranking member----
    Mr. Peterson. If I could just--you know, I don't know that 
this is ever going to be a problem. But, for example, if we 
don't have the one-third/two-thirds with the authority, you 
know, we have a lot of hearings to set up, we have a lot of 
places we have to go around the country. You know, the way--if 
you don't have that authority, the Chair, you know, the 
majority could just set up those hearings, and I wouldn't have 
any leverage to have any say if I didn't agree with what we are 
doing if they control the travel budget.
    So, you know, I don't think it is ever going to be a 
problem. But we feel like we ought to have input into at least 
where some of the hearings are. We ought to have input into the 
equipment. Not that it is ever going to be a problem.
    This way it is in writing, and that means that we do have a 
say. We understand the chairman is responsible. We understand 
he has to sign off. It is just a matter of principle. I am not 
sure it is ever going to be a problem, but this is a decision 
that was made, and we just think we should follow it to see if 
we are starting off with a new regime here.
    Mr. Goodlatte. Mr. Chairman.
    The Chairman. I am hearing something that is going down a 
whole different road here. Never in the history of the House--
whoever controlled the Chambers, has the minority been able to 
set their own travel.
    Mr. Peterson. No, no, no, I am not saying that.
    The Chairman. Okay. You don't want to be able to set your 
own----
    Ms. Millender-McDonald. Mr. Chairman, I think what he 
merely said, and I heard, he wants input.
    Mr. Peterson. Right, into the hearing schedule.
    Mr. Goodlatte. Mr. Chairman.
    Mr. Peterson. Which I am sure we will have.
    Ms. Millender-McDonald. Can we agree, Mr. Chairman, to sit 
with these two gentlemen and see whether we can try to work 
something out at a later time than this so we can get on with 
the others?
    Mr. Goodlatte. Mr. Chairman, you make a very important 
point regarding the responsibility of a chairman of the 
committee for the expenditures of the entire funds of the 
committee.
    This committee--and I know Mr. Peterson has not been the 
ranking member, but I also do not believe that he would 
disagree that the entire number of years that Mr. Stenholm was 
ranking member there was a lack of consultation. There is 
nothing arbitrary about the expenditures of the committee nor 
the decisions about when to hold hearings, or the decisions 
about where to hold hearings. They are always done in 
consultation with the minority.
    Now we don't always agree on everything, of course, but we 
have always done so in consultation with the minority, and we 
certainly intend to do that with regard to travel needs that 
Mr. Peterson might suggest.
    However, I do have that ultimate responsibility, whether I 
divide the one-third or not. I think that in exercising that 
responsibility the approach that I am taking is the correct 
one.
    But I also agree, Ms. Millender-McDonald, that we will 
continue this discussion, and Mr. Peterson and I have a great 
deal of common interests in promoting the success of our 
committee's work.
    The Chairman. Thank you. I want to thank both of the 
members for being here today.
    We will move on next to the Armed Services Committee. I 
think our chairman is here, Mr. Hunter, and also our ranking 
member, Mr. Skelton. I want to thank both the gentlemen for 
being here.
    We will start with the chairman, Mr. Hunter.

 STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Mr. Chairman, thank you----
    The Chairman. You will want to hit the microphone button.
    Mr. Hunter. Okay.
    The Chairman. Got it.
    Mr. Hunter. Thank you, Mr. Chairman and Congresswoman 
Millender-McDonald and members of the committee. Thanks for 
letting us appear before you and present to you our funding 
resolution for the 109th. I am here with my good colleague, Ike 
Skelton, and join with him in presenting this request today.
    The budget submission provides significant detail, so I 
wanted to touch just on some highlights.
    Our request is roughly $13.3 million, $6.38 million for 
2005 and $6.9 million for 2006, which is 11.75 percent above 
the committee's authorized funding level for the 108th. It is 
based on the need to continue and expand the committee's 
considerable oversight responsibilities.
    The bulk of the increase is to allow for a small increase 
in the size of the staff as well as support cost-of-living 
allowances, merit increases and adjustments in view of the 
Speaker's recent pay order.
    It also reflects a 3-year replacement cycle for computer 
work stations, continuing upgrades for information technology 
infrastructure; and we also plan to continue enhancements in 
our ability to operate remotely and securely if we are 
disrupted and if we should have to go off site. So we plan to 
continue to work with House Information Resources (HIR) to take 
full advantage of the remote operating location to establish 
off-site storage and remote access options.
    As you know, we have in the Armed Services Committee an 
essentially nonpartisan staff within which Mr. Skelton 
maintains control over 10 slots. For purposes of all committee 
operations--pay, equipment, supplies, office space, parking, et 
cetera--Mr. Skelton's staff is treated in exactly the same 
manner as the rest of the staff.
    The committee's request reflects a level of resources that 
I think is necessary to attract and retain technically 
qualified staff, which is always a problem. We have lots of 
folks leaving us too--whether you have a Republican or 
Democratic administration, always lots of folks leaving to go 
to the administration, because they have got a lot of expertise 
and their capability is valued by every administration.
    It is also, I think, important to note that our committee 
has traditionally maintained one of the smallest staffs in the 
House relative to its jurisdiction and the broad oversight 
responsibilities and the actual size of the committee. You 
know, we are now up to 62 folks on the committee. So even with 
staff at fully-authorized levels, the committee staff-to-member 
ratio is roughly one to one.
    We traditionally have spent wisely. I think if you look at 
our numbers, we have often turned money back to the House, and 
we don't spend money unless we have to.
    Mr. Chairman and members of the committee--and I know Mr. 
Brady can attest to this because he is a valued member of our 
committee--we have got a vast responsibility. We have got a 2.5 
million person force. We have got two hot wars going on right 
now. We have responsibility for over half the discretionary 
budget. If you look at our numbers compared to the other 
committees, we are fairly low in terms of the number of staff 
that we maintain.
    You know, we maintain--I have listened to the discussion 
about the two-thirds/one-third. We have--I think we are a 
unique committee. Defense issues can be on an irregular basis, 
partisan issues. We have had those arm-wrestling sessions in 
our committee, just like you have in every committee but in 
most committees a lot more often than we have in Armed 
Services.
    Let me give you an example. To support this war right now, 
to support our troops, we have 14 task forces that we have got 
staff members assigned to who are working on everything from 
jammers to armor, to force protection, communication. I have 
got people who are doing nothing but contacting the families of 
people who have been killed in action, families of people who 
are clearly making sure that things are taking place that 
should be taking place. We have our teams out making sure that 
we are resetting the force, making sure we are taking care of 
equipment when we bring it back from the theater to make sure 
that it is ready for the next operation.
    We really have a very large area of responsibility, and we 
don't have a lot of staff members. Our staff is nonpartisan, 
and I know it is hard to, sometimes, in the context of the 
political battle that we do--necessarily do on the Hill that 
you should have a committee like that, but it is because the 
issues of national security are especially nonpartisan issues.
    Rarely, we do have to draw the battle lines and do battle. 
And the reason you have a nonpartisan staff--but with a number 
of members assigned--10 members assigned to the minority, you 
think that is unusual, how many members are assigned to the 
majority. The answer is none.
    The reason we did that is because, back in the days of Les 
Aspin and Mr. Dickinson, Bill Dickinson, we realized we were 
going to have some partisan battles, and we said that the 
minority needed to have at least--even though most of the stuff 
we do is nonpartisan, we needed to have at least a center of 
gravity, a core of staff folks who could--that the minority 
could use.
    In those days, it was for the Republicans who--which you 
rarely did, would draw the partisan lines, would be able to 
serve the Republican members, or, in this case, today, serve 
the Democrat members, in those few times when you have a 
partisan line. The rest of the time, these members are out 
there working away on the many subcommittees, working for both 
parties and doing their job.
    Strangely enough, this has worked well. That means that 
everybody is pulling in the same direction. That is, serving 
the troops and serving our Armed Forces 95 percent of the time.
    When we have to arm-wrestle over a partisan issue, the 
minority has people they can rely on whose job is to be their 
supporters, and so they don't feel like they are offending--the 
staff members don't feel like they are going around the many 
which it is their job to rally around and support--in the old 
days, support Bill Dickinson; in these days, support Ike 
Skelton. When we rarely do cross sabers--and that happens now 
and again--but our committee, because of the nature of what we 
do, isn't partisan.
    So we have--I think we have a well-run operation. We do 
need to have--we have got 59 folks now, going to 61 within a 
week, and we will be at 64, which is our allotment. Because we 
have got new things coming up, Mr. Chairman. We have got this 
lifting of the arms embargo to China, which is going to have 
major impact on our security situation, which needs a lot of 
work.
    On our security situation, which needs a lot of work, we 
have got technology transfer, trying to keep systems from going 
to the bad guys. We have got the ongoing war against terrorism, 
and we need to fill these additional slots. We are going to be 
up to our 64, which is allotted, in just a week or two, and we 
would like to go to 67. But I think in the context of what we 
do for the country in our area of responsibility, it is a 
reasonable thing. So I would like to turn to Ike and have him 
give you his perspective here, but that is mine.
    [The statement of Mr. Hunter follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Chairman.
    Mr. Skelton.

  STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MISSOURI

    Mr. Skelton. Mr. Chairman, Ms. Millender-McDonald, thank 
you for hearing us today.
    I echo Chairman Hunter's comments regarding the staff, and 
in particular our staff regarding pay, COLA, equipment and the 
like. And what he has explained in the background, going back 
to Bill Dickinson, which I will remember when he was the 
ranking member when I first went on the committee.
    We are different in two respects. We, by and large, are 
very bipartisan. War is not a partisan issue. And secondly, the 
budget that we put out, $440 billion every year and climbing, 
18 percent of the total Federal budget, one-half of the Federal 
Government's discretionary budget, and if you look at the 
numbers of staff that we have, they meet themselves going and 
coming. They are professionals, they all have security 
clearances. We just can't go out and hire someone off the 
street that is smart and able. We have to have very experienced 
and highly skilled staff, as well as those who meet the 
criteria for security. So I think that we are well within 
bounds.
    And if you look at some of the other committees, the number 
of staff that they have, and compared to the workload, Mr. 
Chairman and Ms. Millender-McDonald, what we have, we do an 
awful lot with an awful lot less, and I am very, very proud of 
the staff that we have. If anything, the bottom line is what 
the chairman says.
    Of course we could all use more, but we tend to be more on 
the conservative side of it. And I will tell you, and I know 
Mr. Brady will agree, the staff is not only good, not only 
professional, but they work very, very hard. Many, many 
weekends you can't find them except at the office, and that is 
what they are doing. With the tremendous responsibility that we 
have, we hope that you will meet our request.
    The Chairman. Well, I thank both gentlemen. I really don't 
have any questions, but I do have a comment.
    I have worked with both of you, and I appreciate your 
insights on military, our troops. I have had the pleasure to be 
able to spend time with both of you, and I appreciate your 
patriotism and your respect for each other and the system.
    Also, you talked about all the things you are handling, and 
I know Robert Rangel is back there, and when I get--you get e-
mail from troops today. And I have had several issues and I 
call him, and people on the staff answer to him. It is 
comforting to know because you shouldn't just call the 
bureaucracy side and say well, what do you think, I call you 
all. And I know other Members are doing, and your Staff 
Director, and your staff has always responded. And I feel the 
answer we get back makes me comfortable that we are doing 
everything humanly possible for the troops and the needs. So I 
just appreciate that response, both you and the Staff Director 
and the staff over there.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. And I 
applaud both of you for the work that you do on Armed Services; 
it is a tremendous responsibility. The committee itself is so 
needed in this time that we have here. And I have followed a 
lot of what you do because of the position we are in in war, 
and so I applaud you so much.
    My few questions that I have to Mr. Skelton is, do you have 
control of your one-third of the budget that is given to you by 
the chairman?
    Mr. Skelton. We don't look at it one-third/two-thirds. I 
have control over the staffers that work for me, I have 
numerous recommendations on everything from witnesses to 
hearings to trips and the like, and Mr. Hunter hears me well on 
those. I don't think we can say we have a one-third/two-third. 
That has never been the situation of the Armed Services 
Committee as such.
    I control the ten members who actually work directly for 
me, and I choose them. And I might say they are very, very good 
at what they do, as well as the professional staff of which Mr. 
Hunter spoke. Any Member can--Democrat Member can pick up the 
phone and call a member of those who work for me, regardless of 
specialty, or pick a member of the professional staff regarding 
his or her specialty and get help. That has been the way it has 
worked through the years. And it works well, it works well for 
the country and for the troops.
    Ms. Millender-McDonald. It seems like you two have a very 
good working relationship, and as Mr. Hunter has outlined the 
way by which he has been able to move the budget and to ensure 
that you have been satisfied with those movements I think is 
laudable to the chairman.
    Mr. Chairman, you did speak of having to increase staff 
from the level you have now to 64, and perhaps ultimately 
getting to 67. How much of that staff will be converted to the 
minority side?
    Mr. Hunter. Well, again, first, with respect to hiring 
staff, I have never asked a staff member if they are Republican 
or Democrat, and I don't know of our staff members. I know it 
seems strange, we have got a professional staff which is 
bipartisan, or that is professional staff responsive to all 
Members. And then you have got a minority team of 10 staff 
members. And so--and I don't know of those staff members that 
are dedicated to the minority which of them were hired by 
Republican chairmen or Democrat chairmen over the years.
    So we have truly a staff which is not only bipartisan and 
nonpartisan, but because of my bad memory and probably that of 
the other senior members, we can't remember who hired them or 
where they came from. We know one thing, and that is that they 
do a good job.
    So of these members, if we get three additional members, 
what Ike and I will do is talk it over and talk about what we 
need. I ultimately will hire these folks, but what we need to 
hire them for are these issues that are really nonpartisan 
issues. In my estimation, just looking at the state of the 
world, I think this lifting of the arms embargo on China is 
going to provide enormous problems for the United States and 
issues for us, some of which are very complex. So we need 
people who can understand what the Europeans are going to be 
doing, what we need to do to try to stem critical killing 
technology that could end up killing Americans on the 
battlefield from going over to China from our allies; and 
secondly, if they do that, what should be our response as 
Americans.
    That capability is something that is going to be hard for 
us to find, but those are the types of people that I would like 
to get for this additional three people, if we can get them. 
And I can assure you I will discuss these folks with Mr. 
Skelton, and we will try to come up with some good folks, but 
they won't be hired for a split, you know, Republican-Democrat 
split.
    Mr. Skelton. I think there is good expectation, however, 
that I would have one of those three in all probability. Am I 
correct?
    Mr. Hunter. Oh, excuse me. Ike will get one of those 
people, but my urging to Ike is that we, as we put together our 
job requirement for these three folks, that they have 
capability in this new challenge that we are being handed by 
what is going to happen probably around June, which is this 
lifting of this arms embargo. So I would hope that we can both 
search for talent in that area.
    Mr. Skelton. The search for talent, he is absolutely right, 
because every staff member is not an expert in everything. Mr. 
Brady will fully tell you that. So consequently you look for a 
certain one for certain areas.
    But as the chairman said, I have full expectation of one of 
those. What exactly that expertise will be I don't know and I 
don't think he would know right now.
    Mr. Hunter. Let me put it this way, Ike will hire one of 
those three folks. My recommendation is that I want Ike to 
listen to me on his hire, and I am going to listen to him on 
the two hires. We will work this together.
    Ms. Millender-McDonald. Well, I am really encouraged by 
what you are saying here because the job and the task that you 
have in this committee really should supersede and not be a 
factor in terms of bipartisan or partisan, because war is, I 
think Mr. Skelton said, is not a partisan thing. And so I am 
very encouraged by what you are saying, and the seamless way, 
it seems, that the staff moves back and forth, irrespective of 
whether it is Republican or Democrat, and that is very 
encouraging.
    Mr. Chairman, I did see, though, on your request that your 
franking request has a little bit increased considerably from 
$673 to $16,000 roughly, as we see here, a vast percentage of 
increase there.
    Can you tell me why is that, and what would you perhaps 
perceive what that increase in franking might be in terms of 
mailing? What is your anticipation of that increase with 
reference to mailing?
    Mr. Hunter. We don't really do a lot of franking, but we 
anticipate we will try to--we are going to be trying to have 
hearings around the country, and that is more of a placeholder, 
if you will.
    Ms. Millender-McDonald. So it is a placeholder for perhaps 
the traveling as opposed to the mailing?
    Mr. Hunter. Yes.
    Ms. Millender-McDonald. I see.
    Mr. Hunter. Yeah, we have a fairly low franking operation.
    Ms. Millender-McDonald. All right. Thank you, Mr. Chairman.
    The Chairman. Mr. Brady.
    Mr. Brady. Mr. Chairman, I wouldn't dare to ask either one 
of these gentlemen a question, but I just want to make a 
comment that I am honored and proud to serve under the ranking 
member and the chairman of the Armed Services Committee. They 
do one outstanding job doing a hard job every single day, and 
the staff, protecting this country and protecting our men and 
women in harm's way, and I am proud to serve under them.
    Mr. Hunter. Well, thank you, sir. I appreciate it, Mr. 
Brady, and we appreciate you.
    Mr. Brady. Thank you very much.
    The Chairman. Gentlelady.
    Ms. Lofgren. Just two questions, or maybe three.
    First, obviously this is working well, and we are going to 
accept the budget, and express our admiration to you both for 
all of the work that you do for our country.
    I had a question on the additional staffing that has come 
up with other committees. Do you have sufficient space to house 
additional staff?
    Mr. Hunter. Yes, we do, from what I get from our----
    Ms. Lofgren. I think your Staff Director is wincing.
    Mr. Hunter. He is hovering in the background here. Let me 
find out.
    As I told you everything is fine, he said no, it is a real 
challenge.
    Ms. Lofgren. I was going to say the body language is 
different behind your back.
    Mr. Skelton. My staff is whispering in my ear and basically 
saying the same thing, we can use some more room.
    Ms. Lofgren. That is what we have been hearing from 
everybody.
    And on the franking, I understand you may not be actually 
using the increase for franking, but is franked mail from 
committees subject to the same kind of constraints that we 
face, for example, the 90-day window before elections? And does 
franked mail go through the advisory opinion process like mail 
we send out from our offices, and shouldn't it?
    Mr. Hunter. You know----
    The Chairman. Do you want me to answer that?
    Mr. Hunter. Yeah, go right ahead. I am going to defer to 
the chairman.
    The Chairman. Well, the committees are not under a 90-day 
blackout rule, as Members' offices are. Also, the committee 
franking technically does not have to go through the same 
approval process, although some committees will bring us the--
and we would highly suggest they bring us--the piece to spare 
them problems.
    Ms. Millender-McDonald. Mr. Chairman, though, while you 
have made those overtures, Mr. Chairman, on that, we do want to 
bear in mind that the committees, they do not come under the 
same process or procedures as one's own personal office, that 
nonetheless the funding that is provided for them is funded 
through appropriations. So we are still talking about a certain 
amount of constraints when it comes to the type of franking 
mail and the cut-off period for that franking mail to go out. 
So that should be for the record.
    Mr. Hunter. Okay. I appreciate that. And I am looking, Mr. 
Rangel has handed me my balance for--fund balance for franking 
for 2003. We spent $673.74, and in 2004 it was $470.97.
    The Chairman. Mr. Chairman, just to clarify, aren't you 
going to use your frank for the theatre hearings?
    Mr. Hunter. We intend to do that. But in the past we have 
had very low franking expenses, and most of our franking has 
gone traditionally just to administrative correspondence with 
the relevant DOD departments.
    The Chairman. Thank you. Other questions? Thank you very 
much.
    Mr. Hunter. Thank you.
    The Chairman. We also had got a notice that the Science 
Committee was to be up today. They are required, both the chair 
and the ranking member, to go onto the floor, so they 
apologize. So we will have to reschedule that one, and that is 
the last one that we had for today.
    Transportation was required to be on the floor, and like I 
said, they needed to be, and we can reschedule that one, too.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    The Chairman. I ask for unanimous consent that members have 
3 business days to submit their statements and materials for 
the record. Without objection, it will be entered. And also 
unanimous consent that the staff be authorized to make 
technical and conforming changes on all the matters. Without 
objection.
    We have completed our business, and the committee is in 
recess.
    [Whereupon, at 12:45 p.m., the committee was adjourned.]

 
                           COMMITTEE FUNDING

                              ----------                              


                       WEDNESDAY, MARCH 16, 2005

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:20 p.m., in room 
1310, Rayburn House Office Building, Hon. Robert W. Ney 
(chairman of the committee) presiding.
    Present: Representatives Ney, Ehlers, Miller, Millender-
McDonald, Brady and Lofgren.
    Staff Present: Paul Vinovich, Staff Director; Jeff Janas, 
Director of Committee Operations; and Jack Dail, Franking 
Commission, Staff Director.
    The Chairman. The meeting will come to order. The ranking 
member of the Transportation Committee is late, but we will 
begin with the chairman, Mr. Young.
    Mr. Young. If it is all right with you, Mr. Chairman, we 
will proceed. Mr. Oberstar will be here.
    The Chairman. If you could turn your mike on.
    Mr. Young. See, we do not have this modern technology in my 
poor little room. We have to press a switch.
    The Chairman. We can get you whatever you want, especially 
this week. Especially this year.
    Mr. Young. Mr. Chairman, I do appreciate being able to 
present our budget to you. I had a suggestion, that if you 
would just give me the money I am asking for I will not read my 
statement. Is that good?
    The Chairman. Not a bad deal to me.
    Mrs. Miller of Michigan. Anyone looking for a motion?

STATEMENT OF HON. DON YOUNG, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF ALASKA

    Mr. Young. Anyway, again, this is my third Congress as 
chairman to appear before you, and the Committee on 
Transportation and Infrastructure, as you know, is the largest 
committee in the history of Congress. Members of Congress want 
to serve on this committee because it addresses the needs of 
American citizens for safe and efficient transportation.
    A modern efficient transportation system is vital to our 
Nation's economy and an integral part of the high standard of 
living and the quality of life Americans deserve. As such, our 
committee will address the problems and needs associated with 
every mode of transportation: The roads, of course; the 
bridges, which are outdated and worn out; aviation system; 
railroads; waterways and ports. We address America's emergency 
management services and Federal infrastructure needs.
    Just last week, Mr. Chairman, as you know, we approved a 
$284 billion highway and transit bill that will benefit every 
district in the Nation and create hundreds of thousands of new 
jobs in all 50 States.
    Our committee, as you know, is organized into six 
subcommittees: The Subcommittee on Aviation; Subcommittee on 
Coast Guard and Maritime Transportation; Subcommittee on 
Highways, Transit and Pipelines; Subcommittee on Economic 
Development, Public Buildings and Emergency Management; 
Subcommittee on Railroads; and the Subcommittee on Water 
Resources and Environment.
    The full committee will continue to perform oversight and 
investigations, which we are required to. We have requested a 
modest increase in the committee salary allocation to provide a 
yearly cost-of-living increase and to adequately reward 
superior performance. We have not asked for an increase in the 
committee's staff ceiling. We feel it is essential to take 
advantage of the technology available and to present 
information in the most efficient means to our Members. Our 
plan is to upgrade systems to keep pace with that technology.
    I also believe that one of the most important services of 
the committee is to hold field hearings throughout the Nation 
on legislation and oversight matters in the affected 
communities. Therefore, I will be asking my subcommittee 
chairmen to take their subcommittees outside of the Beltway to 
those communities most impacted by matters under our 
jurisdiction.
    Our increased funding request for travel is a result of the 
planned field hearings and oversight and investigative trips. 
Our request for $9 million in 2005 and $9.5 million in 2006, 
for a total of $18 million, is our best judgment for what we 
need to carry out our legislative and oversight function.
    Finally, I would like to thank my good friend and 
colleague, who will be here soon, Congressman James Oberstar, 
the ranking member of the committee. Our committee continues in 
a spirit of very bipartisan cooperation to solve the Nation's 
transportation and infrastructure problems in a fiscally 
responsible manner. Congressman Oberstar and his staff have 
been most helpful in developing this proposed budget, and I do 
appreciate their assistance.
    While we cannot foresee the future, the next 2 years offer 
the twin promises of great progress and great challenge. We 
expect them to be busy and productive and ask that while you 
are considering our funding request, also consider the 
additional resources we require as the largest committee in the 
109th Congress.
    That is my statement, Mr. Chairman, and I will answer any 
questions.
    [The statement of Mr. Young follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I thank the chairman for his time, and I know 
Mr. Oberstar is on his way.
    One question we have asked, and we will Mr. Oberstar, is 
about the two-thirds/one-third, which you have been through 
last time with Mr. Oberstar, of how the resources are divided.
    Mr. Young. I believe we did it like we have always done it. 
It is two-thirds/one-third. We have always been fair. I do not 
think we have ever had a difference of opinion on that.
    The Chairman. I really do not have any questions. I will 
see if our Members have questions.
    I did want to note that I have been on Transportation for 
10 years, and I enjoyed the first chairman and the ranking 
member, Mr. Oberstar, and not just because you are sitting 
here, because I have not said this to everybody--but I have 
enjoyed your chairmanship and, again, Mr. Oberstar.
    The other thing is, I give you a lot of credit for your 
tenacity. You pushed when some people have been angry on either 
side of the aisle, and that is okay in this business of what is 
good for people. You and Mr. Oberstar have kept this agenda 
right out front, where it needs to be, with what is going on in 
the United States, with the population increase and 
transportation.
    And the other thing you have done, too, I have a rural 
area, but you have been able to show us in the committee, both 
of you and your staffs, that there are other situations out 
there that we need to pay attention to. We may not have certain 
transit situations in our districts, but we need to care about 
it. We may not have certain waterway situations, but we need to 
care about it. So you have given an overall comprehensive look 
at transportation.
    I give you so much credit for both of you working together 
and producing the wonderful bill you did that is going to make 
a better way for people who are not even going to know our 
names. But for future generations in our districts, it is 
literally making visible impacts on our regions. I know our 
people appreciate it back home.
    So thanks to the chairman and ranking member.
    If the ranking member has an opening statement, I will let 
you go into that.

STATEMENT OF HON. JAMES OBERSTAR, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF MINNESOTA

    Mr. Oberstar. I will submit my statement for the record, 
Mr. Chairman.
    You have eloquently and fulsomely described the work of 
this committee, and I know, because I have seen the chairman's 
statement prior to the hearing, and I regret being delayed with 
our Minnesota State Society.
    The Chairman. If you could press the button on the mike.
    Mr. Young. He told me they have this fancy stuff.
    Mr. Oberstar. Yes, ours is live. We have a button to swing 
in our committee.
    But you referenced, Mr. Chairman, the rural needs. Our 
transportation bill that you voted for has $540 million over 
the next 5 years of the legislation dedicated to rural road-
safety initiatives. First time that we have had such a 
designation set aside for the specific needs of rural areas, 
and the Chairman is a very vigorous advocate for that 
provision.
    Forty-three percent of America's fatalities are in rural 
areas, and half of those killed on rural roads are people from 
urban areas. Urban America has a very keen interest in rural 
road safety.
    But overall, the legislation that we brought to the floor 
last week, and hopefully will get through conference this time, 
makes a significant downpayment on the Nation's transportation 
needs.
    But we have more than surface transportation. In all, we 
have nearly $500 billion of authorizations in our committee, to 
include the Water Resources Development Act; the Clean Water 
Revolving Loan Fund, $20 billion bill pending in our committee; 
the reauthorization of the Federal Economic Development 
Administration programs. We will, in the next year, have to 
confront the needs of the Aviation Trust Fund. All of those are 
massive investments in what makes America work. It moves people 
and goods in our society. Investments we cannot afford to fail 
to make.
    The chairman has said often, and I have as well, China is 
investing $200 billion and doubling the capacity of their 
ports. They are halfway through a $100 billion airport 
improvement program, building six new airports, already 
completed; modernizing 35 existing ones, and now moving to 
another $100 billion airport development program for the 
interior of China to develop regional aviation and another $150 
billion to be invested in building the equivalent of our 
interstate highway system in the next 15 years. We cannot 
afford not to make those investments in America.
    We have to improve our transportation infrastructure to 
move our economy forward and keep it competitive. The roads 
that we build and the rails that we build and the airport 
facilities that we build are not done in Taiwan or Singapore or 
Sri Lanka. They are built right here in America with American 
labor and American steel. And as a member of our Steel Caucus, 
Mr. Chairman, you know the Buy America provision in steel is 
critical. It saved over 100 million tons of American steel over 
the last 20 years.
    [The statement of Mr. Oberstar follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Well, I want to thank both the chairman and 
the ranking member again for all the great things I think you 
have done for the country.
    The gentlewoman from California.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, and let me 
join in the sweet refrain of what you have said earlier. 
Really, I am on this committee, and I know how well this 
committee works. They have worked in concert over the years 
that I have been in Congress, at least for the 9 years I have 
been here, and we have an extraordinary opportunity now to move 
goods and people more aggressively.
    The growth of this country is tremendous, and yet we have 
not built the roads and bridges to the capacity they should, 
given the growth. So I am pleased to sit on this committee with 
two fine gentlemen who take leadership by the tail and they 
move the agenda.
    Mr. Oberstar, you were not here earlier when the chairman 
asked about the two-thirds/one-third formula that is in concert 
with all of the chairs and ranking members. Is that amenable to 
you, and are you satisfied with the operation working with your 
chair?
    Mr. Oberstar. The division of funding has worked without 
problem, and we are very pleased with the relationship we have 
with the majority leadership of the committee.
    Ms. Millender-McDonald. That is what the chairman said, so 
you are right on point with him.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. One thing I always 
look for in a committee as we go through these reviews is the 
efficiency of the operation of the committee, and I am pleased 
to say the Committee on Transportation and Infrastructure 
operates very efficiently, and they use their money well. It is 
hard to find any waste, except perhaps they could clean their 
restroom a little more often. But other than that, it is a very 
smoothly operated entity.
    Mr. Oberstar. Get your mop out.
    Mr. Ehlers. Thank you. Finally got that through.
    It is just a well-run committee in every sense of the word. 
So, clearly, their funding request deserves very favorable 
consideration.
    I did want to comment a bit further on the statement from 
the ranking member when he talked about infrastructure and our 
problems vis-a-vis China. I am very concerned about this, and 
that is why I was glad to hear the chairman saying we are going 
to get out in other parts of the country and hold hearings. 
Because we have a mammoth educational job to do. I am just 
amazed that the public today does not understand what 
infrastructure is and what role it plays.
    Mr. Oberstar, I was born in your State, the southwest 
corner, in a small town of 800 people, Edgerton. I remember 
well in the early--I guess right after World War II--when we 
put in sewer and water, the immense civic pride that went into 
that. They were so proud that they had that infrastructure and 
did not depend on septic tanks and home wells and so forth.
    Today, I live in the city, and when these city commissions 
try to increase water fees slightly to improve infrastructure, 
people complain about the increase in the rates. They literally 
do not know what is under the ground. They do not know what is 
involved. They do not know what it is causing.
    I have seen the figures of what is needed in this Nation. I 
am a little concerned that all these cities, townships, 
whatever, are coming to us and saying we cannot afford it, you 
will have to do it. They can afford it just as well as we can, 
but they have to help us educate the public on the nature of 
the problems and what has to be done, and they have to be 
willing to pay the bill. It is not going to be good old Uncle 
Sam coming to help them, other than through the revolving fund, 
which I think is great.
    If my little old town of 800 people could afford to put in 
water and sewer de novo, certainly the people today can afford 
to pay the cost for improvements. And we have to improve it. 
And it is not just water and sewer, it is highways, bridges; it 
is transit. That is why I love being on this committee, because 
it is all of these important things and good things that are 
wonderful for the people, which they support, but we do have to 
do a little education. You do not get anything for free in this 
business.
    So thank you for raising that.
    The Chairman. I thank the gentleman.
    The gentlewoman from Michigan.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman. I do not 
know that I have a question, but perhaps an observation.
    I am at a slight disadvantage, since my other three 
colleagues all serve on the Transportation Committee, and they 
have articulated very well what a wonderful job you are doing 
and how cost-efficient the Transportation and Infrastructure 
Committee is. But it occurred to me, just listening to the 
conversation, that even though I am not actually a member of 
your esteemed committee, I utilize your services and expertise 
extensively, as does I think every Member of this body. That 
was particularly evident during the recent consideration of the 
transportation bill, in its subsequent passage, because I am 
sure that all Members were talking to each of you about the 
different kinds of challenges and needs in their respective 
districts. So yours is a committee that is unique in some way 
because it does service the entire Congress and the Nation.
    Another observation: All the transportation needs have been 
talked about, but the economic growth has historically always 
followed the transportation grid, whether it was the wagon 
trains, then the railroads or the interstates and the airlines 
or what have you. So the work that you are doing is of huge 
importance to our economic stability and the future of the 
economy of our very Nation, in my opinion.
    I have read through the statement and the documentation, 
and I would just say, certainly, that I appreciate everyone 
being fiscally conservative. I like to think of myself as that 
as well, but I also think the business of the American people 
needs to get done and particularly on a committee like the 
Transportation and Infrastructure Committee, so I applaud both 
of you, the chairman and the ranking member, and the Members 
for their diligent work on these issues.
    Mr. Young. Thank you.
    The Chairman. I thank the gentlewoman.
    Just in closing, we do have a tight budget, as usual, but 
we will try to give every consideration of the needs, 
considering the importance of the committee overall to the 
Congress.
    Also, I would be remiss if I did not mention that our staff 
tells me that working with your staff has been a delight. They 
get things on time, the details and all the other things that 
sometimes go wrong do not go wrong with your staff, and they 
communicate. So the relationship of the entire staff, minority 
and majority, has been a very good working relationship with 
the committee.
    Mr. Oberstar. Mr. Chairman, could I just----
    The Chairman. Sure. Of course, Mr. Oberstar used to be a 
staff member.
    Mr. Oberstar. That helps to understand how this place 
works.
    The observation of the gentlewoman from Michigan and the 
gentleman from Michigan as well, you do not see partisan smoke 
coming out of our committee. We have differences. They are 
often regional in nature. They are differences of approach. But 
in the end, we have worked those out for the greater good of 
the country.
    But I cannot help but note the observations of the 
gentleman from Michigan about investment in our wastewater 
infrastructure. The Clean Water Act in 1972 had the purpose of 
investing wastewater construction grants in the major 
metropolitan areas first to clean up the biggest waste streams. 
And those were very expensive dollars, very expensive projects.
    The plan was, after the first decade, to then shift the 
emphasis to communities of 25,000 or less. And just at that 
time, the Reagan administration came in and terminated the 
Clean Water Grant Program over a 2-year period and then shifted 
it into the Revolving Loan Fund.
    Those smaller communities, with the narrower tax base, with 
fewer resources, without migration, with industries shutting 
down, found themselves unable to finance the improvements to 
existing facilities or build the ones they needed. And the 70-
30 matching grant programs, which later became 80-20, now was 
gone for them.
    So the smaller communities of America are not in the same 
relative position to clean up as the larger metropolitan areas 
have been and continue to be. So I think it is important for us 
to move to the House Floor the Clean Water Revolving Loan Fund 
$20 billion, 5-year bill, as quickly as our House leadership 
will allow it to happen and address the needs of rural America. 
Otherwise, you are simply going to have a repeat of the 
migration from rural America to urban centers that happened in 
the 1930s when 26 million people left the countryside in 
America and went to the cities.
    Now you have all those problems of overcrowding and drugs 
and every other imaginable problem that you could avoid if we 
keep people where the quality of living is better, where they 
prefer to be and where we can provide the amenities and 
necessities of life.
    The Chairman. I thank both gentlemen for your time today.
    Mr. Young. Thank you, Mr. Chairman and Members. It is 
always a pleasure to ask for money, and, hopefully, we will 
receive it.
    The Chairman. Thank you.
    Next, we will move on to the Science Committee.
    I want to welcome our ranking member, Mr. Gordon, and we 
will go ahead and begin with you, and Mr. Boehlert, I am sure, 
will be here.

  STATEMENT OF HON. BART GORDON, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF TENNESSEE

    Mr. Gordon. Mr. Chairman, thank you for allowing us to 
present our budget today.
    The Chairman. And if you will push the button right in 
front of your mike there.
    Mr. Gordon. This one. There we go. Mr. Chairman, the 
Science Committee ought to know how to use these things, but I 
think you are much more high-tech than we are.
    Thank you for letting me be here today. As Mr. Ehlers can 
confirm, we have a very good working relationship on the 
Science Committee. I want to congratulate our new ranking 
member. I hope that her relationship with her chairman can be 
as good as we have with the Science Committee. We work well 
together both as Members, and the staff has worked very well 
also.
    So I really am here to say amen. But you are supposed to 
let Sherry say what he is going to say first. But I will give a 
preliminary amen to his recommendations. We really do, again, 
have a good working relationship.
    A couple of things I would like to point out, though, is 
the Science Committee, probably more than most, as Vern can 
tell you, has a very good professional staff, most of which 
have advanced degrees, and it is more difficult to get those 
folks and more expensive. So we are very pleased with our 
committee.
    But what has happened here in the last couple of years is 
that we have had a lot of additional responsibility, with the 
shuttle crash, with Return to Flight, with reorganization of 
NASA; there are a variety of additional responsibilities. So I 
would like to make a request from this committee that we have 
our committee slots increased.
    Right now, we have 61, and, again, I would like to get 
Sherry's concurrence, but to go from 61 to 63. And let me give 
a little background.
    Since the 106th Congress, ten committees have received 
additional staff slots while the Science Committee has received 
no additional staff slots, even though we have had this 
significant addition of responsibilities here. Thirteen 
committees are requesting additional increase in staff slots 
than in their 108th authorization.
    I would also say that, at least from my standpoint, we do 
not request any additional funding. I am not looking for 
additional funding over our normal request for those additional 
slots. I think we can take care of it within the budget that we 
have, and I would make that request.
    Again, I would support our chairman in what, I am sure, 
will be a good suggestion to you.
    Do you want me to dance or do anything here while we are 
waiting?
    The Chairman. If you are like me and you dance, you will be 
thrown out of office.
    One question I have while we are waiting for Mr. Boehlert, 
because there are certain questions I will ask, obviously, of 
the chairman, about the two-thirds/one-third split of the 
resources. Do you have any comments on that?
    Mr. Gordon. You know, I do. The fact of the matter is, I 
would prefer the so-called one-third/one-third with control. We 
do not have that now. We get one-third of the staff; we get 
one-third of the funding, but we have to go through the 
committee for whatever we are going to do.
    The young man right here could not be any better to work 
with, but our chairman is going to be term-limited, in one of 
your bad decisions, in 2 years. You do not know what is going 
to happen with the next chairman. And I think that, as a 
policy, it would be better, like most committees, to have the 
one-third/one-third and have that control.
    But I am not here to specifically request that today. But 
since you asked, I would like to put a benchmark down because 
that may need to be done in the future. And if you choose to do 
it, I think it would be good, and we would be happy. And if you 
want to do it as a policy across the board, I think it would be 
the good and right thing also.
    The Chairman. Other questions of Mr. Gordon?
    The gentlewoman from California.
    Ms. Millender-McDonald. Thank you, Mr. Chairman. It is good 
to see you, and we certainly do not want you to dance. You are 
minus one limb there to some great degree or maybe a limited 
degree. We are happy to know you do work well with Mr. 
Boehlert. He is a fine man. And it is always good to know both 
the chairman and the ranking member are working in concert.
    You have already outlined that you do get a one-third/one-
third of the budget. It seems like it is a traditional thing 
that the ranking member does have to go to the chairman for the 
requests, but we want to make sure that the chairman is 
amenable.
    Mr. Gordon. He is certainly receptive. But sometimes, there 
can be a time frame. It would be more efficient, I think, if 
you did not have to wait. It would be more efficient across the 
board. I think it is a better policy. I think that anybody in 
the majority needs to think about how do they want to be 
treated if they are in the minority later. As well as when we 
are back in the majority, which will happen at some point----
    Ms. Millender-McDonald. That is right.
    Mr. Gordon. Are we acting responsibly as a minority 
ourselves?
    Ms. Millender-McDonald. Absolutely.
    Mr. Gordon. So that is the way we need to all look at these 
things.
    Ms. Millender-McDonald. Mr. Chairman, I see Mr. Boehlert 
has come in, so you may want to allow him to make his 
statement, and then I will go on with questions.
    The Chairman. I want to thank the chairman for arriving, 
and if you would like to make your statement, then we will go 
into questions.

   STATEMENT OF HON. SHERWOOD BOEHLERT, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Boehlert. Thank you, Mr. Chairman.
    I will try to be brief. I should say at the outset that Mr. 
Gordon and I have a completely cooperative relationship. We 
have had no disputes over any committee budget matter.
    I would add parenthetically that, since we developed it, 
Mr. Gordon has asked if they could have an additional staff 
person without any additional money, and I would support that 
request. And we are seeking no additional staff members for the 
majority side.
    I propose to maintain a two-thirds/one-third salary account 
split. That has been the committee's practice for a number of 
years. We did not have to be advised to do it. We did it. 
Others have followed. The minority has about one-third of the 
committee staff and uses its salary account as it sees fits.
    Mr. Chairman, the Science Committee is requesting a 2005 
budget allocation that would be about 6 percent higher than 
what we received for 2004 and then about a 5 percent increase 
over 2005 levels for 2006. There are a number of clear reasons 
why this request is justified in our mind.
    First, the committee intends to write a NASA 
reauthorization bill that will set the course for our Nation's 
space program for years to come. This activity will likely 
entail considerable travel to NASA's facilities to understand 
the impact of their proposed NASA budget. I should note, in 
this regard, the NASA budget request seems to envision facility 
closures and layoffs that make visiting NASA's facilities even 
more essential to our business.
    Also, these visits will enable our new Space Subcommittee 
chairman, Mr. Calvert, to become more fully acquainted with the 
full range of NASA facilities and activities.
    Second, the committee continues to upgrade its staff. This 
year, we are likely to have all our staff positions filled all 
year, and I would point out, it is highly specialized staff 
with people with Ph.Ds and graduate degrees, understandably so 
to deal with the very sophisticated subject matter that our 
committee is dealing with. The majority staff, in addition, has 
been attracting more Ph.Ds and attorneys and individuals who 
have had considerable private-sector experience, and we are 
continuing in that vein.
    Third, our copiers and computers are nearing the end of 
their useful lives. And as a prudent business decision, we want 
to replace some of that in this Congress in an orderly pattern.
    We certainly understand the funding constraints under which 
we will all be operating this year. We have worked hard to 
minimize our expenses, seeking out and negotiating good prices 
with contractors and suppliers, and seeking to travel at the 
lowest cost available. And, incidentally, we are not dispersing 
our subcommittees all over the country for hearings. We are 
very limited in our away-from-Washington hearings, because we 
know the need to conserve dollars. But we do need a budget 
increase to continue our oversight and legislative 
responsibilities.
    In short, I believe we have put forward a reasonable and 
well-documented request that will enable the Science Committee 
to continue to play an active role in a wide range of issues, 
and I look forward to any questions you may have.
    [The statement of Mr. Boehlert follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Chairman, and also the ranking 
member for being here.
    I have one question. In the budget, you mention 
establishing an offsite emergency office. Do you have a dollar 
figure on that yet? If you do not today, you can get back to 
us.
    Mr. Boehlert. I do not think we have an exact dollar 
figure, and we will get back to you with some details. But that 
was the recommendation from on high that we begin to consider 
the necessity for some time in the future of operating offsite.
    But we are doing some things like getting more lap-top 
computers that are very portable for our professional staff so 
they can get the input they need to advise us so that we can 
make the decisions we are required.
    The Chairman. Thank you.
    The gentlewoman.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    And again, it is good to see you, Mr. Chairman. I have 
welcomed the ranking member in, and he has expressed the 
cooperation that you two share on the committee, and that is 
good. I told him that I have known you for some time, and your 
dear wife, Marianne. It is good to know you two work well 
together.
    I certainly understand, being the Science Committee, that 
you need specialized staff and persons who are really vast in 
experience because of the nature of what you do. I have been 
told that you have increased or are requesting an increase of 
$30,000 for the first session of this 109th Congress for 
franking and then $35,000 for the second session of the 109th 
Congress, when, last year, you used only $3,000 in franking.
    Can you explain to me why you want such an increase?
    Mr. Boehlert. Yes. There are some things we have to do. We 
have to do a better job of outreach to advise various groups 
around the country of what we are doing and the importance of 
what we are doing.
    For example, the various programs under the Assistance to 
Firefighters. We have helped in the educational component of 
that obligation so that fire companies around the country can 
discover how valuable this program could be for their fire 
company, getting the necessary equipment they need under a 
peer-review, merit-based decisionmaking process completely 
divorced from the political process. But knowledge is power, 
and unless we empower these people with the knowledge about the 
existence of these program, how are they going to know?
    We have virtually had almost no franking program in the 
past, and so we are expanding that somewhat.
    Ms. Millender-McDonald. That is very true. And noting from 
the previous years, you have not had a large franking budget. 
The thing we want to make sure that we are clear on, that 
franking, that when you are anticipating going across the 
country with your various hearings, that you recognize that you 
do have to come under the certain franking rules in governing 
that type of mail and that it cannot be outside of the realm of 
working with your committee work and not anything else that 
could be even in the remote be seemingly campaign related.
    Mr. Boehlert. We would never ever entertain that.
    Ms. Millender-McDonald. I just thought I had to say that 
for the record.
    Mr. Gordon. If I may add. I have been reading about the 
controversy in another committee on this, and I think they are 
out of order. I have not seen that on this committee. If it did 
come up, I would let you know next year. But I think it was a 
bad precedent that was set elsewhere.
    Also, my chairman, I gave you a preliminary amen earlier. 
Now after hearing you, I want to concur that I amen.
    Let me point one more thing out. I have only been the 
ranking member for a year and a half, and our chairman is now 
starting his fifth year. But he inherited a committee from, and 
I will just say that Bob Walker and Jim Sensenbrenner, let me 
tell you, those boys took the fat out. So you can be well 
assured that there is not--when they get through with a 
committee, there is not much left to be done.
    So I really think that all of his requests are very 
reasonable, built on a base of a frugal start.
    Ms. Millender-McDonald. Thank you so much, Mr. Gordon.
    That is it for me, Mr. Chairman.
    The Chairman. We will note that we did get the two previous 
chairs, we got them from ink pens to typewriters by the time 
their chairmanships ended.
    We will turn to our resident science advisor, Mr. Ehlers 
from Michigan.
    Mr. Ehlers. Thank you, Mr. Chairman.
    Again, I would like to vouch for this committee in terms of 
its frugality, occasionally excessive frugality. But, 
certainly, the committee operates very well. It is a committee 
that is basically nonpartisan and certainly deserving of the 
support they have requested. I do commend the ranking member 
for going so far as to break his arm to get our sympathy during 
this crucial period of deciding their budget.
    On a more serious note, the chairman mentioned, or others 
have mentioned, that we have a very tight budget on the Science 
Committee. And, frankly, I think the committee should probably 
do more travel. We have a lot of national labs under the 
jurisdiction of the committee. We have many other scientific 
facilities that are, although not directly under the 
jurisdiction of the committee, are funded in large part by 
government grants, such as Woods Hole Oceanographic Institute, 
and so on. Plus you have the National Institute of Standards 
and Technologies labs, the NOAA labs, all the weather reporting 
and so forth.
    The chairman indicated the need for oversight. I concur 
heartily with that, and I think a good deal of that has to be 
on-site oversight. So I would encourage the committee to be 
generous with this request so that they can fulfill that.
    The Chairman. Mr. Brady, any questions?
    Mr. Brady. No.
    The Chairman. The gentlewoman from Michigan, Mrs. Miller.
    Mrs. Miller of Michigan. Thank you, Mr. Chairman. Perhaps, 
again, not a question but an observation. And I have to say I 
am particularly pleased that you have some money in your budget 
for travel for NASA. In particular, as the daughter of an 
aeronautical engineer, actually, that worked with Wernher Von 
Braun at Redstone, I think the space program is critically 
important. It is important not only to members of the 
Committee, but also to those who serve as ambassadors to do 
outreach to the entire population here of our Nation of how 
important a space program is in every way.
    There are so many positive spinoffs from that, whether it 
is technology or the fabrics of the clothes that we wear; there 
are so many things that have evolved out of our space program, 
and it is a very important thing.
    I know the President has advocated the Mars mission, and I 
am very interested to see how all that goes. But I am certain 
that when Columbus was addressing the king of Spain about 
taking a trip with three little boats across the big pond 
there, that they also looked at their committee structure and 
their budget and whether or not they could afford such a 
venture. But exploration is always so very, very necessary. So 
I certainly support your budget and look forward to your 
committee work this year as well.
    Mr. Boehlert. Thank you.
    The Chairman. We are thankful they did not do a cutback at 
that time in Italy.
    The gentlewoman from California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    First, let me apologize for being late. I was actually 
having a meeting on the space budget.
    First, I missed all of the testimony, but I did have a 
chance to review it. I was on the committee for 10 years, and I 
loved the Science Committee. I am sorry I had to leave it in 
order to join this committee. Traditionally, I think it has 
worked pretty well. Chairman Boehlert is exceedingly fair, and 
I think all the members of the committee recognize that.
    However, the default is the minority gets one-third of the 
budget, one-third of the slots and control over their one-
third, except as the chairman and ranking member may negotiate 
otherwise.
    So am I to understand that you are both satisfied with the 
budget that is being proposed here today?
    Mr. Boehlert. What I did offer was one amendment. Since our 
budget was prepared, Mr. Gordon approached me and asked if the 
minority might get an additional person, and I have okayed 
that, without any additional money. And he made that clear from 
the outset.
    The traditional way to go about it was, we will give you 
one more if we get one more. We do not need one more. We can 
always use one more, but I mean, the word parsimonious. So I 
support his request for a staff person without any additional 
dollars attached to that additional staff, a person to give him 
a little more flexibility.
    But I think we, and I will let Mr. Gordon speak for 
himself, but I think we have a very good relationship. We work 
well. And so many of the activities, as you know as a result of 
your experience on the committee, on many of the issues, you 
cannot tell the majority from the minority. They are working 
together in a common cause.
    Ms. Lofgren. Certainly, under your chairmanship, that is 
true. It was not always true with Mr. Walker.
    Mr. Boehlert. I can only speak for my chairmanship, but I 
think the staffs enjoy a good professional working partnership 
rather than just a relationship.
    Mr. Gordon. I concur. I elaborated even more than that 
earlier on the good relationship.
    Going to your one-third/one-third situation, we have the 
one-third/one-third but without the control. We have control on 
the salaries but not on the other. It works out well, and we 
have a very good relationship. I think sometimes, and it is 
certainly not due to the staff, sometimes it does slow the 
process down. I think a better procedure, like many of the 
committees do, would be to also have that control.
    As long as he does not get hit by a train, then we are 
fine. But I think that is a legitimate question for this 
committee to raise and whether there should be a policy across 
the board. But we are satisfied here.
    If I could make one additional comment concerning the 
additional person. As the chairman said, we are not asking for 
any additional salary. We have, I guess, something maybe of a 
unique situation in that we allow our ranking members to have a 
part-time person. And according to the rules here, a part-time 
person fills up a slot just like a full-time person. So we have 
gotten our own selves disadvantaged, but we felt it was 
necessary if a ranking member was going to spend the time and 
effort to be that ranking member and to deal with the 
responsibilities, they should have some reward. And part of 
that reward is being able to offset the cost of an employee 
that can do a little more work there. So we wound up with these 
four, or actually five, part-time folks. That really cuts into 
us, because they count just like a full-time person. That and 
the additional responsibilities is the basis of this problem.
    Ms. Lofgren. I see. A parochial question. I talked to the 
chairman, as well as you, Mr. Gordon, about a long-wished-for 
trip to NASA Ames. Do you have enough money in your travel 
budget to visit NASA Ames?
    Mr. Boehlert. We do envision that, particularly under 
Chairman Calvert's subcommittee chairmanship. He is new on the 
job, and he has indicated a desire and a willingness. We all 
have the desire to travel more and get out to these sites, but 
sometimes it just is not compatible with our schedule.
    So we have the money built in, and we know we are going to 
return to flight, hopefully in mid-May, and I would envision a 
committee trip for that. But more importantly, the subcommittee 
and Mr. Gordon and I have discussed that, that we will be 
traveling more.
    Ms. Lofgren. They built the fastest supercomputer in the 
world in 6 months for $4 million. It took the Japanese years 
and hundreds of millions. I would love to have you see it.
    Mr. Gordon. Ames also, as you well know, is under the ax 
for the most significant reductions under this new realignment, 
and I think that, one, should be reviewed; and secondly, with 
the good work you do out there, there needs to be thought, if 
that happens, to what additional responsibilities can Ames pick 
up.
    Ms. Lofgren. Thank you very much.
    The Chairman. Does the gentlewoman from California have 
another question?
    Ms. Millender-McDonald. Yes, thank you. I just wanted to 
ask the chairman. You spoke about outreach, going to fire 
services, fire stations for more, I guess, hearings? Or did you 
say something about fire stations?
    Mr. Boehlert. No, no, no, the answer was in response to the 
use of the frank and where we are having more mailings of that 
nature.
    Ms. Millender-McDonald. No, no, but in your statement, as 
you read, I thought you mentioned that the Science Committee 
would be going to more areas throughout the country and that 
you will be engaging in some perhaps nontraditional groups that 
you have not engaged with in terms of hearings. I thought I 
heard that.
    Mr. Boehlert. We are always looking to explore that. For 
example, we did have a hearing on the very programs we are 
discussing, in the fire services' program. And the 
administrator, David Paulson, was invited to testify, and we 
had bipartisan members of the committee. And that was one of 
the best attended hearings I have ever had outside of 
Washington, simply because there is a great deal of interest in 
it.
    Not everybody can go out to the airport to fly to 
Washington to participate, so that is the type of thing we are 
trying to do more of. But I can envision the necessity for 
traveling to some of the NASA centers, because NASA has 
announced their restructuring of their workforce, and there are 
thousands of people whose lives and futures are going to be on 
the line.
    So we want to make sure our committee is in the position to 
provide the best possible advice to our colleagues on the 
committee and the Congress as to how we should proceed with 
that. So unless we get to Ames and Glen and some of these other 
places, we will not be in that position.
    Ms. Millender-McDonald. I must say, that is very critical.
    Thank you, Mr. Chairman.
    The Chairman. I thank both the chairman and the ranking 
member for coming here today. Thank you very much.
    Mr. Boehlert. Thank you.
    Mr. Gordon. Thank you.
    The Chairman. Veterans is next. What I will do is, since 
Veterans is not here, if the gentlewoman would want to, we can 
quickly present House Administration, and we can present that 
until the Veterans' Committee comes.

 STATEMENT OF HON. ROBERT W. NEY, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    The Chairman. The ranking member and I have jointly 
introduced the budget request for House Administration 
Committee as H. Res. 159, and as chairman, I am happy to work 
with our ranking member, Ms. Millender-McDonald and her staff 
to introduce a budget that we can both support. I think it is 
an honest budget and one that is necessary for us to continue 
the necessary and important work of running, maintaining and 
securing the U.S. House of Representatives for Members, their 
staff and employees of the House.
    House Administration's request totals $10,101,152 for the 
109th Congress. This represents an 18.46 percent increase over 
the $8,527,057 figure authorized for the 108th Congress. This 
breaks down to $4,822,199 and $5,278,953 for 2005 and 2006 
respectively.
    The committee also requests an increase in our staff 
ceiling from 48 to 54. Should these additional slots be 
approved, of course they would be allocated on a two-thirds/
one-third basis. We need the additional slots to bolster the 
ranks of our current staff, who are increasingly dealing with 
election administration and campaign finance issues, areas 
within our committee's jurisdiction, which have seen an 
explosion of activities. With the announcement of the 
committee's hearing schedule, including field hearings, 
additional staff are needed to maintain our oversight 
functions.
    Additionally, our committee is looking to improve its 
oversight of House security and technology issues. Additional, 
staff and funds will assist us in strongly addressing these 
responsibilities.
    As with all committee budgets, our requested increase is 
needed primarily to support personnel costs, including costs 
associated with comparability pay increases for staff. Many 
committees have already testified to this effect. As the gap 
grows between private-sector salaries and government salaries, 
it becomes difficult for committees to maintain and acquire 
qualified staff. If you do not have qualified staff, you cannot 
communicate with constituencies across the country.
    Without objection, I will submit the rest for the record 
because our two Members have shown for their testimony. But 
again, we continue the two-thirds/one-third allocation of our 
resources, as was established by Bill Thomas when he was 
chairman of the committee, and I am pleased to continue that 
tradition.
    Again, I want to thank the gentlewoman from California, our 
ranking member, and the other Members and the staff for helping 
us to crunch the numbers and produce this budget.
    [The statement of Mr. Ney follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
STATEMENT OF HON. JUANITA MILLENDER-McDONALD, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Ms. Millender-McDonald. Absolutely.
    Do you want me to make my statement or just go with them?
    Okay, make my statement.
    Thank you very much, Mr. Chairman, and I want to recognize 
Chairman Ney and Speaker Hastert for their continued leadership 
and consistent commitment to the two-thirds/one-third funding 
principle for the minority. Chairman Ney has been a beacon for 
all the committee chairs, and he has amply demonstrated that 
allowing minority control over its fair share of committee 
funding, promoting comity and communication between the 
majority and the minority does not diminish any Chairman's 
control over the committee he leads, which is really laudable.
    Chairman Ney's open-door policy with this ranking member 
and with my predecessors has promoted a broad cooperative 
working relationship and has eliminated the suspicion which 
arises when open communications are lacking.
    So we thank you, Mr. Chairman.
    With respect to the committee's funding request, let me 
say, right up, that I am rather fiscally conservative. It is 
the people's money, and we ought to spend only what we need to 
get the job done. When Leader Pelosi assigned me to the task of 
ranking member, I gave her assurances that I would do a top-to-
bottom review of all House support services, and I promised 
that the House would do everything reasonable and necessary to 
ensure the security of Members, staff and visiting 
constituents. This will require additional committee staff 
resources, and I support the Chairman's request to Speaker 
Hastert to raise the staff ceiling for the committee.
    In addition to the security concerns, I think the committee 
will need to engage short-term expertise to review our internal 
practices and procedures and to ensure that tax dollars are 
being efficiently spent on internal operations throughout the 
House. Once these reviews are completed, I would anticipate the 
need for this committee to make the changes necessary to 
streamline House operations and to eliminate waste.
    Mr. Chairman, the most recent Federal election clearly 
demonstrated the need for aggressive oversight of the Federal 
Election Administration throughout the country by this 
committee. We must go to the people, gather the information and 
make adjustments to HAVA wherever we find it necessary. We will 
conduct the first of what I hope to be many field hearings in 
Columbus, Ohio, next week. In order to conduct this type of 
oversight, we will need additional funding for travel, and I 
hope we can obtain that.
    Mr. Chairman, I consider the increase, which we have 
jointly requested, to be reasonable in light of the security 
administrative and oversight challenges ahead. I would 
characterize the increase as an investment in House efficiency 
as well as the maintenance of our democratic process. I would 
expect it to result in savings to the American taxpayer and a 
fair and more robust democracy in the long run.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentlewoman.
    And now we will move on to chairman of the Veterans 
Committee, Mr. Buyer from Indiana.

  STATEMENT OF HON. STEVE BUYER, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF INDIANA

    Mr. Buyer. Thank you, Mr. Chairman.
    We appreciate the opportunity to appear before this 
committee to present a budget submission for the 109th Congress 
on behalf of the Veterans' Affairs full committee. My friend, 
ranking member and Marine, Lane Evans, joins me here today in 
support of the committee's request.
    As you know, we have oversight over the Department of 
Veterans Affairs. The VA is the second largest Federal agency, 
employing over 200,000 people, with budget authority exceeding 
$69 billion. The VA Committee's total budget request for the 
109th Congress of $7.9 million will provide us with the funds 
needed to hire and retain the finest staff. It is also my 
understanding this request may represent the largest requested 
increase this year, but I also believe it is fair, and in fact, 
it is justified.
    Used efficiently and with careful planning, this budget 
will allow us to provide the highest quality oversight to 
ensure that veterans who accessed the VA yesterday and those 
coming back today have the highest quality of care.
    As I stated in my written testimony and upon assuming the 
chairmanship this January, I asked my staff director to provide 
a complete accounting of all funds, equipment and personnel. I 
asked him to discuss the needs also with the minority, with 
Lane Evans' staff director, as well. Administratively, we split 
our salary allotment two-thirds/one-third.
    It is my assessment that the committee badly needs to hire 
additional staff to meet the needs of our committee. The 
committee has added a fourth subcommittee to better meet the 
needs of our veterans population. Therefore, additional staff 
space, especially for the Democrats, is needed as they 
currently share a two-room suite, and they should be able to 
access additional space, preferably within the Canon Office 
Building. It would be welcomed.
    During this time of war, the committee must provide proper 
oversight to ensure the men and women transitioning into the VA 
health care system are able to do so quickly and effectively. 
We need to make sure those already in the system are provided 
for as well. The committee has identified several areas of 
concern, and the retention of an expert consultant could 
facilitate our efforts in several ways: Number one, to deliver 
the seamless transition between DOD and VA health care system; 
number two, to ensure that benefits, especially those which 
seek to help transition our veterans into the work force, are 
adequate; three, the VA has approximately $3 billion in 
uncollected debt. Increasing collections is a priority of the 
committee. An outside consultant will facilitate making 
significant inroads on this front. And, finally, we will 
continue to address the needs of the electronic medical records 
and information technology at the VA. We hope you will look 
favorably at this increase that we have included in this 
request to fund such expertise.
    With regard to travel, the funds we request will enable us 
to travel to many of the VA hospitals, outpatient clinics, 
nursing homes and national cemeteries within the VA system that 
are not only within the continental United States but also 
worldwide.
    In recent years, the VA Committee has expended an 
insignificant amount on staff and Member travel to perform 
oversight. It is more important than ever for us to be out and 
learning firsthand the needs and successes of the largest 
health care delivery system in the government and to ensure 
that the veterans are receiving the assistance they need.
    With regard to equipment, equal to the need for additional 
staff is the need for equipment. Due to past funding, this 
committee was not able to make equipment purchases in the 108th 
Congress and has not been able to maintain the one-third 
hardware inventory schedule replacement plan.
    The staff is currently using 15 Pentium III computers and 
seven Pentium II laptops that cannot run the most current House 
approved software system. They are well below the House minimum 
support standards. Our servers are in dire need of replacement 
and are between 3 and 7 years old. In the 108th Congress, some 
staff had Blackberrys that had to be returned for budgetary 
reasons.
    So we have some major purchases that must happen over the 
next 2 years, and some of them are immediate. They include a 
new copier for the minority, replacement of several computers 
and computer upgrades and computer software. Most all are 
needed to meet House minimum technical standards.
    Our Web site, which has won awards, also needs to be 
updated. We currently provide access around the world via audio 
feed through the Web site. We would like to offer video 
broadcasting, too, if the funds were available. We also need 
additional funds to ensure that we have an emergency 
contingency plan for equipment backup and offsite capability 
should we be unable to access our office.
    In closing, we face complex and unique challenges to ensure 
that the VA continues and excels in completing its mission. 
Again, I understand this request may be one of the largest of 
the committees, but I can assure you we will use it efficiently 
and wisely.
    In the recent past, field hearings have been canceled, 
equipment has been taken back and staff has not been hired due 
to lack of funding. Mr. Chairman and ranking member, we will 
work effectively to offer the finest legislative initiatives to 
maintain and improve the lives of our veterans and their 
dependents. We believe the increase we are asking for is 
justified and needed.
    And, Mr. Chairman, I will be happy to answer any questions 
you may have.
    [The statement of Mr. Buyer follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Well, I thank the chairman for his testimony.
    And we will now go on to our ranking member, Mr. Lane Evans 
of Illinois.

STATEMENT OF HON. LANE EVANS, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF ILLINOIS

    Mr. Evans. Thank you, Mr. Chairman, I appreciate your 
giving us the time this afternoon to talk to you about these 
important issues. I think the chairman, though, has outlined 
them, not only recognizing the challenges but the 
recommendations that can really mean something to our ability 
as a committee to perform as well as we can.
    The important issue of space is one that has been most 
troubling. We have had such an overlapping situation that it 
would probably hurt us to continue at this present level. We do 
not have the ability to go out and do oversight or to go out 
and visit these facilities across the country.
    I think that we can work together on this committee. We 
have that hallmark, but we do have to have a decent number of 
staff. It has curtailed at least some of us from getting around 
as much as we used to. And it is too bad, because this is one 
institution where it is very necessary to keep in touch with 
the people who are affected by it.
    So that is why we come here today, to ask for your support 
in these specific areas and to praise the chairman for the work 
he has done.
    So thank you, Mr. Chairman, and I yield back.
    [The statement of Mr. Evans follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Well, I thank both the chair and the ranking 
member. It is a great job you both do here in the Congress for, 
obviously, a real important issue, our veterans. We would not 
be here debating and able to debate if it was not for the 
veterans. I do not have to tell you that. I know you both are 
good patriots and have watched out for the veterans' needs, and 
we give you a lot of credit for that.
    On the space issue, we have been hearing this over and 
over, the Architect of the Capitol, I think in March of this 
year, will have sort of a master plan they will unveil. 
Somewhere along the line, we have to get more space. It is 
endemic throughout our system. These buildings were not 
designed for the amount of people that we have.
    With that, I will just see if there are any questions, 
because of the votes.
    Ms. Millender-McDonald. Mr. Chairman, thank you so much, 
and thanks to the chairman and the ranking member of Veterans 
Affairs. It is very clear that you need to update some 
equipment, that you are far behind in that as well as maybe 
some of the other necessary components of doing a more 
efficient job in this committee.
    Mr. Chairman, I do have some glaring requests by your 
committee with reference to the frank mail allocation. You are 
requesting one of the largest frank mail allocations in this 
committee, with a $50,000 projection of this. And I would like 
to call your attention to the 108th Congress where you spent 
only $2,037.39 for the first session and only $1,697.77 during 
the second session.
    This was compared to the request that you had and was 
granted for frank mail of $10,000. This represents an increase 
of over 2,600 percent. Can you explain to the committee why you 
are asking for such a considerable increase in the frank mail?
    Mr. Buyer. Two comments. First, with regard to the 
Chairman's comment regarding spacing, there is, right across 
from the ranking member's office, the Joint Economic Committee, 
where there is space. This staff has to grow in order to meet 
these present needs. There is room, I want you to take note. 
They can move up to three of their staff there. And if you were 
to go and see the room in which they have to operate in, you 
would never want anybody to be treated like that. So I just 
wanted to share with you that there is some space and to please 
make note of that. I would endorse their gaining access to that 
Joint Economic Committee room that is not being used.
    With regard to your question on frank mail, I was not the 
chairman, ma'am, in the last Congress. I am the new chairman 
here in January, and we are trying to assess how we can 
effectively communicate with veterans in the country beyond the 
veterans' service organizations.
    That is what people seem to sort of rely on. But we do not 
communicate effectively with all of the county veterans service 
officers in the entire country and territories, and I want to 
reach out and I want to touch them. And I think that is 
extremely important to do that, and that is the purpose of the 
request, through the franking budget.
    Ms. Millender-McDonald. Now, while that is absolutely 
important for you to do that, because our veterans really do 
need to hear from us here, we want you to recognize that there 
are limitations on how and what you can do with your outreach 
beyond the scope of your own district with reference to franked 
mail.
    And we must ask that you abide by the 90-day cutoff before 
an election in sending franked mail out, and that you do get a 
clearance of the franked mail from Franking before it is done. 
That is something that we now find a committee has been in 
violation of. We are now watching very closely the requests for 
franked mail from each committee.
    We are looking at any committee that goes beyond the 
$25,000, which should be kind of the standard for that, but 
with your saying 50,000 per session, it really did raise the 
bar quite a bit--and eyebrows. But I just want you to know that 
we want to stay within the privileges of those Members, 
chairmen and ranking members, but we want also to preserve the 
integrity of this House and the taxpayers' dollars.
    Mr. Buyer. Thank you.
    The Chairman. If I could interrupt to clear up just for the 
record, but the 90-day cutoff does not apply, under the House 
rule, to committees. But Members' offices do have a 90-day 
cutoff.
    I am sorry. Go ahead.
    Mr. Buyer. Ma'am, I think if you were to look at my own 
history, in my seventh term here in Congress, I am probably in 
the lower 20 percent of Members who access and utilize franked 
mail. So I share with you your concern.
    What I am hoping to do here is how we effectively 
communicate with the county veterans service officers. These 
are the individuals who really are very, very active, hands-on 
with our veterans in our communities. They are the ones who the 
vets first go to, and that is who we want to reach out and 
touch. That was the purpose of the request.
    Ms. Millender-McDonald. I really do appreciate the 
gentleman explaining that and expressing your thoughts about 
that. And while the Chairman has appropriately outlined what is 
and what is not with reference to Chairs' positions as opposed 
to Members' positions, we are all spending taxpayer dollars to 
do this, and I think we should very much recognize that and 
appropriately respond to the limitations vis-a-vis whether it 
is Member or committee Chair with reference to the taxpayers' 
dollars in mailing this mail out beyond the scope of your 
district.
    And with the committee, of course you want to do outreach 
beyond that across the country. But that mail should go in 
concert with that outreach hearing that you are anticipating 
doing.
    Mr. Buyer. Ma'am, I am cognizant of everything that you 
have just said. And Mr. Evans and I work cooperatively 
together. The Veterans Affairs Committee is supposed to be the 
most bipartisan committee in Congress, and Lane and I are--not 
only are we comrades in arms, we are also friends, and we seek 
to work cooperatively, even in how we communicate with our 
county veterans service officers. And in uniform, no one ever 
asked Lane and I whether we are Republicans or Democrats. So as 
we serve our veteran populations, it should be done in the same 
spirit.
    Ms. Millender-McDonald. I thank you so much because, as 
veterans, no one should ever ask whether you are Republicans or 
Democrats. And Mr. Evans has stated to me that he appreciates 
the support that you give him and the continuous camaraderie 
between the two of you. So we thank you so much.
    I suppose the $90,000 per session for printing that you 
have also requested is in concert with your outreach to the--
across the country; is that correct?
    Mr. Buyer. Yes, ma'am.
    Ms. Millender-McDonald. Thank you so much, Mr. Chairman.
    The Chairman. I also would note we have a Franking 
Commission at House Administration, and they will sit down and 
tell you the current rules, work with your staff. If rules 
change in this process this year, they will review those, too, 
with you. And so the Franking Commission will be essential to 
sit down and be able to tell you the current House rules.
    Does the gentlelady have a question? And the second bell 
has rung. I just want to say thank you for your time. I also 
want to note, you are at a turning point, I think, in the 
committee--turning point in equipment, turning point in staff, 
horrifically lean, and some decisions have to be made so you 
can continue to do your job. And I know that.
    Mr. Buyer. My only plea is, please place us in a plan with 
a time line that is realistic, whereby we can modernize and 
have a realistic replacement plan with regard to our equipment. 
Thank you.
    The Chairman. Thank you.
    Ms. Millender-McDonald. And come to my district first with 
your outreach.
    The Chairman. The committee will be in recess until 3:00 or 
around--the last vote, I think it is around 3:00. Thank you.
    [Recess.]
    The Chairman. The meeting will come to order. We will start 
with Homeland Security, with our chairman, the gentleman from 
California, Mr. Cox, who will begin.

STATEMENT OF HON. CHRISTOPHER COX, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Cox. Thank you, Chairman Ney, Ranking Member Ms. 
Millender-McDonald. Thank you for this opportunity to testify 
on behalf of the Committee on Homeland Security.
    We are a new standing committee of the House, and it has 
been almost 60 years since the House has had to consider what 
it takes to start from scratch a new standing committee. The 
last time we did this was during the postwar consolidation of 
the Nation's military establishment, 1947. That culminated in 
the creation of the Department of Defense.
    This year, Congress acted to respond to a no less momentous 
change in the organization of the executive branch by creating 
a permanent standing Committee on Homeland Security to address 
this vital national security issue and to oversee the new 
Department of Homeland Security.
    My distinguished ranking member, Bennie Thompson, and I 
cosponsored H. Res. 104, which is before you, to cover expenses 
for the Homeland Security Committee in the 109th Congress. The 
funding resolution seeks $7.4 million for 2005 and 8.3 for 
2006. These amounts are necessary to pay salaries for a total 
of 80 staff, majority and minority combined, and operating 
expenses for the full committee and its five subcommittees.
    To put our request into perspective, the amount we are 
seeking would put the committee at the bottom of the top one-
third of all of the committees in the House. This reflects 
Representative Thompson's and my own understanding as to what 
it will take not only to get this new committee up and running, 
but to discharge its significant new responsibilities.
    In that connection, it is important to note that the Select 
Committee on Homeland Security that I chaired in the last 
Congress wasn't funded under the general budget resolution, it 
was funded under its own separate resolution. This year's 
funding resolution, therefore, will, for the first time, be 
setting a baseline for this new committee. It has not been done 
before.
    This new committee is very different from the select 
committee; it has significantly expanded responsibilities and 
jurisdiction. So I think it will be fair to compare future 
resolutions to whatever you do this year; it will not be fair 
to compare what we do this year to anything that has gone 
before. Certainly, we can't literally compare it with the 
funding resolution from the 108th Congress because even the 
select committee wasn't included in it.
    In considering our request for funding for the 109th 
Congress, the committee carefully took into account what would 
be required to meet our legislative and oversight 
responsibilities as specifically defined in our Rule 10 
jurisdictional statement. Our detailed budget submission 
explains that fully 89 percent of the committee's budget will 
be dedicated to expert staff and only 11 percent of the 
requested budget for operational expenses.
    Let me also mention the remarkable breadth of the 
committee's jurisdiction, which is a far cry from what we had 
as a select committee in the last Congress. The Committee on 
Homeland Security has jurisdiction over all homeland security 
policy, government-wide, in every department of the executive 
branch as well as, quote, ``on a continuing basis all 
government activities relating to homeland security including 
the interaction of all departments and agencies within the 
Department of Homeland Security.'' So setting the baseline for 
the Homeland Security Committee in its first year is precedent-
setting, and it is a serious responsibility.
    As a committee, we won't be able to meet our jurisdictional 
responsibilities without not only sufficient staff, but also 
the necessary expertise. And I think in the formal statement 
Ranking Member Thompson addressed that. He may address it 
orally later today.
    Putting our work into its broader context, we would all 
acknowledge that the Department of Homeland Security has made 
significant progress since Congress passed the Homeland 
Security Act of 2002. But terrorist networks still pose a 
serious challenge to our national security interests, and 
perhaps in the long term they will pose an even greater threat 
than they did on September 11, 2001. The terrorist threat and, 
in particular, the combination of evolving technology that will 
fall into the hands of terrorist groups in the future is with 
us for the foreseeable future. And to address it, the 
Department of Homeland Security is here to stay.
    Ranking Member Thompson and I, along with the 32 other 
members of the Homeland Security Committee, are determined to 
help the Department of Homeland Security achieve its mission as 
mandated in the Homeland Security Act. We will consider 
legislation and conduct vigorous oversight through each of the 
committee's five subcommittees to ensure that the Department 
remains focused on its overarching priority of preventing 
terrorist attacks here in the United States. We will ensure 
that the Department allocates its terrorism grant assistance, 
like its overall budget, in a manner that reflects the most 
significant terrorism-related risks that we face.
    Given the scope of the committee's responsibilities, it is 
critical that we vest in the Committee on Homeland Security the 
experts and the tools necessary to guide positive change in the 
Department and throughout the executive branch. I am confident 
that the budget request before you, including the committee 
staff, majority and minority combined, of 80 persons will be a 
prudent and forward-looking congressional investment.
    Thank you again, Chairman Ney, Ranking Member Millender-
McDonald, and other members of the committee for this 
opportunity to testify. I will be happy to answer any questions 
you might have.
    [The statement of Mr. Cox follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you, Mr. Chairman, for being here 
today, and the committee that you have served.
    I want to ask one question about, we kind of noted in the 
submission, you plan to stop using consultants. I am not saying 
that is bad; we use consultants. But a lot of committees use 
consultants. Did you find it in particular due to the nature of 
homeland security that consultants aren't as valuable to you? I 
was just curious on that.
    Mr. Cox. I just inquired of staff, what were the concerns 
there. We intend to hire consultants, and that is included in 
the budget. But as you note, the authority to do so is not as 
extensive as it was for the Select Committee on Homeland 
Security. Two things obtained: First, because we are a 
permanent committee, we don't need to outsource so much since 
we are not in a big hurry. The select committee was time 
limited and had only one Congress in which to operate.
    The second is that there are major conflicts of interest 
that arise with outside consultants and the growing homeland 
security consultancy area. These are precisely the kinds of 
questions that come before the Congress, and so making a 
general habit of staffing that way is not the course to be 
preferred.
    The Chairman. Each committee, I was just curious because 
each committee does it separately. I think by nature homeland 
security and intel would be a whole different type of animal 
when it comes to consultants and things, just due to the nature 
of the sensitivity, too.
    So, questions?
    Ms. Millender-McDonald. Thank you, Mr. Chairman. And it is 
good to see you, my hometown chairman and friend and also the 
ranking member. And congratulations to him again. I have not 
had the pleasure to extend that.
    Mr. Chairman, as you spoke, I was very--it is very 
interesting the task that you have, both of you, on homeland 
security. This has become now a permanent committee, and you 
are right, you are trying to establish this baseline. And with 
establishing the baseline of course we see the movements of 
dollars with reference to the franked mail, and I will get to 
that in just a moment.
    But when we speak about the consultants--and I know that, 
as the Chairman has said, you have to be very careful because 
these folks have to be scrutinized quite well. But in carrying 
out the request of my leader, House Leader Pelosi, we want to 
make sure that, and encourage chairmen and ranking members to 
ensure that, there is diversity when we are looking at 
contractual agreements among folks or getting consultants. 
Because I think the American people want to see a 
representation of all the people in the People's House.
    In your franking, you requested in the 108th Congress 
$25,000, but you spent a little more than--you spent only $909 
in the first session and $783 in the second session. And yet in 
the 109th Congress you are again asking for the $25,000.
    May I ask you why the increase or what your intentions are 
with reference to $25,000 for franking mail?
    Mr. Cox. My understanding is consistent with yours about 
the underutilization of that budget in the last 2 years. The 
committee utilized our franking budget as a select committee 
for official committee business such as letters to and from the 
Department, answering letters addressed to the committee, 
witness request letters, and so on. We did not use the franking 
for mass mailings to any significant extent.
    But the purpose of the budget would be to include the 
issuance of committee reports, and I wouldn't see any purpose 
beyond that.
    Ms. Millender-McDonald. So, in essence, while you are 
requesting the $25,000, under the franking expenditures, it 
would really be used for reports and other things endemic to 
getting the information out to this broad spectrum of folks you 
want to get that out to; and it has never been used for mass 
mailing in the first place?
    Mr. Cox. That is correct.
    Ms. Millender-McDonald. Okay. Fine.
    Mr. Chairman, that is all.
    The Chairman. Thank you. Mr. Thompson has arrived. So since 
the gentleman from Mississippi is here, we will go ahead and 
hear from the ranking member. Thank you.

   STATEMENT OF HON. BENNIE G. THOMPSON, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF MISSISSIPPI

    Mr. Thompson. Thank you very much, Mr. Chairman, ranking 
member, other members of the committee.
    As you have already heard from the chairman, there is 
pretty much agreement on this budget. Actually, there is 
complete agreement on the budget, so--but I would like to get 
some points into the record relative to the budget.
    As the ranking member of the now permanent Committee on 
Homeland Security, I offer my full support of the budget 
resolution offered by my colleague, Chairman Cox, and myself. 
This resolution is bipartisan in nature and requests the 
resources needed to ensure that the new committee can operate 
effectively and to its fullest capacity.
    Our committee faces the daunting challenge of overseeing 
the Nation's overall homeland security policy, including the 
various activities of the Department of Homeland Security. As 
an agency formed from 22 different agencies, the Department's 
efforts cover many distinct complex issues, including border 
and port security, customs, cybersecurity, and critical 
infrastructure protection, intelligence analysis of homeland 
security threats, domestic preparedness and first responders, 
research and development, transportation security and emerging 
threats such as agroterrorism, bioterrorism, and nuclear 
proliferation. In order to conduct effective oversight, our 
committee must be able to draw an experienced staff that can 
properly evaluate the Department's efforts in all of these 
areas.
    Such a staff cannot be drawn from recent graduates, but 
must be made up of individuals who are experienced in their 
fields. To recruit, hire, and retain such experts requires 
competitive salaries and incentives. Simply stated, we need the 
best and the brightest to ensure that the Department of 
Homeland Security, which continues to lag in its efforts to 
protect our Nation, is doing all that it should be doing. 
Chairman Cox and I agree on this, and are committed to hiring 
the best experts we can for our respective sides.
    One other issue that I would like to raise has to do with 
the committee's request regarding travel. I have spoken to Mr. 
Cox about this. We both agree that if our committee is to be 
effective, it must go into the communities across America with 
the Department tasking we are protecting. We cannot do 
effective oversight of the Department if we cannot evaluate for 
ourselves what is being done in towns, cities, and States 
across America.
    We both have agreed that to further this effort we need to 
conduct extensive field hearings. Our first will be next week 
in Vicksburg, Mississippi. I thank Chairman Cox for agreeing to 
come to my district to hear from those most affected and 
involved in the government's effort to protect our ports and 
waterways. Of course, to conduct such field hearings we would 
need the staff we requested. I hope you take this into 
consideration.
    I thank all the committee members for their time, and I am 
happy to respond to any questions you might have.
    [The statement of Mr. Thompson follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I thank the gentleman for his testimony.
    Questions?
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    Before we get to our other Member, Mr. Thompson, you have 
certainly eloquently stated that this is a daunting task that 
you have, working in perhaps the most challenging committee 
outside of some of the others whom we have talked about today 
and with today.
    We wanted--and we do recognize that you need expertise. You 
do need folks not just coming out with an undergrad in June and 
trying to hit the ground running in this committee. Are you 
satisfied, though, with the staff that you get and request from 
the chairman, and have you been able to work cooperatively with 
him on that?
    Mr. Thompson. Absolutely. And as I said, this budget we 
agree with. If we receive the resources necessary, we can find 
the people. But in order to find them, we have to negotiate 
competitive salaries, and if we have the resources, we can do 
that.
    Ms. Millender-McDonald. You do recognize the two-thirds/
one-third formula that we have here in House Administration 
with reference to the Chair and the ranking member. Are you 
satisfied with the two-thirds/one-third and control--control 
not necessarily coming from the ranking member, of course, but 
that when you do request equipment or whatever from the 
chairman, he is amenable to that request?
    Mr. Thompson. We have talked about it, and I am in 
agreement.
    Ms. Millender-McDonald. Very well.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    The gentlelady from California.
    Ms. Lofgren. Thank you, Mr. Chairman.
    I was a member of the Select Committee on Homeland Security 
last Congress and am a member of the standing committee this 
Congress, and I can attest that the scope of the committee's 
work is very broad and the need for expertise is very serious. 
And so I think the request is a sound one. I do have a couple 
of questions about travel and space.
    I very much agree--I have been in Congress now 10 years and 
I have never been on a CODEL. I am not a big traveler. But I do 
believe this committee really has to get out in the country and 
look at things and to examine them, and I plan to do that with 
the chairman and ranking member.
    And so the question is, is the travel budget that you have 
presented to us adequate to make sure that all the members who 
should be there are out at the borders inspecting what is going 
on, and all the other sites that we need to go to?
    I missed the last 2 hours of our retreat because I had a 
meeting here in Washington, so maybe that was discussed. I know 
we were going to discuss it.
    Mr. Cox. Well, what we did discuss at the tail end of our 
bipartisan retreat is our ambition to visit, as Mr. Thompson 
said, many parts of the country, as many as our congressional 
schedules allow. I don't think our travel budget that we have 
asked for here will be a constraint. It is, happily, a lot less 
expensive to travel around the United States than it is to take 
congressional delegations to foreign countries. And a good deal 
of our travel will be focused on the United States of America 
because that is what homeland security is all about.
    Ms. Lofgren. Right. I also had a request about space.
    We are a new committee, and my sense is that the staffs are 
kind of jammed in places that are not really optimal in terms 
of staff space. Is that your sense as well? And space has been 
a problem for a lot of committees, but I think it is 
particularly a problem for this one since we are new. And have 
you given some thought to what our staff space needs are as we 
address the space needs of Congress overall?
    Mr. Cox. Indeed. The Committee on Homeland Security has 
inherited the space that was made available on a temporary 
basis for the Select Committee on Homeland Security by the 
Librarian of Congress in the Adams Building, one of three 
Library of Congress buildings here in the Capitol complex. That 
clearly will be inadequate for a permanent Committee on 
Homeland Security inasmuch as, for example, it doesn't even 
include a hearing room or contiguous space for majority and 
minority staff.
    What we are expecting will improve the environment in which 
we are operating is the completion of the Capitol Visitor's 
Center and the addition of those square feet to what we have to 
work with. We don't know necessarily that our committee would 
acquire any of that space, but the opportunities that would be 
created to move things around and provide something from 
nothing, which is really what we are looking at here as a 
brand-new committee, and it has got to find significant square 
feet for a permanent hearing room and space--the opportunities 
would thereby be created. We are expectant this will solve our 
problem, and I am working very closely with the Speaker on 
this.
    I don't think we have any realistic expectation that we can 
get out of the box that we are in until, at the earliest, next 
year because that is the earliest that portions of the Capitol 
Visitor's Center that will come on line will be next year.
    Ms. Lofgren. Now, as for a hearing room, it is not a huge 
committee, but we end up jammed in these horrible little rooms 
that there is really not enough room for the committee. And I 
am wondering, have we received any commitment?
    You know, I think about 10 years ago there was a Merchant 
Marine and Fisheries Committee. Who got their hearing room? 
Maybe we could claim that.
    Mr. Cox. We have, in fact, used that on occasion. That is 
one of the rooms that we have been using. It has been a movable 
feast; and it is one of the greatest discomforts that we have 
as a new committee, that we don't have our own space.
    Ms. Lofgren. But we expect we might get that when the 
visitor's center opens?
    Mr. Cox. I think that that is--you know, if you are looking 
for a way to get to break the logjam--and right now there just 
isn't a whole lot of space. We are not going to build a new 
building, so we have got to move things around and so on. But 
the opening up of that new space, I think will change the 
equation dramatically.
    Ms. Lofgren. Finally, I believe Mr. Thompson was going to 
say----
    Mr. Thompson. A couple points.
    One of the challenges we have is, as you know, one of our 
members requires an ADA-compatible hearing room. We have made 
that request of the chairman, and he has agreed, within his 
authority, to make sure that whatever hearing room we have is 
compatible with the law. And when we were a select, we had some 
problems, and we are trying to work through that also.
    Ms. Lofgren. That is a good point. The final question has 
to do with secure rooms.
    I am ranking on the Intelligence Subcommittee, and we are 
having our first classified briefing tomorrow morning. But 
there is a real shortage of secure space to have those 
briefings in the Capitol. I am wondering whether you know--
maybe the chairman knows--if that is going to be one of the 
things that might be improved with the opening of the visitor's 
center.
    Mr. Cox. It is my understanding that it is and, in fact, 
that the Intelligence Committee may well move into space in 
this new area of the Capitol Visitor's Center. Were that to 
happen, there would be secure space, as you know, in the 
Capitol itself that, potentially, the Homeland Security 
Committee could use as a portion of its space commitment. That 
space would obviously be inadequate in terms of the number of 
square feet, the hearing room and so on.
    But I just want to take the occasion to thank this 
committee, thank Chairman Ney and other members of this 
committee for what you all did in the last Congress, giving us 
the resources that we needed to construct a SCIF in the Adams 
Building. It is expensive to construct secure space. We 
couldn't operate as a select committee without it for a number 
of reasons. And on an ongoing basis, when we move into 
permanent space, we are going to need that as well.
    Ms. Lofgren. Those are all of my questions, Mr. Chairman. 
And I know we have got space problems in all the committees, 
but this committee really is at the top of need because they 
are new. I thank the chairman.
    The Chairman. We worked, I know the leaders' offices have 
worked and we have worked with Van Der Meid and Leader Pelosi's 
staff; everybody has tried to work to find space. It is so 
difficult.
    And, again, eventually Congress has to--a suggestion I have 
is something across from the Cannon Building where we used to 
have the old page dorm. You can build something, be very close, 
you are not taking people and shifting half of them downtown or 
something like that. But eventually Congress has got to have 
the will to bite the bullet and get some more space.
    Again, these buildings--I saw the flow chart that we will 
get to you all. These buildings were designed for 6,000 fewer 
people than are in them; and the working conditions are not 
healthy, and it probably wouldn't be tolerated, out in the 
public sector.
    So hopefully we can work on it.
    I thank both the Chair and the ranking member for being 
here today. Thank you.
    Mr. Cox. Thank you, Mr. Chairman.
    The Chairman. We will move on to the Education Committee, 
Education and the Workforce.
    I thank the chairman, the distinguished gentleman from 
Ohio, Mr. Boehner, for being here, and also Mr. Miller, the 
ranking member. And we will start today with Chairman Boehner 
for his testimony on the budget. Thank you.

 STATEMENT OF HON. JOHN BOEHNER, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF OHIO

    Mr. Boehner. Mr. Chairman, thank you. And it is nice to be 
back in my old committee with my colleagues whom I served with 
on this committee for about 8 years. I know this process that 
you are going through is a long one, and I will try to keep it 
short.
    Our budget submission reflects, I think, an accurate and 
fiscally responsible representation of our committee's needs. 
And as I embark on my last term as chairman of the Education 
and the Workforce Committee, we have a big agenda ahead of us. 
But this committee has worked well with us the last two cycles, 
and I think that we have had the resources necessary to get our 
job done.
    Our budget request represents a 5.6 percent overall budget 
increase, considerably less than what we asked for and received 
in the last Congress. Our budget, I think, reflects fairness in 
meeting the goal, providing one-third of our funding and 
staffing to the minority, and as in the past two Congresses, 
this request was developed in full cooperation with Mr. Miller 
and his staff.
    It does provide meeting the goal of providing the minority 
with one-third of the staff and complete control over his 
portion of the budget. And we continue to have shared employees 
when it comes to the IT functions at our committee. We think--
we started this 4 years ago, and it has worked very well. And 
as we look at the increases that we are asking for, it is 
primarily in the area of salaries and much of it would go to 
the shared staff that we have.
    You know, the committee's legislative agenda includes 
reauthorization of the association health plan that we are 
working on today. We have a major budget--I mean, pension 
overhaul bill dealing with defined benefit plans for both 
single employer and multiemployer, and we expect that we will 
reauthorize the Higher Education Act this year.
    We have a tremendous effort under way to try to improve the 
Head Start program as well as a lot of other bills that we have 
there, but--many of them we did last year; unfortunately, we 
have to do them all over again this year because the Senate 
failed to act.
    But I would just say that our request includes upgrades to 
our software, hardware, communications, and Web streaming 
equipment. It also, I think, will allow us to update and 
upgrade our offsite data storage plans. And, finally, I think 
it will leave the incoming chairman, who follows my 
chairmanship, an adequate level of technology and resources to 
run the committee.
    So, with that, I would just say to my colleagues, thank you 
for giving me a chance to work with you over the last two 
cycles. We try to take the money that you give us and use it 
wisely. And, with that, I would like to turn to my colleague, 
Mr. Miller.
    [The statement of Mr. Boehner follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Miller.

 STATEMENT OF HON. GEORGE MILLER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Miller. Thank you, Mr. Chairman. And thank you for the 
opportunity. I appreciate the chance to appear here to support 
this joint funding request that has been developed by Mr. 
Boehner's office and our office.
    I think he has properly characterized it in terms of its 
apportionments of funds and the control over those funds by the 
minority. It is a relationship that we have had since his 
becoming Chair of the committee.
    I want to take a moment to offer my congratulations to your 
new ranking member, Congresswoman Millender-McDonald, on her 
appointment to this committee. And we look forward to working 
with her and with the staff of this committee as questions 
arise during the year; and also to recognize my colleague, 
other colleague from California, Zoe Lofgren, who is new to 
this committee.
    I want to say that the relationship that I have with Mr. 
Boehner--we disagree on a great number of issues, but we do 
agree how this committee has been administered. It has been 
administered in a very fair and a very balanced way, I think.
    With respect to the Democratic members, Mr. Boehner has 
found himself at the end of long afternoons where he has 
honored the right of members on our side of the aisle to offer 
amendments, to fully debate those amendments, and to have roll 
call votes on those amendments; and we are appreciative of 
that.
    He has long been a supporter, as the chairman of this 
committee, Mr. Ney, has, that the minority would have an 
apportionment and allocation of one-third of those resources. 
And again this budget reflects that as--except for, as he 
pointed out, with the shared employees in the IT area, which I 
think works out to the benefit of both parties.
    The important point is, I think, that our relationship has 
led the way in terms of the minority having full discretion 
over the use of those resources so that we can serve the 
interests of our members, their concerns with the issues that 
come before our committee, whether that is to gather additional 
information in their districts or in other places in the 
country, or to develop that information preparing for the 
markups in the committee.
    I would say the only area in which we are disadvantaged, I 
think you have heard this now from a number of committees, and 
that is in space. We are simply at a point where we really are 
not able to function to our full capacity to serve our members 
on a very, very active and important agenda, simply because of 
the lack of space. We have talked about this now for the last 
several years, but I would hope at some point there would be 
some effort by the majority leadership in the House to start to 
figure out how to provide additional space.
    I assume some of this impacts the majority also, but 
certainly it does the minority in a number of committees, and I 
know it is a concern that is being raised within our caucus 
about this resolution when it comes forward, because we have 
raised it now a number of years running in terms of the ability 
of the minority to function.
    But, with that, I obviously strongly support our budget 
submission to this committee and support the efforts that went 
into writing that budget. Thank you.
    [The statement of Mr. Miller follows:]

    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Well, I thank both the gentlemen for being 
here.
    Questions?
    Ms. Millender-McDonald. Model, model committee, Chair and 
ranking member.
    The Chairman. Obviously not a lot going on there. Mr. 
Boehner, are you surprised? Do you want some questions? My 
staff has written a few if you would like them.
    Mr. Boehner. No. We are in the middle of a markup over in 
our committee.
    The Chairman. Actually, I don't have any questions.
    I wanted to mention about staff though. You have a good 
staff. I know they are sitting in the front row on both sides 
of the aisle. And they really work well; they follow the 
procedures and the way that you are supposed to file things, 
working with our staff on both sides of the aisle. I think it 
is important for you to know, they don't cause any headaches; 
and that is wonderful.
    Mr. Boehner. Trust me, I think Mr. Miller and I both 
understand that having good staff keeps us out of trouble, 
keeps us on the right path, and we couldn't do what we do 
without having good staff.
    And we do have a good relationship both on a staff level 
and a member level at our committee. You know, while we may 
disagree over a lot of the policy issues that we have before 
us, as I like to say, there is no reason for members to be 
disagreeable with each other while they are disagreeing over 
the policy differences that we have. And over the last 4 years, 
I think Mr. Miller and I have worked to really change the 
culture of our committee, and it has been a really resounding 
success. It is a place that members want to serve on.
    The Chairman. Thank you.
    Ms. Millender-McDonald. The only thing I want to say is, 
Mr. Miller, your request or your observation about space 
allocation has not gone unnoticed. I think several of the 
members, ranking members, have talked about that. So I have 
talked with the chairman, and we will try to see what can 
happen. But we are not clear.
    Mr. Boehner. I may not be on my talking points here, but 
having served on this committee and having served in the 
Republican leadership, I think the issue of space is something 
that there ought to be an honest discussion about it.
    These buildings weren't designed to have--the member 
offices weren't designed to have the number of staff that we 
have in them; and the number of committees and the number of 
committee staff, those, that space wasn't designed for that 
level of employment, either.
    And it is easy for us to get buried in the work that the 
American people send us here to do, but from time to time it is 
good to step back and take a broader look at how we function. 
And I think that the space across the street that they decided 
to put a parking lot in, I would hope that is temporary. But I 
know, in my case, I have got employees who work several blocks 
away down at the Ford Building. I don't know how many employees 
are down there. But it is an issue that probably deserves the 
attention of the Congress in terms of how much space we really 
need to do the job that the American people send us here to do.
    The Chairman. Thank you. Thanks to both gentlemen.
    And we will move on next to the Energy and Commerce 
Committee.
    Mr. Barton. We are told that Mr. Dingell is on his way, if 
you want to take a slight recess.
    The Chairman. I appreciate the chairman being here. Mr. 
Barton, we will go ahead and start with you.

STATEMENT OF HON. JOE BARTON, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF TEXAS

    Mr. Barton. Thank you, Mr. Chairman and ranking member. I 
am here to appear on behalf of the Energy and Commerce 
Committee. I am not going to read my entire statement.
    We have submitted our budget proposal. There is some 
increase. Most of the increase is for personnel; 90 percent of 
our budget is for personnel.
    We probably have half a dozen major policy initiatives we 
are trying to turn into law this year. From Medicaid reform to 
the energy bill to telecommunications to the abuse of steroids, 
and the Spyware bill. All that takes a lot of intellectual 
firepower, and on our committee that takes a lot of attorneys. 
So we are asking for an increase of 7 slots, mostly for those 
kinds of issues.
    We give one-third of our budget to the minority. Ranking 
Member Dingell has a written statement and if he is here in 
time he will read it or submit it. He supports the budget, 
because we do give one-third of the slots and one-third of the 
budget to the minority.
    We do have a request for some technology upgrades, but we 
also have received some money for technology upgrades very 
similar to what we see here in this committee. We want to say 
thank you for that. But there is some money requested to 
continue some of those technology upgrades.
    And, with that, I would submit the written statement for 
the record and ask unanimous consent that Mr. Dingell's 
statement also be put into the record.
    [The statement of Mr. Barton follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Without objection.
    [The statement of Mr. Dingell follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I thank the Chair--questions?
    Ms. Millender-McDonald. No.
    Thank you, Mr. Chairman. I have spoken with Mr. Dingell 
prior to your coming aboard, and he did acknowledge his 
complete support of the budget that you are submitting and the 
one-third allocation. And so I think, with that, Mr. Chairman I 
have nothing else but congratulations on the camaraderie 
between the two of you.
    Mr. Barton. We work very well together.
    Ms. Millender-McDonald. Good luck on your year. This seems 
to be an easy committee.
    The Chairman. Well, thank you for coming, and also the 
submission of the statement by Mr. Dingell.
    Mr. Barton. Okay. Thank you, Mr. Chairman.
    The Chairman. Next we will move on to Standards.
    The committee will in recess for more or less 5 minutes.
    [Recess.]
    The Chairman. The committee will come to order, and the 
next committee on our agenda is Standards. We have the 
chairman, Mr. Hastings, and the ranking member, Mr. Mollohan. 
We will start with the chairman.
    Welcome.

 STATEMENT OF HON. DOC HASTINGS, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF WASHINGTON

    Mr. Hastings. Thank you. Good afternoon, Chairman Ney and 
Ranking Member Millender-McDonald. I appreciate this 
opportunity to appear before you and your colleagues today to 
present the Standards Committee budget request for the 109th 
Congress.
    I think it goes without saying that every committee in the 
House contributes much to the important work of the Congress. 
Having said that, however, I think each Member of this body 
would acknowledge the truly unique role of the Ethics 
Committee, as we are more commonly known.
    I think it is also safe to say that none of us came to 
Congress dreaming of some day serving on the ethics committee. 
But let me assure you that, once receiving that assignment, 
safeguarding the integrity of this institution is a solemn 
responsibility that no member of the Ethics Committee takes 
lightly.
    As you know, our committee has two primary tasks--to 
educate, inform, and advise Members and staff about their 
ethical responsibilities under the rules of the House; and to 
enforce those rules firmly and fairly without regard to 
friendship, favor, or political party.
    Mr. Chairman, the American people have every right to 
insist on the highest ethical standards here in the people's 
House, and it is our job to help ensure that the American 
people's expectations are met. Therefore, each day that we 
serve on the committee our overarching goal is to ensure that 
those of us privileged to work in these hallowed halls conduct 
the people's business in a way that raises public confidence in 
the essential integrity of this institution.
    It is a challenging assignment, but as the new chairman of 
the committee, I can tell you that I am ready to go to work.
    I am fortunate to serve alongside an outstanding Member, 
and a veteran Member of Congress, Mr. Mollohan of West 
Virginia, my ranking minority member.
    As you know, Mr. Chairman, the committee has not yet 
formally organized and has adopted no rules for the 109th 
Congress. Nevertheless, we have consulted with the 
Parliamentarian and have been assured that under the rules of 
the House, we are free to take various administrative steps 
such as requesting operating funding, which would aid our 
ability to fully function once the Democratic members of the 
Ethics Committee agree to allow us to move forward.
    Therefore, with the Chairman's permission, I will take just 
a few minutes to highlight our plans for the 109th Congress.
    Mr. Chairman, recent events have certainly underscored the 
importance of providing the highest quality ethics education, 
training, advice, and information to both Members and staff and 
at the same time have highlighted the need for us to meet 
sufficient investigative capability to carry out our importance 
compliance and enforcement functions.
    I truly believe that all Members and staff generally want 
to do the right thing when it comes to ethics. Our obligation 
to them is to do everything possible to help people understand 
the rules and to follow those rules.
    That means taking a hard look at our publications, our 
training programs, the way we use communication tools and 
technology, and the way we provide advice and counsel.
    To that end, Mr. Chairman, I am requesting a substantial 
increase in our funding for salary, equipment, and travel in 
order to fund six new positions and provide our committee with 
the tools needed to better serve Members and the staff within 
the House.
    Mr. Chairman, for the first time in 13 years, the committee 
plans to publish a comprehensive House ethics manual. The 
committee will work with GPO to produce a manual that is more 
clearly written and attractively presented than the badly 
outdated 1992 version still being used throughout the House. 
Considerable effort will be made to upgrade the committee's 
other publications and educational materials to better assist 
Members, officers, and staff in understanding their 
responsibilities with respect to ethics rules here in the 
House.
    The committee plans to contract with an outside vendor to 
completely rebuild its Web site to make it more easily 
searchable as well as more attractive, interactive, and useful 
for those inside the House as well as the press and the general 
public. A top committee priority will be to significantly 
improve both the quantity and quality of ethics training for 
Members and staff.
    The CAO recently commissioned a comprehensive study of 
professional training needs in the House which identified more 
extensive ethics training is among the most pressing needs 
singled out by those surveyed. Among other things, we plan to 
add a professional trainer to our staff, broaden our focus for 
Members and their top aides to every employee in the House, 
making ethics training much more widely available to staff here 
and in the district as well.
    Among the committee's most essential functions is to 
provide advice and counsel to Members and staff concerning 
ethics rules in the House. By adding professional staff to 
focus principally on publications and training, and by 
adjusting the way the committee processes thousands of 
financial disclosure filings each year, we expect to free up 
attorneys on our advice and education staff to measurably 
improve our turnaround time and general responsiveness to 
requests from those we serve.
    Finally, the addition of two experienced investigative 
counsel will enable the committee to strengthen its 
investigative capability, enhancing our ability to ascertain 
the facts when ethics violations are alleged, and permitting 
the committee to provide Members and staff with timely 
disposition of the complaints once filed.
    Mr. Chairman, we all recognize that these are challenging 
budget times and that committee funding dollars are tight. 
Clearly our request this year is a dramatic departure from the 
very modest increases the ethics committee has sought in the 
past. While most committees have gradually expanded their 
capabilities over the last decade, this committee has not, 
opting instead to request only enough funds to maintain 
existing staff and replace worn-out equipment as needed.
    Indeed, since adding one new position 10 years ago, the 
committee's authorized strength has remained absolutely flat at 
13 positions throughout the 105th through the 108th Congresses. 
As you know, the ethics committee has long had by far the 
fewest employees and lowest budget of any standing committee in 
the House. Thus, while the percentage increase in our proposed 
funding level of 55 percent appears high, in actual dollars, 
the increase we are seeking is easily among the smallest that 
you will receive in your testimony.
    In closing, Mr. Chairman, I would like to encourage you and 
your colleagues to look carefully at our plans to create a more 
ethical climate and ethical culture in the House and urge you 
to support this important effort. This is a pivotal time for 
the institution that we all love.
    It has always seemed to me that interest in ethics tends to 
run in cycles. By taking advantage of this renewed interest to 
build a more robust capability in the ethics committee, I am 
confident we can create throughout the House a greater 
awareness and appreciation of the ethical responsibilities that 
are incumbent upon all of us who are privileged to serve here.
    Thank you very much.
    The Chairman. Thank you, Mr. Chairman.
    The Ranking Member, the gentleman from West Virginia.

    STATEMENT OF HON. ALAN B. MOLLOHAN, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Mollohan. Mr. Chairman, Ranking Member Millender-
McDonald, it is a pleasure to join my Chairman, Chairman 
Hastings, here today to support our budget request for the 
ethics committee.
    The Chairman. I am sorry, Mr. Mollohan, I think the 
microphone needs to come closer, or maybe push the switch 
there.
    Mr. Mollohan. I had not turned it on, Mr. Chairman.
    I do support the Chairman's request, Mr. Chairman, in 
general, its overall number, and in large part as he has 
particularized it.
    The ethics committee, as he points out, performs an 
essential service in the House of Representatives. It has not 
enjoyed a budget increase for years, essentially being flat-
funded. And with regard to all of the elements that are very 
important for a committee to operate efficiently and function 
in a way that performs its mission for the institution, it must 
have adequate resources, adequate personnel, adequate 
materials, up-to-date equipment that is modern, spaces that are 
adequate to accommodate the people and their activities; and 
then, as the Chairman points out, there are certainly processes 
that can be addressed that additional resources would be 
necessary in order to accomplish.
    Mr. Chairman, I am here to support the Chairman's request 
and hope that the committee can be responsive.
    The Chairman. I want to thank both gentlemen. I just have a 
couple of questions.
    You talked about the training monies, and I think in your 
testimony somebody suggested additional training monies. Those 
were not there before, and there is no problem with that. I am 
just curious about what skills you hope or what the training 
will bring to the staff. Is it a matter of internal training 
for the staff?
    Mr. Hastings. That is correct. One of the things I have 
learned and absorbed in the time I have served on the 
committee, when Members have a question or an issue is brought 
before the committee, I think ignorance plays a part of that. I 
say ignorance; ignorance of what they are supposed to do. I 
think it is the responsibility--and by the way, the 1992 ethics 
manual is about that thick, if you recall. In fact, here it is. 
It is pretty hard to comprehend everything in there.
    So part of the training process, then, would be from an 
outreach standpoint where staff on ethics committee would meet 
with not only the top staff in the Members' offices and 
Members, but all the way down. At least we envision that, and 
we want to work on that.
    The Chairman. I know here in House Administration, it is 
not ethics, but, as you know, we advise on House rules, 
procedure and use of equipment, different questions, and we 
have a Member service section. If you take the Democrats and 
Republicans, I think we probably have about I want to say seven 
or eight people that deal constantly with answering questions. 
And that is just here. So I know you have to have internal 
people. If you don't have people, it is difficult to get the 
questions answered. But we have our manuals, which we have 
updated, and I am glad to hear you are updating.
    From the time I have been here, this has been a very flat-
lined budget. We can only deal with what requests are brought 
to us, but I think it has been pretty much flat-lined, and I 
think you are at a turning point if you want to do the job. And 
I think you need to do the job. You have to be able to do the 
job, and so you have to have the resources to do it, and 
nothing should stand in the way.
    I think you are at a turning point staffwise and 
equipmentwise, so we have to consider the money you are 
requesting so you can use it to conduct the business that you 
need to do.
    I just have one final question. We are aware that the 
committee plans to hire a new chief counsel. Do you have a time 
frame? Not pinning you down exactly, but when you would want to 
hire a new counsel?
    Mr. Hastings. Yes, we want to do this as soon as possible. 
Because of the unique makeup of the committee, that is five-
five, I intend to work closely with Mr. Mollohan on that. In 
fact, we have already discussed if he has people that are 
interested in this. We encourage that, and we will go through a 
joint process of interviewing and hopefully making a selection 
as soon as we possibly can.
    Again, I want to emphasize, because Alan and I have talked 
about this, this is a joint issue because of the nature of the 
committee, and I fully intend to work with him on that. But we 
want to do that as soon as possible.
    The Chairman. Thank you.
    Mr. Mollohan. Mr. Chairman, if I can follow up on that?
    The Chairman. Yes. I am sorry.
    Mr. Mollohan. This request is a significant increase, and 
if you were to grant it, it would be a significant increase to 
the committee. There is no question about making available 
additional resources to the committee, which can be used to--in 
all the ways the Chairman has spoken to, and that I agree with.
    I do want to emphasize, though, that in the past, at least 
during the last Congress that I served on it, in terms of our 
investigative capabilities, moving cases along, the staff we 
had was adequate to do that job. Now, that doesn't speak to 
equipment, that doesn't speak to redoing manuals, that doesn't 
speak to the outreach activities that the Chairman has 
articulated here, which I completely support. But in terms of 
the investigative functions and moving cases along, I think the 
committee has performed in that area very admirably based on 
the resources it has had in the past and as we have come and 
testified before you in the past.
    The previous Chairman and myself as the Ranking Member in 
those instances, if we had felt at that time we did not have 
enough resources for those functions, we certainly would have 
made the committee aware of that. The Chairman is proposing 
additional activities enhancing those investigative activities, 
which I think we need to look carefully at what resources we do 
need on task, dependent on the workload facing us at that time. 
But the increases will allow us to engage in other activities, 
which I totally agree would be, taken as a whole proposal, a 
good thing. We may have to work through some of the details of 
the proposal, but the resources are needed, and I support the 
gentleman in his request.
    The Chairman. I understand and appreciate the gentleman's 
comments, and having worked on this budget for 4 years now as a 
chairman, and watching the proposals that come here, I agree 
the adequacy is there. But, obviously, with flat-lining, 
though, I don't care what committee you are, this committee was 
held in a pretty flat-line status, and it functioned. House 
Administration functioned, and my predecessor did a marvelous 
job here. But eventually, if you want to do other things to 
enhance the committees, and all committees are important, then 
I think the increased money is important.
    So it is not entirely a matter of money; there is staff 
training and things, but in this case--and I do not know how we 
will end up at the end of the day with all the committees, but 
I believe we need to give you the resources with the important 
tasks that you have.
    Ms. Millender-McDonald.
    Ms. Millender-McDonald. Thank you, Mr. Chairman, and I 
agree with you. I support the comments of the Ranking Member, 
because I was about to ask if you were satisfied and had been 
involved in the budget process with the Chairman.
    And I appreciate the Chairman's comments as well. And I was 
going to ask you that before you spoke, given the Chairman's 
statement in the second paragraph on the second page, he stated 
that the committee had not yet fully organized and adopted the 
rules of the 109th Congress. At the bottom of that he said, 
``Such as we are requesting in this operating funding, it would 
aid our ability to fully function once the Democrat Members of 
the ethics committee agree to allow us to move forward.''
    So I was just wondering if there were any impediments with 
this budget with reference to the Ranking Member. But you have 
already spoken.
    Mr. Mollohan. I didn't hear the Chairman read that part of 
his statement, and I don't have it here, but I can remember 
what you said.
    Well, that was probably an irresistible throwaway that he 
had to put in there.
    Ms. Millender-McDonald. I see. It was good you spoke before 
I came on.
    Mr. Mollohan. Since you picked it up, I appreciate the 
opportunity to ad lib about it a bit.
    We are in a process, a very serious process, of organizing 
the committee. As the Chairman pointed out, there are a number 
of things that we can do which--in spite of the fact that we 
have not successfully adopted the rules of the committee, and 
we are moving forward and with conversations as necessary to 
define those areas that we can operate.
    We have not agreed to the rules as directed in the House, 
as passed on opening day, the House rules. Embedded in those 
were three rules directed that the ethics committee adopt. They 
are objectionable for reasons that is unnecessary to detail in 
this forum. But suffice it to say that we are in the process to 
work through that, and I am perfectly confident that through a 
process of reasoning together and moving the bigger picture 
process in a reasonable way, that we will have a very good 
chance of resolving it in the near-term time frame so that we 
can move forward with the full business of the committee.
    Ms. Millender-McDonald. Aside from the internal aspects of 
what you are outlining, the budget and all that he is bringing 
forward, you are in agreement with that?
    Mr. Mollohan. Yes, I agree with the overall request 
certainly, as the Chairman graciously pointed out. In the 
nature of the committee we will work closely on the details. 
But I support his vision, and I think the idea of reaching out, 
the idea of enhancing the educational capabilities of the 
committee, notifying all those that the committee has 
jurisdiction over what their responsibilities are with regard 
to ethics as they operate in this institution, I think all that 
is very good. I agree with the premise that to the extent that 
educational effort is done in a good manner, we will decrease 
the number of disappointments that we have.
    Ms. Millender-McDonald. Thank you, Mr. Chairman.
    The Chairman. Other questions?
    Ms. Lofgren. Mr. Chairman.
    The Chairman. The gentlewoman from California.
    Ms. Lofgren. Thank you very much.
    I served for 8 years on the Ethics Committee, and it was 
the only time I have ever been glad for term limits, but it was 
a very interesting experience and, a very positive one. It is 
the only committee in the House that is evenly divided, five 
Republicans, five Democrats. And in my 8 years on the 
committee, there was only one divided vote, a 9 to 1 vote on a 
procedural matter. Everything else was unanimous. I think we 
would be hard-pressed to identify another committee where that 
has been the case.
    Because the rules and the operation of the committee really 
require consensus between both of the political parties to act, 
this may not be that important. But am I understanding 
correctly that one of the positions that would be added, if 
there was concurrence by Mr. Mollohan, would be a press type of 
person?
    Mr. Hastings. No, it would not be at all. It would be 
somebody that would focus on this and then on publications that 
would go out on a timely basis whenever.
    Ms. Lofgren. So not a spokesperson, a person who actually 
produces material?
    Mr. Hastings. Right.
    Ms. Lofgren. Because I know that we cannot talk to----
    Mr. Hastings. No, that is right, that was not the intent. 
And I might add that you and I did serve on the investigative 
committee, so I know you know some of the stuff you go through. 
But believe me, that was not what we were talking about.
    Ms. Lofgren. Okay. I have just two more questions. One is a 
niggly one.
    Members of the committee, because it is all confidential, 
are required to keep the written material confidential. I know 
when I was on the committee, I received a shredder from the 
committee that never worked. Do you have enough money in the 
budget to actually provide industrial-strength shredders for 
the committee Members so that they can adequately discharge 
their obligation of confidentiality?
    Mr. Hastings. Well, mine worked.
    Ms. Lofgren. I used to go over to the committee.
    Mr. Hastings. No, we will make sure that they work. I was 
certainly not aware of that. But, yes, that is something that 
we, as a matter of fact, talked about early when we attempted 
to organize was that those things be made available.
    Ms. Lofgren. The final question--it was something that your 
predecessor talked about, and I do not think we ever got around 
to doing it, and I still think it is worth doing--to review 
some of the rules to make sure that they actually make sense. 
Some of them are quite petty and, apparently, irrational.
    For example, you can accept the gift, if you will, of going 
to a football game if it is a public university, but if it is a 
private university, you cannot. So, for example, when San Jose 
State plays Stanford, if I sit on the State side, the ticket 
gift is acceptable; but if I sit on the Stanford side, it is 
not a gift. I don't go because San Jose is in my district and 
Stanford is my alma mater. But just as an example, they should 
be the same. I am not suggesting it should be free for private 
universities; maybe you should also pay the public university.
    But there are dozens of weird little rules that people can 
run afoul of because they do not seem to make any sense. And I 
am wondering if you have the budget to actually engage in that 
analysis and make sure that common-sense rules actually are in 
play.
    Mr. Hastings. Well, I think that is something that we 
should look at. And, again, going back, these are the rules 
that we go by. Not everybody knows that, and probably within 
this there are probably more examples of which you point out of 
things that need to be looked at very closely. I suspect 
probably in the process, when we do this, some of these things 
will pop up.
    I might add, to go along with that, from the State of 
Washington that we have Gonzaga University and the University 
of Washington in the NC2A. One is private, and one is public. 
So, hopefully, they meet sometime along the line.
    Ms. Lofgren. I just used that as an example. There are 
many. And there are reasons for some of them, but you attenuate 
them out 25 years, and they do not really have any meaning, and 
people make mistakes because they seem so bizarre. So people 
get into ethical problems when they haven't really done 
anything that is malum per se.
    Mr. Hastings. I think those sort of things will pop up.
    Ms. Lofgren. All right. Thank you, Mr. Chairman.
    The Chairman. I want to thank both Members for being here 
today.
    We are waiting for the Ways and Means Chair and Ranking 
Member, so there will be a recess of 5 minutes, more or less. 
Thank you.
    [Recess.]
    The Chairman. We welcome the Chair of the Committee on Ways 
and Means. You are familiar more than I with this role, because 
you created it, and that is a compliment. So we welcome and we 
await your testimony.

   STATEMENT OF HON. WILLIAM M. THOMAS, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Thomas. Mr. Chairman, thank you very much, and I would 
ask unanimous consent that my written statement be made a part 
of the record.
    The Chairman. Without objection.
    Mr. Thomas. I come before you, and I believe my Ranking 
Member will be with us shortly. He is at another meeting. 
Notwithstanding the fact that, if you will look at his 
statement, I think you will find that we worked together in 
creating the budget. More than just that, Mr. Chairman, I am 
pleased to appear before you as the chairman of a major 
committee who can say that the quest that I started in 1981 as 
a Minority member of this committee, clear through the time 
that I was chairman of this committee, has now been 
accomplished.
    In the Ways and Means Committee, the Majority controls two-
thirds of the staff and resources; the Minority controls one-
third of the staff and the resources. And that was my goal, as 
you know, and I am hopeful that the reports you are getting 
from other committees is that that is being honored as well.
    One of the reasons it took us so long in Ways and Means was 
that there were more than a dozen staffers who were classified 
as shared staff. And the argument was they were shared because 
they carried out committee business that really wasn't 
something that belonged to the Majority or the Minority. I 
happen to believe if you are the Majority, you have the 
responsibility of running the committee, and those people 
should be counted on your side, notwithstanding the fact they 
may carry out ministerial tasks, because they are under your 
direction.
    And so with the two additional staff that we are 
requesting, and I think you will take a look at the number of 
staff that we have, and the two additional, given the workload 
of the committee, it is not exorbitant. But it does allow us to 
remove the last vestiges of the shared-staff concept, in which 
the Minority controls fully, completely, one-third of the staff 
and fully, completely, one-third of the resources, not having 
to ask the--request of the chairman to use a Xerox machine or 
get a new computer or whatever else.
    So with that, Mr. Chairman, I am pleased to present the 
budget. I guess my strategy was a little off. I probably should 
have said I will just take half of whatever you guys get. But 
what I did do was go through and look at what we needed to do 
the job we have.
    I believe especially, as you can see, it is a little bit 
front-loaded for this year, which is a longer year in terms of 
the time that the committee meets, and next year it is about 6 
percent, 4 percent, and that is 10 percent for everything that 
the committee has available to it to perform its duty 
overseeing the entire Internal Revenue Code, Social Security, 
Medicare, trade, welfare, and a few other cats and dogs.
    The Chairman. Well, I thank the Chair.
    [The statement of Mr. Thomas follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Personally, your staff and I know you, 
because you have looked over these things, and it was so well 
done that I have no questions from our staff. So I think it was 
a very well done budget, and it is a good, well-prepared 
budget. I really have no questions.
    The gentlewoman from Michigan.
    Ms. Millender-McDonald. Mr. Chairman, I have no questions 
either. I will say that your reputation precedes you, in terms 
of being the former Chair of this committee, in outlining the 
formula of two-thirds and one-third, and you have admirably 
ensured that the Ranking Member shares that. So we thank you so 
much for establishing that type of formula.
    Thank you, Mr. Chairman.
    Ms. Lofgren. I would just say, Mr. Chairman, that it is 
good to hear your comment about the Majority assuming the 
administrative task, because it is my understanding that is 
really the rationale for the two-thirds/one-third split of 
committee resources, and I think that is a reasonable plan.
    I mean, you could argue another way, but that is what we 
have. And not all of the chairmen have taken your attitude. So 
it is good when you can argue and fight about policy, but not 
about the paper clips. So I thank the Chairman.
    Mr. Thomas. If I might just make a couple of points. I 
assume other committees may have mentioned this. It is 
extremely difficult to continue to have as positive a working 
environment as we would like because the committees do not 
control the space, and space always is at a premium.
    We stand ready to assist in whatever you folks may look at 
as a project to try to figure out, as we add a significant 
amount of square footage to the general Capitol area with the 
visitor's center and adjoining rooms, that we should be 
especially zealous in working with leadership to pick off a 
room or two near the committees so that we have a comfortable 
way--we have used all the air shafts and the behind-the-chimney 
areas that we have. So as we move forward, moving into that new 
addition to the Capitol, I would hope we underscore trying to 
salvage a little bit of space for the Members.
    Secondly, Mr. Chairman, I would like for the record to urge 
you to come on by the Ways and Means Committee. We have 
undergone a renovation of the Ways and Means Committee room for 
the first time in a decade and a half. It has been 
historically, and is being planned in the future, if necessary, 
to be used as a fall-back floor of the House of 
Representatives. The modernization included significant 
upgrading of the technology not necessarily for the committee's 
operation, but because it would function as the House of 
Representatives Chamber.
    But we are also very pleased with the restyling in the 
colonial revival period, which was the period of the 1930s 
initial design of the Ways and Means Committee room, and it has 
a nice historical ambience. So if anybody wants to come over, 
we are kind of pleased to show off our new room.
    Thirdly, I have looked at the budgets, it is kind of an old 
habit, and we have new chairmen, and we have new needs, and 
especially with the shifting because of the post-9/11 and a new 
full committee, but I will say this on the record, and I will 
visit with some of the committee chairmen, that you should not 
reward failure to move toward a fair allocation of resources. 
Those committees that are not in that frame of mind will give 
you every reason in the books why it can't be done. I just 
wanted to show you that if you are committed to doing it, you 
can do it. And you should help supply some of the resources 
focused on moving in that direction.
    And, frankly, if they do not move in that direction, then 
the resources that could have been used for that purpose are 
perhaps not as useful in perpetuating the failure to meet a 
commitment that I believe we made in the Minority when we 
became the Majority.
    The Chairman. I thank the gentleman for his comments. I 
would make just a couple of comments on the space. I was on 
this committee, and I have been on it for a decade. You became 
the Chair, and I went on the committee, and we went into the 
21st century for the first time with the Web pages, and 
everything was lit up on opening day, and all of a sudden the 
entire world had access to the U.S. House for the first time.
    And then the technology. I haven't gotten over to the 
hearing room, I will, but we moved to get certain hearing rooms 
done and to work the Architect of the Capitol and your staff 
and the other staffs to push, because that is another goal that 
is not finished yet. We have the appropriating arm, and we have 
made a commitment there to modernize everything. Some rooms are 
done, some are not, and we really need to finish that up.
    The two-thirds/one-third. After I became Chair, something I 
immediately did when I became Chair, as you did, and that was 
to allocate the two-thirds/one-third. You did a great job. I 
said that today earlier when we talked about this, and the 
other day when we held hearings. You did a wonderful job of 
moving us in that direction. You made a total commitment to 
moving us, and you pushed to do that.
    About 4 years ago, I think it was, we had a couple of 
committees where we pushed them along while they kicked or 
moaned or whatever. The process was to get them there. And we 
want to make sure we don't slide back. So I think it is 
something that we have talked about, of course, with our 
Ranking Member and the members of the committee, and that way 
that argument is out of the way. It is not something to be 
argued every time. It was a goal that you really pushed and did 
a wonderful job on and something we want to continue to do.
    But I want to say something about the 21st century also. As 
we went into the modern world, it brings more people in contact 
with our government around the world, around the country. There 
are more questions to be answered, more resources needed then, 
because you have an obligation to answer individuals that 
communicate with their government, who come to Washington and 
are more active with their government. And there comes a point 
in time when you have to ask, how many people can you cram into 
a room? Something has to give here at some point in time to 
have some more space. It is a dilemma. And it is past its time. 
Some trigger has to be pulled on that.
    Mr. Thomas. Mr. Chairman, I am committed to a paperless 
Congress. We are moving in that direction. But I do not think 
it is possible to have a peopleless Congress. We need the 
space.
    The Chairman. Thank you very much for your testimony.
    Ms. Millender-McDonald. Mr. Chairman, I hope that 
invitation is extended to the Ranking Member to come and look 
at the Ways and Means Committee room.
    Mr. Thomas. I urge all Members to take a look, because it 
was a major project. And, of course, as you might expect with 
technology, most of it is not visible, but you can see the 
results of the project.
    Frankly, it is something that we should all be proud of. 
And as we change these various rooms, we never get the 
attention that we should in terms of the way we try to respond 
to people's needs in the 21st century, as the Chairman said.
    I am kind of amazed at the equipment that you have got. I 
want to doublecheck mine.
    Ms. Millender-McDonald. You see yourself coming and going; 
right.
    Mr. Thomas. In more ways than one, ma'am. And I appreciate 
the continued replacement.
    The Chairman. Thank you very much.
    Next we will have the Intelligence Committee. I want to 
thank both the Chair and the Ranking Member for being here 
today, and we will begin with the Chairman Mr. Hoekstra.

STATEMENT OF HON. PETER HOEKSTRA, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MICHIGAN

    Mr. Hoekstra. I would like to begin by thanking the 
Chairman of the committee for providing us an opportunity to 
present our budget to you today. I would like to submit my 
entire statement for the record.
    The Chairman. Without objection.
    Mr. Hoekstra. And let me just make a couple of points. You 
have had the budget for a period of time. I think we were one 
of the few committees to submit it to you on time when you 
requested it. We have been able to work very much in a 
bipartisan way in preparing the budget, much as Jane and I have 
had the opportunity last fall to work together on the 
implementation of the intelligence reform bill and the passage 
of that bill through the House of Representatives.
    We are working very, very hard to keep the spirit of 
bipartisanship alive on the Intelligence Committee. The issues 
that we are working with are too important for us to drag into 
partisan politics. And I think we are both taking that 
seriously, and that process has continued as we have approached 
and developed this budget.
    The major changes in the budget that are proposed from the 
last Congress are the implementation and our responsibilities 
from the passage of the intelligence reform bill and also the 
report that came out by the 9/11 Commission last fall. The 9/11 
Commission last summer, last fall, in their evaluation pointed 
out that one of the weaknesses that they had observed was the 
weakness in congressional oversight of the Intelligence 
Community.
    There have been some reforms that have been made in the 
intelligence area to improve our oversight on the Republican 
side. The Speaker of the House now, as Members move on to the 
Intelligence Committee, they are asked to give up other 
committee assignments so that they will have the opportunity to 
spend more time on what the Speaker has identified as a 
critical function.
    Jane and I, in the work we have done, as we put together 
the annual plan for this Congress, we identified the need for 
specifically a Subcommittee on Oversight, a subcommittee that 
we could task with key projects and key oversight 
responsibilities. The oversight functions that we see of most 
critical importance in this Congress is implementation of the 
reform bill that we passed last year, bringing together 15 
different intelligence organizations under a new Director of 
National Intelligence; recognizing that the passage of that 
bill against many entrenched bureaucracies and bureaucrats was 
difficult enough, but now for Ambassador Negroponte to move 
into that responsibility and take what we envisioned as a 
reform and making it a reality.
    There are a couple of things we have to monitor very 
closely. Number one, we want to monitor that Ambassador 
Negroponte actually moves the Intelligence Community in the 
direction that the intelligence reform bill intended the reform 
to take. So, number one is the executive branch implementing 
the legislation the way Congress intended it to happen.
    The second thing we need to monitor is that as that 
implementation is taking place, are there unintended 
consequences? Are there things that we expected to happen? Are 
there changes that we envisioned, changes that would be 
positive for the Intelligence Community, and, in effect, are we 
seeing some unintended consequences?
    It is absolutely important that we get this intelligence 
reform bill implemented and that we get it implemented 
correctly. And the footprint for making that happen will be the 
next 12 months, the first 12 month of a Director of National 
Intelligence. This is where some of the early battles will be 
fought. This is where some of the decisions will be made as to 
what the scope and the responsibilities of the Director of 
National Intelligence will be. We need to make sure that we are 
there providing the appropriate oversight and getting the kind 
of results that we had hoped that we would get.
    In light of that and other responsibilities that we want to 
carry out in oversight function and other responsibilities of 
the committee, we have asked for an increase of nine staff 
positions, divided six for the Majority and three for the 
Minority staff.
    The only other thing we would like to highlight to you is 
what we have already talked about. We are moving from the 
fourth floor attic of the Capitol to, interestingly enough, 
into the basement of the visitor's center. And we have had some 
discussions as to who and where and how the costs will be 
allocated for those spaces; what will be the responsibility of 
the committee; what will be the responsibility for the 
Architect of the Capitol to bear and to budget into their 
plans. And we look forward to working with you, because not 
only do we need a state-of-the-art intelligence capability and 
function in the visitor's center for us to do our jobs, but we 
also see that these secure spaces will also be used by a number 
of other committees when they have the need for secure 
facilities.
    I think a number of my colleagues have seen some of the 
capabilities that our military has had to communicate worldwide 
in order to get the information to decisionmakers very, very 
quickly. We need that capability, as do other Members in the 
House.
    So with that, I yield, I guess, to Ms. Harman.
    [The statement of Mr. Hoekstra follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. The gentlewoman from California, Ms. Harman 
and the Ranking Member. Thank you.

  STATEMENT OF HON. JANE HARMAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Ms. Harman. Thank you, Mr. Chairman. I appreciate the 
opportunity to appear on a bipartisan basis to talk about our 
budget. I want to commend you first for your bipartisanship. 
You are flanked by two very capable California women, as it 
should be. And I would like to congratulate our colleague 
Juanita Millender-McDonald for now being the Ranking Member of 
this committee.
    You should know, and Chairman Hoekstra should know, that in 
California the Democratic part of our delegation, 33 Members, 
are majority female, and our two Senators are female, and I 
would call that a good start.
    At any rate, onto this subject. I agree with the Chairman 
that a critical activity which we have to undertake is the 
implementation of the intelligence reform legislation. It was 
an enormous victory last year, I think, to come up with 
bipartisan, bicameral legislation to implement the 
recommendations of the 9/11 Commission. That was half the 
battle. Now we have to make it work.
    And we have been invited to work with the new team of 
Ambassador Negroponte and General Mike Hayden, and we plan to 
do that to make sure that they succeed. And we need staff, and 
hopefully within a year or so better space in which to do that 
work.
    We also have other important work in our new Subcommittee 
on Oversight, and that relates to activities of the 
Intelligence Community, which are written up all the time in 
the newspapers. The newspaper articles are not accurate, and 
there are obviously limitations on what we can say publicly 
about those activities. But it is absolutely critical that our 
Members be fully and completely informed about those 
activities.
    So with increased staff, some of it dedicated to this 
Subcommittee on Oversight, we will learn what we need to learn, 
and our Members, who are extremely hard-working, patriotic 
Americans, will do the oversight that Congress absolutely must 
do on these critical issues.
    I just want to highlight a couple other things. First of 
all, our deal is that we will share some nonpartisan positions. 
I support that deal. There are security roles in the 
Intelligence Committee that have to be filled by qualified 
people, and we want those people to be nonpartisan. Splitting 
their costs two-thirds/one-third is the right thing to do.
    I, in fact, think we need more of them, because I think the 
security concerns are very serious, with the material coming 
across our Internet, even on our classified sites, include some 
of our Nation's most carefully held secrets. And I want to be 
sure we do everything we can to protect it on this end. I know 
the administration is focusing on protecting it on their end.
    So I would hope we would agree about hiring at least one 
more person, and we are talking to the Sergeant-at-Arms about 
what the qualifications of that person could be, and maybe even 
some suggestions of who that person could be.
    Because we were so busy with the intelligence reform 
effort, we were not able to fill vacancies last fall that came 
to exist then as staff got promotions and burned out and so 
forth, and that leaves a lot of slots to fill. On the Minority 
side we are filling those slots rapidly with a very qualified 
and diverse workforce, and we will continue to fill them.
    The only problem now that we will have, which I guess is a 
good problem, is no space to put the people in. Maybe we will 
have double-deck desks or something like that. I only wish we 
would have Aeron chairs.
    In conclusion, I would like to say that Peter and I were 
elected together in 1992. We talk together regularly. We are 
trying to restore the bipartisan tradition of the committee, 
which suffered a bit in some recent years.
    But he did not consult me, I want this absolutely on the 
record, about his new facial hair, and I want to say for the 
record that I am quite disturbed about it.
    Thank you, Mr. Chairman.
    [The statement of Ms. Harman follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Thank you. I don't know what to say on that, 
but I am glad Mr. Rangel is here, because I am California 
outnumbered, and New York is a little closer to Ohio, so I at 
least feel a little more strength in numbers. My relatives are 
in Fontana, an aunt and uncle, so I have a lot of California 
pressure. That is not all that bad.
    I have no questions. I think you do an important job, your 
function for the Congress, and with that I yield to the 
gentlewoman from California.
    Ms. Millender-McDonald. Mr. Chairman, don't cry out loud, 
all these California women.
    The two of you, I think, are working very cooperatively, 
and I have really no questions to ask, but just to say that 
your intelligence reform bill will be the impetus by which you 
work very closely with the Director of Intelligence, and that 
is a good thing.
    So it is great to have both of you here, and thank you both 
so much.
    The Chairman. Our other gentlewoman from California.
    Ms. Lofgren. I would just note that we have been looking at 
the franking budgets in each committee, and although there is a 
huge increase, it is such a tiny amount of money that--I don't 
want to raise the issue. But we do want to be consistent noting 
that it is only a large increase because there was so little 
spent to begin with.
    The Chairman. I thank both of you for being here.
    The gentleman from New York, Mr. Rangel, is here. Mr. 
Thomas has already delivered his message, and we will entertain 
Mr. Rangel, who I just wanted to note that my wife and I had 
the pleasure of being with Mr. Rangel and his wonderful wife to 
represent the United States at the 60th Anniversary of D-Day 
with other Members of Congress.
    It was a wonderful event and a special time to be there, 
especially with the service Mr. Rangel has given to the United 
States not only in his congressional position, but service as a 
veteran. Thank you, Mr. Rangel.

   STATEMENT OF HON. CHARLES B. RANGEL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Rangel. Thank you, Mr. Chairman. It was a memorable 
occasion, and I want to congratulate you for the great 
bipartisan work that you have been doing as Chair, and, of 
course, to congratulate my friend and colleague from California 
in this position. I am certain in working with Mr. Ney that we 
can really bring a sense of bipartisanship, which is so missing 
in the Congress.
    I come here, and I am sorry I am late, to support the 
request of the Ways and Means Committee of 10.4 percent. This 
money will be used for modest staff increases, but also to 
upgrade the technology that we have in our hearing room and our 
ability to communicate with other Members of Congress.
    We also, and Mr. Thomas has consulted with me, have agreed 
on two additional staff people that would be shared by the 
Democrats and Republicans. I think this would go a long way 
when professionals can look at the facts and not the parties to 
try to bring us together on the sensitive legislation that 
comes before our committee.
    So I want to thank you. I hope you give serious 
consideration to our request. And if there are any questions, I 
will attempt to answer them at this time.
    Again, I am so sorry that my responsibilities on the floor 
prevented me from being here with the Chairman, but I am glad 
that I am able to share my views with you now.
    The Chairman. No problem. It fits in the schedule quite 
perfectly. We appreciate your testimony.
    [The statement of Mr. Rangel follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Any questions?
    Ms. Millender-McDonald. Thank you so much, Mr. Ranking 
Member. I look forward to working with you. Your Chairman has 
indicated that you work very well with him, and on the two-
thirds/one-third, you are in control of your staff selection, 
so that is a good thing. We are very glad you came because I 
was wondering where my friend was.
    Thank you so much.
    Mr. Rangel. Thank you.
    Ms. Lofgren. Mr. Chairman, I think this is so easy, and it 
is so interesting that a committee that is so contentious on 
the policy issues can be so agreeable when it comes to the 
paper clips and other materials. That inspires us to have hope.
    Mr. Rangel. Well, I was really hoping that by having more 
professional staff that are not hired because they are 
Republican or because they are Democrats, that in having only 
to be concerned about what is best for America, perhaps we 
could enlarge on that number to form a bridge where the party 
leadership does not dictate the substance of what is best for 
America. And if you can find a whole bunch of Social Security 
experts, we need them now more than ever.
    The Chairman. I thank the gentleman from New York.
    Mr. Rangel. I thank the committee.
    The Chairman. Next we have the Resources Committee.
    I want to thank Chairman Pombo for being here today, and 
the Ranking Member Mr. Rahall, my neighbor, from my first birth 
State; not my home State, but my birth State.
    With that, we welcome Mr. Pombo.

    STATEMENT OF HON. RICHARD W. POMBO, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Pombo. Thank you, Chairman Ney, Ranking Member 
Millender-McDonald and members of the committee. Thank you for 
this opportunity to testify on the budget submission of the 
Committee on Resources.
    The Resources Committee Ranking Member Nick Rahall is also 
here, and I am pleased to report that he has cosponsored our 
committee funding request again this Congress.
    During the 108th Congress, Nick and I enjoyed a very open 
and amiable working relationship. He has been both a friend and 
a worthy adversary, and I look forward to working with him in 
this Congress as well.
    Please note that while we both have unrivaled 
accomplishments in the 108th Congress and lofty goals for the 
109th, our requested financial increase is, comparatively 
speaking, unquestionably modest. The citizens of the United 
States got more for their tax dollars from the Resources 
Committee in the 108th Congress than from any other committee 
in the House. Our panel and its subcommittees held 174 
legislative hearings and marked up 237 bills, 107 of which 
garnered the President's signature to become Public Law.
    In addition, we held nearly 50 official field hearings in 
communities across the country that were most affected by 
policies under the Resource Committee's jurisdiction. 
Collectively these statistics alone illustrate the fact that we 
are the most active and productive committee in the Congress, 
especially given our massive jurisdiction over roughly 2.2 
billion acres' worth of national parks, forests, refuges, and 
public lands, including the outer continental shelf. No other 
committee in Congress has compiled as impressive a record.
    The issues under our vast umbrella of jurisdiction affect 
millions of Americans as well as those individuals residing in 
the territories of the United States. As you know, some of the 
issues include onshore and offshore oil, energy and mineral 
development, wetlands and wildlife management, the Endangered 
Species Act, Federal dams and hydropower generation, crop 
irrigation, the preparation of environmental impact statements 
under NEPA, Native American affairs, and all parks, forests, 
and public land management regulation.
    Mr. Rahall and I have prepared a comprehensive action plan 
for the 109th Congress. It will include an array of oversight 
hearings both here in Washington and in the field to enable 
concerned citizens to participate in the legislative process 
again in the 109th Congress.
    The field hearings in particular have proven to be 
invaluable to committee members and staff by enabling us to 
gather input from individuals whose lives and livelihoods are 
most affected by environmental-related legislation and 
regulations. As such, we are absolutely committed to continuing 
those efforts, and especially in rural parts of the country 
which have been underrepresented in Congress.
    Our requested budget increase is geared to staff. First, 
this increase will help us retain the most hard-working and 
experienced staff by providing funds for merit raises and a 
realistic cost of living adjustment. Second, they will enable 
us to hire three new staff members. The Speaker's staff ceiling 
for the committee is currently 69 slots; 21 of the 69 slots are 
currently staffed by individuals who perform administrative or 
nonlegislative functions. Unfortunately, the committee has 
reached the staff ceiling many times during the past 8 years. 
As such, we request the committee's current staff allotment be 
increased to 72, or three new staff positions in 2005, 2006. To 
ensure fairness in the process, the committee Majority would 
acquire two staff positions, and the Minority would acquire 
one.
    In conclusion, let us reiterate that our proposed budget is 
both responsible given the current budget climate and 
conservative in light of the committee's vast responsibilities. 
While we recognize that every dollar we spend comes from 
taxpayers' pockets, we are certain that this budget accurately 
represents our minimum requirement.
    I want to thank you, and I will be able to answer any 
questions the committee may have.
    The Chairman. I want to thank the Chairman and Ranking 
Member.
    [The statement of Mr. Pombo follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Mr. Rahall.

  STATEMENT OF HON. NICK RAHALL, A REPRESENTATIVE IN CONGRESS 
                FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Mr. Chairman. I want to first thank 
you and the members of the committee that are present, Ms. 
Millender-McDonald, the Ranking Member, and Ms. Lofgren, for 
your help to me on a number of occasions, especially when it 
comes to our coal miners in southern West Virginia. And I thank 
you, Mr. Ney, Mr. Chairman, for your help, your valiant help, 
on behalf of our coal miners. You have been a true friend to 
us, and we appreciate it.
    I do appreciate the remarks of my Chairman Mr. Pombo and 
associate myself with those comments he has just made, 
especially about me. The comments are mutual. I do respect the 
Chairman and have found that our working relationship has been 
one that has been very professional and very upfront with one 
another, and he has been fair to the Minority. And where we 
disagree, we know it up front, and we respectfully disagree 
with each other.
    The budget that he and I are presenting this afternoon 
reflects the traditional approach the Resources Committee has 
taken. Chairman Pombo has treated the Minority with much 
respect and fairness, and I appreciate his leadership, as I 
have said. For instance, while the committee currently has 69 
staff slots, 9 of those are deemed to be nonpartisan, shared 
employees. As such, the actual split is 40/20 between the 
Republican and Democratic staff, with one-third of the slots 
and salary controlled by myself as the Ranking Member. And in 
this regard, I share in Chairman Pombo's request for an 
increase of three staff positions.
    While the Resources Committee has been viewed as a more 
minor committee in comparison to a committee like Ways and 
Means or Transportation and Infrastructure, as the Chairman has 
demonstrated and has stated, we produce an incredible amount of 
legislation. The taxpayers do get their bang for their buck. In 
the last Congress alone, for example, the Resources Committee 
reported and the House passed 56 bills sponsored by Democrats. 
That is, sponsored by Democrats.
    As to the rest of the budget, our committee does not 
operate as if there are Republican or Democrat copiers or 
computers. If a piece of equipment reaches the end of its 
ability to function properly, it is replaced whether it is in 
the Minority office or the Majority office.
    There is one aspect of our budget, however, which did cause 
some consternation among certain Democratic Members last 
Congress. I am referring to the franking allocation of the 
Resources Committee, which was the highest among all House 
committees. The same amount, $50,000 per session, is again 
contained in the proposed budget.
    When our budget was submitted to you on February 15, 2005, 
I included a letter stating at that time that I was neutral on 
the franking request, as Chairman Pombo and I had not yet had 
the opportunity to discuss the matter. Since then, we have 
talked about it, Mr. Chairman, and we have come to an 
understanding that no mass frank mailings will be undertaken 
without consultation between Chairman Pombo and the full 
Franking Commission. He has also taken the unprecedented move 
of agreeing to give the Minority control of one-third of the 
approved franking budget. He is a man of his word, and with 
that agreement I stand side by side with Chairman Pombo in 
asking you to support this budget. Thank you, Mr. Chairman.
    [The statement of Mr. Rahall follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I thank both gentlemen.
    Questions?
    Ms. Millender-McDonald. Mr. Chairman, thank you so much. 
And I thank the two of you for coming before us. Certainly Mr. 
Rahall has answered the obligatory question that I have been 
raising over the last couple of days as we have had the 
chairmen and Ranking Members coming before us, and that is the 
two-third/one-third formula that has really been the--it was 
the brainchild of Mr. Bill Thomas, who was--just preceded you 
guys. And he wanted to reiterate that he wants to make sure 
that all committees are still carrying out that type of 
formula. And so I thank you so much.
    Mr. Rahall, sir, you are very much satisfied with what has 
taken place in terms of the budget? You have been informed by 
the Chairman as to what he has outlined in terms of the budget? 
You are aware the Chairman is asking for another $50,000 per 
session for franking mail?
    Mr. Rahall. Yes, ma'am.
    Ms. Millender-McDonald. And have you been totally involved 
with the franking mail and informed of that franking mail?
    Mr. Rahall. Yes, ma'am, I have. And we have reached an 
agreement, as I said, future mass mailings would be sent out in 
consultation with the Franking Commission and the Chairman.
    Ms. Millender-McDonald. And while we recognize that 
chairmen do not necessarily have to go before the Franking as 
it is outlined in present form, sometimes it is not so much the 
letter of the law, but it is the spirit of the law that we have 
to always, as Members of Congress, as elected officials, be 
able to ensure that the public sees that, not only the letter, 
but the spirit of the law.
    And, Mr. Chairman, you did speak about an aggressive 
mailing that you have undertaken over the last Congress, and 
anticipate, I suppose, am I correct, in undertaking this same 
type of aggressive mailing in this Congress?
    Mr. Pombo. Absolutely. One of the--when I initially 
testified when I took over this committee, I had asked for an 
increased franking budget. One of the issues facing this 
committee is that the millions of people who are impacted by 
this committee for the most part are in rural America. And 
having the opportunity to reach out and communicate with those 
people is extremely important not only to me, but to the 
Ranking Member of this committee. I believe that is extremely 
important that we do that.
    In regard to following the letter of the law and the spirit 
of the law, this committee followed the letter of the law, the 
spirit of the law, every law, rule, regulation. We consulted 
with the Franking Commission on everything that we sent out 
even though we were not required to do that. We have stayed 
within the law on everything that we have put out. What Mr. 
Rahall and I--the agreement we have is that the Minority would 
have one-third of the budget on franked mail to use to issue 
franked mail.
    But having said that, and Nick can back me up on this, 
almost half of the franked mail that went out in the previous 
Congress went into Minority Members' districts. It went into 
districts of members of the committee. But it went into Joe 
Baca's district, Dennis Cardoza's district. It was members of 
the committee who represent the Minority, and it went into 
their districts even before we had this agreement on one-third 
of the budget.
    Ms. Millender-McDonald. Well, you know, Mr. Pombo, of 
course you recognize those violations that have been outlined 
that you were in violation of.
    Mr. Pombo. Excuse me. There were no violations that I am 
aware of. There were concerns that were raised by outside 
groups. There were things that came up before the committee. 
But as far as I know, there were no violations.
    Ms. Millender-McDonald. Well, perhaps it was not as 
outlined in the election year mailing restrictions, but is it 
not true that, even if your position as Chairman, when you are 
doing mass mailings prior to hearings, as you have outlined 
this is what your whole mass mailing was all about, that it 
should be restricted to just those areas that you are going to 
have a hearing and not necessarily to battleground States that 
were part and parcel of the upcoming Presidential election?
    Mr. Pombo. The purpose of franked mail is to communicate 
with constituents. That is what we were doing. It was--I 
believe the particular mail that you are talking about went 
into the four States that have the greatest impact on the 
snowmobile issue. That mail did go out. It went into four 
States in which there were in excess of 80,000 jobs directly 
related to the snowmobile industry. It is an issue that this 
committee has undertaken over the past several years, it is 
something that this committee has been extremely involved in, 
and it is an issue that other committees have tried to dip 
their fingers into when it is under the jurisdiction of this 
committee.
    Ms. Millender-McDonald. And you have said that it went into 
Minority communities.
    Mr. Pombo. Minority districts.
    Ms. Millender-McDonald. Minority communities that have 
snowmobiles?
    Mr. Pombo. Minority districts. And the snowmobile issue 
went into the four States that are in the center of that 
particular issue on the ban of snowmobile access on public 
lands. It would not have made any sense to go into Los Angeles 
on snowmobiles or Florida on snowmobiles. You have to go into 
places like Minnesota, Montana, Wyoming, and Idaho.
    Ms. Millender-McDonald. Mr. Pombo, you are--and recognize 
that these are taxpayers' dollars that you do spend, 
irrespective of your ability and autonomy to use and to be even 
under the 90-day cutoff, it is still taxpayers' dollars, as you 
have outlined in your statement, and it is coming out of their 
pockets. And there are some people who were very outraged with 
getting mail from your committee in areas that they felt was 
not endemic to snowmobiles.
    Mr. Pombo. And there were a number of people that were very 
happy that our committee was very involved with that issue.
    Ms. Millender-McDonald. But can we be assured that in your 
coming year when you have this aggressive mass mailing, that 
you are going to try to stick within the constructs of this 
mailing going to--and prior to hearings, that will go into 
those areas of hearings and not just all over the place?
    The Chairman. Will the gentlelady yield?
    Ms. Millender-McDonald. Yes.
    The Chairman. I feel I need to clarify something. He did 
follow that. Let me just read this for a second.
    Criteria for committee franked mail. Must relate strictly 
to committee business. Committees have no geographical 
boundaries. These are the current rules of the Franking 
Commission.
    Committees are not required to submit mass mailings for 
approval. There is not even a spirit of this. They are not 
required. Since 1991, under the Democratic control and under 
Republican control since 1994, the precedent has been to 
require all mass mailings be submitted for approval by Members 
only and not committees or leadership.
    But the point I wanted to make is House Administration has 
to decide, and willing to talk about these changes in current 
procedures. But to ask him today to say, yes, I will abide by 
not mailing out, but the rest of all Chairs can do that, it is 
just not the franking rules.
    Now, if we don't like them, we can do something, but right 
now we are awaiting word of the appointment by the Minority on 
this committee of the Franking members, and we have sent that, 
and we are awaiting your appointments so that we can deal with 
any issues if anybody would allege something on the mailers. 
And we have past precedent on these mailers from subcommittee 
Chairs, and the one I am thinking about years ago before I was 
here that I was alerted to was a Democrat and was dismissed 
unanimously.
    But the thing I have to point out is whether you like the 
mail or you don't like the mail, or the content or not the 
content, he followed the rules of the House, because he can 
mail outside. Now, if he today wants to answer the question--
and you can answer the question--any way he wants, or you won't 
mail outside an area or another State, but according to the 
format we follow, he can mail anywhere he wants.
    Ms. Millender-McDonald. Mr. Chairman, I am not suggesting--
just a minute, Ms. Lofgren.
    Mr. Chairman, I am not suggesting that he cannot mail even 
outside of his State of California, or the gentleman from West 
Virginia. What I am suggesting here, first of all, we have been 
about the business of trying to be fair and equitable in this 
whole process. And Members, chairmen, have come before us 
saying that they will not go beyond this realm that has either 
been outlined through franking or, in his--as far as the 
Chairman is saying, that you do not have any restrictions, you 
do not have any restrictions on your mailing. But they have 
said that to ensure that we have a type of fair and equitable 
process that they would not do this.
    And I am asking you, would you do this? I understand that 
you do not have to be restricted to the State of California if 
you are going to have hearings in other States. But these seem 
to have been targeted to battleground States where we had a lot 
of--where there were really Presidential concerns there. And so 
my question is whether or not you will at least be fair and 
equitable in terms of, first of all, your Ranking Member having 
the autonomy to send mass mailers to wherever he wants to send 
them.
    Mr. Pombo. I am not exactly sure what question you are 
asking me. We followed all rules, all laws, rules, regulations. 
Bringing up that we mailed into a battleground State, I don't 
remember exactly what happened, but Montana, Wyoming, Idaho I 
don't believe were battleground States, and I don't believe 
that Minnesota ended up being a battleground State. I am not 
exactly sure what you are asking me to commit to.
    I will commit to you that I will follow all laws, rules, 
and regulations dealing with franking. And I can assure you 
that Mr. Rahall will do the same thing with his part of the 
budget. I am not--you are insinuating that there were some laws 
or rules or regulations that were broken by this committee in 
regards to franking, and if there is a specific law or rule 
that we broke, I would appreciate you letting me know what that 
is.
    Ms. Millender-McDonald. Mr. Pombo, I think you are aware of 
headlines that I am now reading where there has been many 
questions about your mailing and your mass mailing last year, 
and that those mass mailings went to targeted battleground 
States where Presidential elections were really at stake. And 
so my question to you is whether or not you did--you were 
within the construct of the law, whether you are going to be a 
little more--or careful in your mailing, and that that mailing 
be targeted only to those areas where you are going to have 
hearings and not outside of States where you are not going to 
have hearings.
    Mr. Pombo. Ma'am, franked mail is not about just doing 
hearings. It is about communicating with constituents on issues 
that are before the committee. That has nothing to do with the 
State of California or the State of West Virginia.
    Ms. Millender-McDonald. And I made that very clear that I 
was not talking about just the State of California or West 
Virginia.
    Mr. Pombo. But it is not just about informing people about 
when we are going to have a field hearing. It is about 
communicating on issues that are before the committee. And that 
is what we did, and that is what I expect Mr. Rahall to do.
    Ms. Millender-McDonald. Mr. Chairman, I really do think--I 
think we need to look at this issue again, because if other 
chairmen are going to come before us and they are going to cite 
that they will stay within a certain parameter of mass 
mailings----
    The Chairman. Would the gentlelady yield?
    Ms. Millender-McDonald. Yes.
    The Chairman. I would be willing to bet the mortgage of my 
house--I have been in the same hearings with you in 2 days, 
nowhere was the question asked, in my recollection, of any 
Ranking Member: Will you not mail outside an area? Now, it was 
asked, will you mail for hearings, but I don't recall ever that 
that was ever asked or answered.
    Ms. Millender-McDonald. I thought I did ask that question, 
sir, many times.
    The Chairman. I don't believe. But we can----
    Ms. Millender-McDonald. We can check the transcripts on 
that. But can we then try to review this? Because I think it is 
totally unfair that you have a chairman that does one thing, 
and other chairmen who perhaps want to do this have not been so 
inclined to do that.
    Ms. Lofgren. Would the gentlelady yield? I think that there 
is another issue here. It is true--and I think it is a mistake, 
frankly, but it is true that committees do not need to submit 
their mass mailings to the Franking Commission. But that is not 
the end of the story, because it violates Federal law to use 
taxpayer funds to campaign, in a political effort. And so the 
underlying question is was the nature of the mailing really a 
political mailing.
    And you are aware, it is not fun to ask questions, and we 
share part of Santa Clara County, but certainly you are aware 
that many questions about the content of those mailers have 
been raised in the public. And if you read them and then take a 
look also at your Web page, which also does not have to go 
before Franking, it is highly political talking about the 
Presidential campaign. It was sent widely and sent also into 
congressional races that would be contested between the parties 
and was so politicized. Whether or not the Franking Commission 
checked into it is not the concern; the concern is whether the 
law prohibiting the use of taxpayer funds for a political 
purpose was adhered to.
    I just have a question. Looking at where these mailers were 
sent, they were sent to two Members. I guess Mr. Renzi and Mr. 
Pearce are both in your committee. Those were sharply contested 
races. The two Democratic members, Mr. Baca and Mr. Cardoza, 
had token opposition.
    So I think there are many questions, and I would just like 
to know. The Franking Commission would protect you from these 
kinds of questions that are being asked; because if the 
Franking Commission says, yes, this is not a political mailer, 
then you know you are on pretty safe ground, that you haven't 
violated the law about sending out political mailers at 
taxpayers' expense. Wouldn't you think that would be a good way 
to proceed next year?
    Mr. Pombo. Well, Ms. Lofgren, we did informally check with 
the Franking Commission before we mailed out any mail just to 
make sure that we were within the law, and it baffles me 
somewhat that members of this committee would, instead of 
actually looking at the mailing that went out, read from what 
are obviously misinformed press clippings about what actually 
went out from the committee. An accusation from some political 
adversary does not necessarily mean that we did anything wrong.
    Ms. Lofgren. Well, I wasn't on the committee last year.
    Mr. Pombo. I am just pointing out to you that there is 
nothing in the mailer that is political. And I would challenge 
anyone to point out to me--we don't advocate party, we don't 
ask for a vote. It was totally informational about what went 
out from my committee, from the Committee on Resources, and it 
was all within the law.
    Now, if someone wants to suggest that franked mail in the 
future only be about informing constituents of upcoming town 
hall meetings or hearings, I think that other Members of 
Congress would be very concerned if that is the direction that 
this committee wants to go, because I would challenge you that 
most of the franked mail that comes out of Members of Congress' 
offices is informational pieces, and is not just telling people 
about when your next town hall meeting is.
    Ms. Lofgren. Well, but we have limits as Members, you and I 
both do, when we send out franked mail from our offices. 
Sometimes I don't like the limits, and sometimes I think they 
are wrong. We all have beefs with the Franking Commission, but 
at least we know that it is not a political mailer or can't be. 
I guess reasonable people can differ, but a lot of people feel 
they were political mailers and that the Web site was also. You 
have got, Kerry, is he flip-flopping? That was picking up from 
the Presidential campaign. It looks like the use of official 
resources for a political campaign. I think it is very 
problematic and that you would save yourself problems of the 
criticism and protect yourself if we were to go through, even 
though the law doesn't require it, the Franking Commission to 
avoid this.
    Mr. Pombo. Well, I would again tell you that the committee 
followed all laws, rules, regulations in regards to franked 
mail. And any accusations to the contrary are, quite frankly, 
unfounded.
    Ms. Millender-McDonald. Reclaiming my time from her.
    Mr. Rahall, are you then at liberty--are you going to mail 
out some--this mass mailing of--to constituents of yours 
speaking about the Minority Leader Pelosi and what she is doing 
to further advance the Resources Committee's objectives and 
goals?
    Mr. Rahall. Well, I appreciate the gentlelady's question. 
And we have not really set up what our plans are yet, our 
agenda as far as mass mailings, if any, that we plan on doing 
from the Minority side this year. But they would, as the 
Chairman has indicated, be mailings on issues, issue-oriented, 
and may not necessarily be going to my constituents.
    Ms. Millender-McDonald. No. Not necessarily going to your 
constituents. But what I am saying is that given that this 
mailer that I received has the President's name on it many 
times, and so, of course, if you are going to do some mass 
mailers, would you then also be sure to include what your 
leadership is doing with reference to the Resource Committee's 
objectives and goals?
    Mr. Rahall. Well, like the Chairman, I would follow every 
law, rule, regulation. And, yes, I would expect to have items 
that are of interest to the audience and the issues that are of 
concern to our leadership.
    Ms. Millender-McDonald. But, see, there are no laws and no 
rules and no nothing, so you can just do this carte blanche. 
And so given that you can do this carte blanche, I am just 
suggesting to you will you then exercise the right as a Ranking 
Member to do what the Chairman has done and will be doing in 
terms of getting this information out to the mass of people who 
he wants to share the common goals and objectives of this 
committee? Will you be doing that and be sharing what your----
    Mr. Rahall. Yes, ma'am.
    Ms. Millender-McDonald. And be sharing what your leader is 
doing with reference to this?
    Mr. Rahall. Yes, ma'am.
    Ms. Millender-McDonald. Okay. Fine.
    Thank you, Mr. Chairman.
    Ms. Lofgren. Mr. Chairman, I have a few other questions on 
other subjects. And I was actually very surprised when I read 
the House newspaper, The Hill, in October and found that the 
Chairman had decided to close the committee for, I guess, about 
a month. I want to understand what that was all about since the 
committee is asking for just shy of a 10 percent increase in 
its budget. And I am wondering, what is the vacation policy of 
the House Committee on Resources? How many days of vacation do 
the staffers get each year? Was it a full month that the 
committee was closed down in October? What days were closed 
down? And did any of the staff not go on vacation when you 
closed the committee?
    Looking at with Web site, I don't know, but it doesn't 
appear that there were any hearings or markups after September 
29, and it doesn't appear there were any press committee 
releases after October 15. Can you enlighten us on those 
questions?
    Mr. Pombo. I believe, if memory serves me correctly--I 
would have to go back and look to tell you for sure--that most 
of the month of October, that the Members--most of the staff of 
the committee was placed on administrative leave or allowed to 
go do other activities. Part of that was there were site visits 
and district issues that staff of the committee were doing. The 
main purpose of that was that at that point in time, we had 
completed for the year the congressional work and allowed the 
staff to do other things. A number of staff chose to do site 
visits; a number of staff chose to work from home. There were 
other things that they did. A lot of it involved going to other 
States and other places around the country outside of 
Washington, D.C. We did not have--Congress had completed its 
business at that point. We did not have markups or official 
hearings within Washington, D.C., during that time period, no.
    Ms. Lofgren. I can't recall if this was in the newspaper 
article that talked about it, but certainly, because it was 
just before the Presidential election, concern has been 
expressed in some circles that potentially some of the 
individuals who were still on the government's salary, but were 
off, dispatched to work on campaigns when they were not taking 
vacation time. And I think this is an opportunity for you to 
address that.
    Mr. Pombo. And I am glad that you asked that question, 
because I did read some erroneous media reports on that. Any 
member of the staff who chose to work on a campaign during that 
time period was required to take vacation time. There was no 
one who was given government salary to go work on a campaign. 
Anyone who chose to go work on a campaign during that time 
period had to use their vacation in order to do it.
    Ms. Lofgren. So you have maintained records. And how much 
vacation does each staffer get? How many weeks?
    Mr. Pombo. I think that is dependent on the number of years 
that they have been----
    Ms. Lofgren. So you have a schedule that is published and 
all of that?
    Mr. Pombo. It is all part of the committee rules. And it is 
the same on both sides.
    Ms. Lofgren. I had a question about some specific staff 
travel and I would like to get an answer. You may not be able 
to answer today. But I took a look at Mr. Kennedy, the press 
secretary, and I note that he turned in a bill for $1,042 the 
day after the election. I don't know where he was traveling, 
but since there were no press releases issued, I am wondering 
what was he doing and where did he go?
    Mr. Pombo. Mr. Kennedy travels with me quite extensively. 
And--I probably shouldn't say where, exactly where he was, but 
I believe during that time period he was with me in California. 
Well, for the most part we were in California. But he travels 
with me quite extensively.
    Ms. Lofgren. Well, it is not fair to ask you to know that 
here, but if we can get that information later, that will be 
very helpful.
    Once questions are asked, you take a look at these more 
thoroughly. None of us have privacy because it is all the 
taxpayers' money. Taking a look at some of the other 
professional staff, I saw Mr. Miller, Mr. Whaley, and Mr. 
Sampson also submitted vouchers in good-sized chunks for the 
same time period. And I was wondering, the expenses were nearly 
$4,000. I wonder about that since the committee staff was 
supposedly on vacation. Can you enlighten us on that?
    Mr. Pombo. I would have to answer that for the record, 
because those are our professional staff members, and I can't 
tell you by memory exactly where they were.
    Ms. Lofgren. Okay. That is fair. And I would like to get 
that later when you have a chance to take a look at it.
    I have only one other question, and it is an unusual 
situation, and it has to do with who is your chief of staff? I 
note that Mr. Ding is really on your payroll for a very minor, 
I think the minimum amount that is possible, 300 a month on the 
MRA. But I think has an important position on the Resources 
Committee given his salary. And I am not criticizing the 
salary, I am sure he is a very competent individual, but it 
looks like he is traveling on your MRA probably, I mean, very 
frequently, almost every week back to the district. I am 
wondering, as a member of the Resources Committee, what is his 
necessity to be back in California on that kind of basis? Not 
that the staff phone book is accurate, but Ms. Carter is named 
your chief of staff in the telephone book. So who is the chief 
of staff, and how does this work? Because----
    Mr. Pombo. Jessica Carter is my chief of staff in my 
personal office. Steve Ding is the staff director of the 
Resources Committee, and he also does work in my personal 
office as well, and he travels with me extensively; he has for 
a number of years. He is probably one of the best staff members 
on Capitol Hill, and I would stand by him 100 percent.
    Ms. Lofgren. I am not suggesting otherwise. I am just 
trying to figure out how the money works between your office 
and the committee. It is not about his competence at all. I 
look forward to getting the information later that obviously 
you can't be expected to memorize. I am glad I gave you the 
opportunity to address these issues that have been out there in 
the public for so long. And I yield back, Mr. Chairman.
    The Chairman. I want to thank the gentlelady for her 
comments and kindness today to the Chair. And I want to thank 
both Members for being here.
    Let me just reiterate one thing just to--I hope to clear 
this up. It is the responsibility of House Administration to 
deal with the franking issues. I believe the Chair is correct 
that February 10 we sent the Minority on this committee a 
proposal about this filing that was done by this group; and if 
the letter is sent from your leader to the Speaker, you will 
have your appointments to franking that we would like to see 
happen, and then we can have the vote on this. Historically, 
this vote was done again before with the Democrat subcommittee 
chair, who had--the question has arisen on that issue of their 
ability to mail.
    In 1991, under Democratic control, this was changed and 
kept in 1994 under Republican control. But at that time the 
issue was to focus on the individual Members, because prior to 
reform there was no individual accountability, no public 
disclosure, and only postal patron mailings only if you sent to 
a ZIP code. And the House alone was spending $120 million. The 
House is now spending between 20 million and 25 million. But 
the leaders of the House do not go for franking opinions, the 
Chairs of the committees don't. I know on several occasions Mr. 
Pombo, his staff has brought franking pieces--because we had 
this debate on the floor of the House and had brought these 
over to be looked at, which is voluntary to do.
    But, you know, in my opinion--and I believe the record 
stands of how we operate here in the House, whether someone 
likes the mailer or they don't like the mailer, and we can go 
back through the past 25-year history of mailers, but he didn't 
violate any law, and he followed the current operating 
procedures we have.
    Now, if, in fact--and this is, my question on this issue to 
both of you. But if, in fact, this committee working together 
decides to change some of the rules, whether it is to put the 
leadership under the committee, the committee Chairs, the 
process, the 90-day blackout, then I guess I would ask both 
people, if we change the rules, will you follow the new rules 
we change?
    Mr. Pombo. Mr. Chairman, whatever----
    The Chairman. I will answer for both of you. Yes.
    Mr. Pombo. Yeah. I mean, whatever rules that you establish 
for the committee, I am sure Nick and I will follow them.
    The Chairman. I don't want to beat the dead horse, but 
those were the rules, whether you like the mail or not, and the 
rules were followed.
    Ms. Lofgren. Mr. Chairman, just an oversight. I think we 
need to keep the record open so Mr. Pombo's written responses 
can be officially received by the committee.
    The Chairman. Well, that is not unusual. In fact, standard 
practice, as the gentlelady knows, and being an attorney, we 
always keep them open. And no objection to that on the past two 
hearings as we did the last one.
    With that, I want to thank both gentlemen for being here.
    Ms. Millender-McDonald. I look forward to Mr. Rahall 
sending some of his mail into my district so I can see it as 
well.
    The Chairman. Hopefully he will send a little across the 
border to Ohio in Belmont County, too.
    Ms. Millender-McDonald. Absolutely. Spread it across the 
country.
    The Chairman. Thank you very much.
    And the next committee up, the last committee, in fact, and 
we will be done, is Government Reform. And I note both Mr. 
Waxman and the Chair had a time line, so I appreciate you--
okay. I appreciate your coming.
    We will start with the Chair, Mr. Davis of Virginia, and 
then go on to Mr. Waxman.

STATEMENT OF HON. TOM DAVIS, A REPRESENTATIVE IN CONGRESS FROM 
                     THE STATE OF VIRGINIA

    Mr. Davis. Thank you, Chairman Ney, and Ms. Millender-
McDonald and Ms. Lofgren. I want to thank you for this 
opportunity to testify before the Committee on House 
Administration on the Government Reform Committee's budget 
proposal.
    Let me just note, in the 103rd Congress this committee was 
three committees; it was the Post Office and Civil Service 
Committee, it was the old District of Columbia Committee, and 
it was the Government Operations Committee. It was three 
committees at that point with a total of 192 staff slots. Today 
we do the work of those three committees with 118 people. So 
there has already been a significant reduction. And if you look 
at our legislative accomplishments over that time, we are 
putting out more legislation than those three committees 
combined did in the 103rd with about a little over half as many 
people.
    With now a full term as chairman of the committee under my 
belt, I propose a budget that reflects the needs of the House's 
busiest committee with the largest jurisdiction and oversight 
responsibilities. First, I want to note that this past Congress 
was the first time in history the Committee on Government 
Reform's Minority staff received 33 percent of the committee's 
budget. Henry Waxman, our Ranking Minority Member, and I worked 
together in reaching this goal, and we look forward to 
cooperating in this Congress to make our Federal Government 
more efficient.
    The budget proposal we present supports an aggressive 
agenda for the 109th Congress. Our focus is on stamping out 
fraud, waste, and mismanagement in the Federal Government, and 
making necessary reforms to these challenges. In the 108th 
Congress, in the last Congress, our committee held 340 hearings 
and markups, 176 in 2003, 164 in 2004. That is dozens more than 
you will find with any other committee.
    But our work has been more about quality than mere 
quantity. The committee accomplished much on a broad spectrum 
of areas legislatively. The Pentagon's national security 
personnel system, the D.C. School Choice Act, the Services 
Acquisition Reform Act, postal pension reform, a significant 
portion of the 9/11 Implementation Act originated in our 
committee.
    On the oversight front, we played a lead role in looking 
into the U.N. oil-for-food program, pay and medical problems 
facing National Guard and reservists, flu vaccines, drug 
smuggling at U.S. Borders, drug prevention and treatment 
programs, the President's faith-based initiative, and oversight 
of personnel management.
    During the 109th Congress our agenda is even more 
aggressive. Our legislative agenda focuses on computer 
security, Postal Service reform, driver's license security, 
identity theft, streamlining the Presidential appointments 
process, Federal law enforcement pay and classification reform, 
reorganization of the GSA, and additional acquisition reform.
    On the oversight side, the committee focuses on the GAO's 
high-risk list, management of the Department of Homeland 
Security, the battle against narcoterrorism, the FDA's ability 
to ensure adequate flu vaccine availability and protecting the 
public from dangerous prescription drugs, the evolving role of 
the National Guard, the misuse of Federal grant money in the 
District of Columbia, and many others.
    Our continued goal is to see improvements in the efficiency 
and effectiveness of the Federal Government, to root out waste 
and mismanagement in government programs, and to protect the 
rights and interests of American taxpayers.
    I am working to make our committee home plate when it comes 
to accomplishing these goals. With the amount of legislative 
and oversight hearings in the 108th and this aggressive agenda 
noted in the 109th, we believe we can accomplish our goals with 
an 8.8 percent increase from last year's budget. But I would 
like to give you a brief history on the committee's budget.
    In the 104th Congress, the committee acquired two other 
standing committees, as I noted before, and we have made them 
subcommittees of the Government Reform Committee.
    During the 103rd Congress, the Government Reform staff--
well, I went through the combined numbers with you a minute 
ago, and we are down to almost half of what we were in the 
103rd Congress when you look at the combination. When the two 
standing committees combined with Government Reform, it 
received 105 employees and a budget of 13.5 million. We cut the 
committee funding in half.
    In the 105th Congress, the committee budget increased to 
enhance its investigative resources, but those gains have 
disappeared over the years.
    From the 105th Congress to the 108th, the committee has 
received an average 0.7 percent decrease in funding. So, from 
the 105th Congress to the 108th, the committee has received a 
decrease in funding. This average doesn't meet the demands of 
the cost of inflation over the past three Congresses. Even an 
8.8 percent increase to the committee would yield an 
approximately 1.7 percent increase from the 105th Congress.
    I am not here to ask for more money simply for equity's 
sake. We have specific plans for how we would utilize it. One 
area is in committee staffing, and in order to accomplish the 
goals of the 109th Congress, we see a need for three 
additional, two new employees for the Majority and one for the 
Minority, that would assist the committee in carrying out its 
legislative and oversight responsibilities.
    Additional committee funding will help us pay for the 
increase in transit benefits that are now available to all 
employees. In the past, funds have been transferred from other 
lines of operation to meet those needs.
    We would also like the ability to hire consultants in 
specialized areas to give us expertise in the areas of 
technology, acquisition, and health policy as part of our 
efforts to locate fraud, waste, and abuse.
    The committee acquired much of its equipment during the 
107th Congress. We would like to update our equipment and 
technology to keep our software current. And it is our goal to 
upgrade work stations every 3 years to keep pace with 
technology.
    We have also requested an increase for the hiring of 
outside Webcasting and vendors for Web site development. 
Extensive use of travel for our investigations and field 
hearings, the result of our wide jurisdiction and commitment to 
oversight, is also a necessity for our committee. This is in 
order to get a true perspective on investigations and 
oversight, and not to be limited to an inside-the-Beltway 
insight from our hearing witnesses.
    With this proposal we believe we can meet the needs of the 
committee's legislative and oversight agenda, and at the same 
time reach our goals in stamping out waste, fraud, and abuse.
    Once again, I thank you for this opportunity to testify 
before the committee, and we look forward to working with you 
in this Congress.
    [The statement of Mr. Davis follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. Wow. What do you do in your spare time?
    I just want to ask one question, be it a little irregular 
here, because I know we are supposed to go to our distinguished 
Ranking Member. But your home plate goals, was that intentional 
or----
    Mr. Davis. We just try to touch all the bases.
    The Chairman. Well, you made a home run. Thank you.
    Mr. Waxman.

STATEMENT OF HON. HENRY A. WAXMAN, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Waxman. Mr. Chairman, Ms. Millender-McDonald, Ms. 
Lofgren, members of the committee, I am pleased to have the 
opportunity to go to bat with Chairman Davis on behalf of the 
budget request that our committee is making.
    When Chairman Davis took over the gavel in the last 
Congress for the Government Reform Committee, he pledged to 
continue providing the Minority with a 33 percent allocation of 
the committee resources, and I am pleased he is continuing this 
approach in this Congress. In addition, I am grateful for the 
good lines of communication that Chairman Davis has established 
with the Minority. We do not always agree, but we always make 
an effort to understand each other's position and to conduct 
the committee's business professionally. And in important areas 
such as oversight of steroid use in baseball, which is on our 
minds because we are having a hearing on that topic tomorrow, 
we are able to work together on a bipartisan basis.
    It is important to put the Government Reform Committee 
budget request in perspective. Over the last three Congresses, 
the budgets of other House committees have grown on average 33 
percent. Some committees have seen their budgets grow by over 
60 percent. Our committee, the Government Reform Committee's 
budget has actually been cut over this period. We have seen our 
total budget cut by 2 percent during a period in which 
inflation alone has increased by 14 percent.
    I join Chairman Davis in emphasizing that the committee 
cannot fulfill its crucial legislative and oversight 
responsibilities if this trend continues. That is why it is so 
critical that the Government Reform Committee budget request be 
fully funded.
    The committee is responsible for addressing numerous 
pressing public policy challenges facing our Nation. I won't go 
through the extensive list that the Chairman has given you, but 
I do want to point out that we have legislation to reform the 
Postal Service which is critical to the long-term viability of 
that system. We continue our important work to ensure our 
Nation's drug control policies are operating effectively 
through reauthorization of the Office of National Drug Control 
policy and oversight of drug control efforts.
    The committee continues to conduct oversight of the 
District of Columbia. Chairman Davis and I have worked together 
to look at FDA enforcement of false and misleading 
advertisements, manufacturing practices for drugs, biologics, 
and vaccines. And, of course, we are examining the growing 
problem of youth steroid use.
    I hope that, for these reasons, the members of this 
committee will support our committee's funding request in its 
entirety. I thank you, Mr. Chairman, for this opportunity to be 
here and to answer any questions you or your members may have.
    [The statement of Mr. Waxman follows:]


    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    The Chairman. I want to thank both the gentlemen for being 
here.
    Mr. Waxman, is the split workable, the two thirds/one third 
funding?
    Mr. Waxman. I would prefer that we got the two-thirds, but 
other--but since the rules have always been that--since the 
objective has been for many, many years the idea that the 
Minority would get one-third, we have been treated fairly in 
that regard.
    The Chairman. I worked with you 4 years ago, and I 
appreciate that, on a difficult situation, to get that into 
balance we worked with you personally.
    Mr. Waxman. I do recall that. I appreciate that.
    The Chairman. Under a previous Chair, and appreciated your 
working with us to try to get that into line 4 years ago.
    I really have no questions of the Chair.
    Ms. Millender-McDonald. Mr. Chairman, thank you so much.
    Mr. Waxman, help is on the way in terms of the two-thirds, 
I suppose.
    Mr. Waxman. We have to wait for elections for that.
    Ms. Millender-McDonald. As one once said, it is good to 
know, though, that you are working admirably, I suppose, with 
the one-third for the total budget, the slots, and the control 
that you have. As I have spoken with you, and you seem to be 
pretty satisfied with that, and that is a good thing because 
the Chairman is just adhering to the formula that this 
committee has set forth even going back to when Mr. Thomas was 
the Chair. He outlined that formula, and we are keeping with 
that.
    Mr. Waxman. For our committee, the Minority, we go all the 
way back to Mr. Ney's chairmanship of where we were able to get 
the third. But in previous years there were all sorts of ways 
that, when all was said and done, we didn't get quite what the 
objective was. So I want to acknowledge the role that the 
Chairman here had played in that, and to express to you that we 
feel that we are being treated fairly.
    Ms. Millender-McDonald. Very good. Very good.
    In terms of the request for your franking, Mr. Chairman, I 
see that you had requested over the years certain amounts, 
$17,500, but you spent barely $3,700, and then $9,000 in the 
other one, in the first and second session of the 108th 
Congress. You are requesting now $25,000, and I would just ask 
what--by what means are you expecting to expand the mass 
mailing?
    Mr. Davis. One of the--I guess one of the beauties of this 
committee is we oversee all Federal procurement. And one of the 
things we have tried to do, Federal procurement right now is 
centered inside the Beltway, in and around Washington, which is 
great for my district; our unemployment rate is 1.4 percent. 
But what we are trying to do is go out into other communities 
and put on seminars how you sell to the government so that we 
can get the benefit of what people outside the Beltway can 
offer the Federal Government, whether it is goods or services. 
And franking is the best way to do this. We did three or four 
of these last time; we did one up in Mr. Tierney's district, we 
did one out in the Bay Area. But there are other areas, not 
just technology areas, where this is useful not just to the 
Members, but to the businesses in those areas. And it is 
helpful to the government, because the more bidders we have, 
the better we can drive prices down and get more competitive 
rates. So it is basically what we call these procurement fairs. 
It is a benefit to our Members, but also people outside the 
committee as well. And the frank is a very good way to reach a 
lot of these businesses.
    Ms. Millender-McDonald. Well, I really--having my undergrad 
in business administration marketing, I am certainly one who 
advocates marketing as much as you can to get the word out. So 
that is a good thing.
    Mr. Waxman, how much of the franking funds do you use for 
your own franking mailing?
    Mr. Waxman. I would like to give you the answer to that for 
the record. I don't know offhand, but I assume we get a split 
to serve the needs of the Minority for the very same purpose. A 
lot of our Members, not just on our committee, but Democratic 
Members in the House would like to have these opportunities for 
these fairs that can reach out to people to understand how they 
can get involved in government contracts; particularly in 
minority areas, I think that would be very, very helpful. So I 
don't know the exact number, but I assume that we will want to 
be able to have a fair distribution of it.
    Ms. Millender-McDonald. I would like to think so as well.
    Mr. Davis. We did one in Mrs. Maloney's--I mean, we don't 
care whose district it is in. We try to involve our regions. 
Ultimately, this benefits the Federal Government, so we would 
be happy to work with Mr. Waxman on these areas.
    Ms. Millender-McDonald. Very good. Thank you so much to 
both of you.
    And, Mr. Chairman, I would like to perhaps get a report as 
to how much is being spent on franking both with the Chair and 
the Minority or the Ranking Members on each committee, and 
report that back to us. Thank you so much.
    The Chairman. The gentlelady from California.
    Ms. Lofgren. I would just say I think the questions that 
have been asked are interesting. As you know, I serve on the 
Judiciary Committee, and I was interested in your comment about 
antitrust in baseball, especially since San Jose wants a 
baseball team. So perhaps we can talk further about that later.
    And I yield back, Mr. Chairman.
    The Chairman. I want to thank both gentlemen for being here 
today and your time before the committee. Thank you.
    I ask unanimous consent that Members have 3 business days 
to submit their statements and materials for the record. Those 
statements and materials will be entered in an appropriate 
place in the record. Without objection, material will be so 
entered.
    Also, I would note the gentlelady's request, too. Of 
course, the questions, this record will be open for the 
questions to be answered and submitted. I don't know, 30 days, 
I assume? I mean, or 2 weeks?
    Ms. Lofgren. I am sure it wouldn't take the Chairman more 
than 30 days. They were simple questions.
    The Chairman. Then we will--leave making sure I am 
technically correct here. Three business days. Without 
objection, the material will be entered.
    I ask unanimous consent staff be authorized to make 
technical and conforming changes on all matters considered by 
the committee in today's portion of the hearing. Without 
objection, so ordered.
    Having completed our business for the day in this hearing 
on the committee funding, the committee is hereby adjourned.
    [Whereupon, at 5:53 p.m., the committee was adjourned.]

                                  <all>

</pre></body></html>
